No. ______

In the

Supreme Court of the United States
CARLOS VEGA,
Petitioner,
V.
TERENCE B. TEKOH,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
RICKEY IVIE
ANTONIO K. KIZZIE
IVIE MCNIELL WYATT
PURCELL & DIGGS, APLC
444 S. Flower Street
Suite 1800
Los Angeles, CA 90071

ROMAN MARTINEZ
Counsel of Record
GREGORY G. GARRE
CHARLES S. DAMERON
MICHAEL CLEMENTE
JOSHUA J. CRADDOCK
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for Petitioner

i
QUESTION PRESENTED
In Miranda v. Arizona, 384 U.S. 436 (1966), this
Court announced a prophylactic rule protecting the
Fifth Amendment right against self-incrimination.
That rule generally prohibits criminal trial courts
from admitting into evidence against a criminal
defendant any self-incriminating statement made by
that defendant while he was in custody, unless the
defendant first received certain warnings spelled out
in Miranda. The Civil Rights Act of 1871, 42 U.S.C.
§ 1983, provides a damages remedy for deprivations
of any right secured by the Constitution and laws of
the United States. The question presented is:
Whether a plaintiff may state a claim for relief
against a law enforcement officer under Section 1983
based simply on an officer’s failure to provide the
warnings prescribed in Miranda.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Carlos Vega was a defendant-appellee
in the United States Court of Appeals for the Ninth
Circuit. The County of Los Angeles and Dennis
Stangeland, Sergeant with the Los Angeles County
Sheriff’s Department, were also defendants-appellees
in the U.S. Court of Appeals for the Ninth Circuit, and
are not participating in the proceedings in this Court.
The Los Angeles County Sheriff’s Department and
Does 1 to 10, were named as defendants in the United
States District Court for the Central District of
California.
Respondent Terence B. Tekoh was plaintiffappellant in the United States Court of Appeals for
the Ninth Circuit.
RELATED PROCEEDINGS
Tekoh v. County of Los Angeles, No. 18-56414, U.S.
Court of Appeals for the Ninth Circuit. Judgment
entered January 15, 2021; rehearing denied June 3,
2021.
Tekoh v. County of Los Angeles, No. 2:16-cv-07297GW-SK, U.S. District Court for the Central District of
California, judgments entered November 7, 2017 and
October 5, 2018.
People v. Tekoh, No. BA423260, Superior Court of
California, County of Los Angeles. Verdict entered
March 1, 2016.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDINGS BELOW .......... ii
RELATED PROCEEDINGS ...................................... ii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATUTORY PROVISION INVOLVED ...................1
INTRODUCTION .......................................................2
STATEMENT OF THE CASE ....................................4
A. The Criminal Case And Finding Of No
Miranda Violation ...........................................5
B. The Civil Action And Jury Verdicts
Rejecting Tekoh’s Section 1983 Claims ..........7
C. The Ninth Circuit’s Reversal ..........................8
D. The Seven-Judge Dissent From Denial
Of Rehearing .................................................10
REASONS FOR GRANTING THE WRIT................ 12
I.

The Ninth Circuit’s Holding Conflicts With
The Decisions Of Other Circuits And
Deepens An Existing Circuit Split .....................12

II. The Ninth Circuit’s Decision Is Wrong ..............20
A. Miranda Announced A Prophylactic
Constitutional
Rule
Governing
Admissibility Of Evidence, Not A
Constitutional
Right
To
Police
Warnings .......................................................20

iv
TABLE OF CONTENTS—Continued
Page
B. Police Officers Do Not Proximately
Cause The Improper Admission Of UnMirandized Statements ................................28
III. The Question Presented Is Exceptionally
Important And Merits Review In This
Case .....................................................................32
CONCLUSION .......................................................... 35

APPENDIX
Opinion of the United States Court of Appeals
for the Ninth Circuit, Tekoh v. County of
Los Angeles, 985 F.3d 713 (9th Cir. 2021) .........1a
Judgment of the United States District Court
for the Central District of California, Tekoh
v. County of Los Angeles, No. 2:16-cv-07297
(C.D. Cal. Nov. 7, 2017), Dkt. No. 193 .............27a
Ruling of the United States District Court for
the Central District of California on
Plaintiff’s Motion for a New Trial, Tekoh v.
County of Los Angeles, No. 2:16-cv-07297
(C.D. Cal. Mar. 8, 2018), Dkt. No. 206 .............30a
Transcript of September 20, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 29, 2019), Dkt.
No. 342 (excerpts) .............................................62a

v
TABLE OF CONTENTS—Continued
Page
Transcript of September 24, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 29, 2019), Dkt.
No. 343 (excerpts) .............................................65a
Judgment of the United States District Court
for the Central District of California, Tekoh
v. Sgt. Carlos Vega, No. 2:16-cv-07297
(C.D. Cal. Oct. 5, 2018), Dkt. No. 307 ..............67a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, Tekoh v. County of Los
Angeles, 997 F.3d 1260 (9th Cir. 2021),
with concurrence and dissent...........................71a
42 U.S.C. § 1983 ......................................................97a
Transcript of August 27, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 25, 2019), Dkt.
No. 340 (excerpts) .............................................98a
[Proposed] Supplemental Jury Instructions
Re: Fifth Amendment, Miranda and
Damages, Tekoh v. Sgt. Carlos Vega, No.
2:16-cv-07297 (C.D. Cal. Sept. 21, 2018),
Dkt. No. 280 (excerpts) ...................................107a
Final Jury Instructions, Tekoh v. Deputy
Carlos Vega, No. 2:16-cv-07297 (C.D. Cal.
Oct. 2, 2018), Dkt. No. 299 (excerpts) ............117a

vi
TABLE OF AUTHORITIES
Page(s)
Arizona v. Roberson,
486 U.S. 675 (1988) ..............................................23
Bennett v. Passic,
545 F.2d 1260 (10th Cir. 1976)............................17
Brecht v. Abrahamson,
507 U.S. 619 (1993) ..............................................23
Brown v. Illinois,
422 U.S. 590 (1975) ..............................................23
Burrell v. Virginia,
395 F.3d 508 (4th Cir. 2005)................................15
Chavez v. Martinez,
538 U.S. 760 (2003) ...................................... passim
Connecticut v. Barrett,
479 U.S. 523 (1987) ..............................................23
Davis v. United States,
512 U.S. 452 (1994) ..............................................23
Dickerson v. United States,
530 U.S. 428 (2000) ........................ 9, 11, 22, 24, 25
Duckworth v. Eagan,
492 U.S. 195 (1989) ..............................................23
Egervary v. Young,
366 F.3d 238 (3d Cir. 2004) .................................31

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Evans v. Chalmers,
703 F.3d 636 (4th Cir. 2012)................................31
Fare v. Michael C.,
439 U.S. 1310 (1978) ............................................23
Florida v. Powell,
559 U.S. 50 (2010) ................................................27
Golden State Transit Corp. v. City of
Los Angeles,
493 U.S. 103 (1989) ..............................................25
Gonzaga University v. Doe,
536 U.S. 273 (2002) ........................................24, 25
Hannon v. Sanner,
441 F.3d 635 (8th Cir. 2006).................... 15, 16, 27
Haulman v. Jefferson County Sheriff Office,
15 F. App’x 720 (10th Cir. 2001) .........................17
Holmes v. Securities Investor Protection Corp.,
503 U.S. 258 (1992) ..............................................29
Howes v. Fields,
565 U.S. 499 (2012) ........................................27, 30
J.D.B. v. North Carolina,
564 U.S. 261 (2011) ..............................................27
Johnson v. Winstead,
900 F.3d 428 (7th Cir. 2018)................................14

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Jones v. Cannon,
174 F.3d 1271 (11th Cir. 1999)............................18
Malley v. Briggs,
475 U.S. 335 (1986) ..............................................28
Maryland v. Shatzer,
559 U.S. 98 (2010) ..........................................27, 30
McKinley v. City of Mansfield,
404 F.3d 418 (6th Cir. 2005)..........................16, 17
McNeil v. Wisconsin,
501 U.S. 171 (1991) ..............................................23
Michigan v. Harvey,
494 U.S. 344 (1990) ..............................................23
Michigan v. Payne,
412 U.S. 47 (1973) ................................................23
Michigan v. Tucker,
417 U.S. 433 (1974) .................................. 22, 23, 31
Minnesota v. Murphy,
465 U.S. 420 (1984) ..............................................21
Miranda v. Arizona,
384 U.S. 436 (1966) .............................. 2, 10, 22, 30
Montejo v. Louisiana,
556 U.S. 778 (2009) ..............................................27

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Murray v. Earle,
405 F.3d 278 (5th Cir. 2005).................... 18, 19, 31
New York v. Quarles,
467 U.S. 649 (1984) ............................ 22, 23, 24, 30
North Carolina v. Butler,
441 U.S. 369 (1979) ..............................................23
Oregon v. Elstad,
470 U.S. 298 (1985) ........................................22, 31
Oregon v. Hass,
420 U.S. 714 (1975) ..............................................31
Renda v. King,
347 F.3d 550 (3d Cir. 2003) .................................15
Smith v. City of Dalles,
No. 6:16-cv-1771-SI, 2021 WL 1040380
(D. Or. Mar. 17, 2021) ..........................................34
Sornberger v. City of Knoxville,
434 F.3d 1006 (7th Cir. 2006)........................13, 14
South Dakota v. Neville,
459 U.S. 553 (1983) ..............................................23
Townes v. City of New York,
176 F.3d 138 (2d Cir. 1999) ...........................26, 31
United States v. Armstrong,
517 U.S. 456 (1996) ..............................................29

x
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Blue,
384 U.S. 251 (1966) ..............................................32
United States v. Calandra,
414 U.S. 338 (1974) ..............................................26
United States v. Henry,
447 U.S. 264 (1980) ..............................................23
United States v. Patane,
542 U.S. 630 (2004) ...................................... passim
United States v. Verdugo-Urquidez,
494 U.S. 259 (1990) ..............................................21
Waters v. Merchants’ Louisville Insurance Co.,
36 U.S. (11 Pet.) 213 (1837) .................................29
Withrow v. Williams,
507 U.S. 680 (1993) ........................................21, 23
Yarborough v. Alvarado,
541 U.S. 652 (2004) ..............................................30
CONSTITUTIONAL AND STATUTORY
PROVISIONS
U.S. Const. amend. V ................................................21
28 U.S.C. § 1254(1)......................................................1
42 U.S.C. § 1983 .................................... 2, 7, 20, 24, 28

xi
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITY
Sup. Ct. R. 10(a) ........................................................12

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully asks this Court for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The panel decision of the Ninth Circuit (App. 1a26a) is reported at 985 F.3d 713, and opinions
concerning the denial of rehearing en banc (App. 71a96a) are reported at 997 F.3d 1260. The district
court’s orders granting a new trial (App. 30a-61a),
denying respondent’s requested jury instruction (App.
62a-66a), and confirming the judgment (App. 67a70a) are not published.
JURISDICTION
On January 15, 2021, the Ninth Circuit vacated
the judgment on the jury’s verdict in petitioner’s favor
and reversed the judgment of the district court (App.
1a-26a). On June 3, 2021, the Ninth Circuit denied
petitioner’s timely motion for rehearing en banc (App.
71a-96a). On July 19, 2021, this Court ordered that
the time within which to petition for a writ of
certiorari is 150 days from, inter alia, an order issued
before July 19, 2021 denying a timely petition for
rehearing. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
The relevant statutory provision is set out in the
appendix to this petition. App. 97a.

2
INTRODUCTION
This case raises an important and recurring
question about the scope of civil liability under 42
U.S.C. § 1983 for the violation of rights secured by the
Constitution and laws—whether law enforcement
officers can be sued for money damages for failing to
provide a criminal suspect with the warnings spelled
out in Miranda v. Arizona, 384 U.S. 436 (1966). In
the decision below, the Ninth Circuit answered that
question in the affirmative, holding that a plaintiff
may bring a Section 1983 claim against an officer
solely because the officer took an un-Mirandized
statement that prosecutors later introduced—and a
court admitted—in a criminal case. That ruling
compounds an acknowledged conflict in the courts of
appeals, is wrong, and will interfere with legitimate
policing practices in the nation’s largest circuit. The
Court should grant certiorari.
This petition warrants review for three reasons.
First, the Ninth Circuit’s decision deepens a 5-4
circuit split on whether a plaintiff may bring a Section
1983 claim against a law enforcement officer in his
personal capacity based solely on the use of an unMirandized statement in a criminal case. In the
Fifth, Sixth, Eighth, Tenth, and Eleventh Circuits,
that Section 1983 claim would fail as a matter of law.
But in the Third, Fourth, and Seventh Circuits—and
now in the Ninth as well—an officer may be held
liable under Section 1983 in those exact same
circumstances. The courts of appeals, including the
Ninth Circuit below, have acknowledged the conflict,
as did the seven Ninth Circuit judges who dissented
from denial of en banc review. The conflict is
entrenched, and only this Court can resolve it.

3
Second, the Ninth Circuit’s decision is wrong and
should be overturned. Section 1983 imposes liability
for the violation of constitutional “rights,” but this
Court has long recognized that Miranda supplies a
“prophylactic rule” that sweeps more broadly than the
Fifth Amendment right against self-incrimination,
and does not itself create a constitutional right. The
constitutional rule set out in Miranda is addressed to
courts and ultimately concerns the admissibility of
statements at a criminal trial. Officers do not violate
Miranda by taking an unwarned statement; instead,
a Miranda violation occurs only if a prosecutor
introduces and a judge later mistakenly admits that
evidence at the defendant’s criminal trial.
To be clear, petitioner does not challenge the
validity of Miranda, which is a valuable
constitutional rule designed to protect the right
against self-incrimination and to help ensure that
statements are voluntary. But neither Miranda’s
rationale, nor this Court’s recognition that it is a
constitutional rule, supports extending that doctrine
to impose Section 1983 damages on individual law
enforcement officers. Such extension would violate
the rule’s purpose, ignore the superseding decisions of
the prosecutor and trial judge to introduce and admit
unwarned statements, and impose unacceptably high
costs on legitimate law enforcement efforts.
Third, the question presented is important.
Officers regularly engage in conversations that do not
require
Miranda
warnings,
ranging
from
noncustodial
questioning
to
time-sensitive
interrogations that protect public safety. And officers
undertaking investigations cannot always know in
real time whether the person they are questioning
will be criminally prosecuted, whether a prosecutor

4
will later introduce a suspect’s statement in a
criminal case against him, or whether a setting will
be deemed custodial.
The Ninth Circuit’s rule
threatens to over-deter officers from undertaking
basic investigative inquiries—such as the sexualassault investigation in this case—and it exposes
officers (and the States and municipalities that often
indemnify them) to monetary liability and litigation
burdens. In the circuits where the Ninth Circuit’s
rule prevails, law enforcement officers and state and
local governments are frequently subjected to
lawsuits like this one. The question presented has
real significance for officers and government entities
across the country.
This petition provides an ideal vehicle for
resolving that question. Two federal juries have
already found that the police questioning at issue—
which occurred at the scene of a reported sexual
assault of a patient at a public hospital—was not
coercive under the totality of the circumstances, and
thus did not violate respondent’s constitutional
rights. This case thus squarely presents the question
whether a Miranda violation alone can give rise to
Section 1983 liability. This Court should grant review
to resolve the circuit split and put an end to this
mistaken strain of Section 1983 litigation.
STATEMENT OF THE CASE
This Section 1983 case arises from a police
investigation into a credible report of sexual assault.
Petitioner Carlos Vega, a sheriff’s deputy in Los
Angeles County, questioned respondent Terence
Tekoh at the public hospital where Tekoh worked
soon after a patient accused Tekoh of assaulting her.
Tekoh quickly confessed to the assault, and later

5
stood trial, where his confession was admitted into
evidence. A jury nevertheless acquitted Tekoh.
Following his criminal acquittal, Tekoh pursued
this Section 1983 action against Vega, alleging that
Vega fabricated evidence, coerced Tekoh’s confession,
and violated Tekoh’s Fifth Amendment right against
self-incrimination.
Two different federal juries
rejected those arguments, and specifically found that
Vega’s questioning of Tekoh was not coercive under
the totality of the circumstances. But the Ninth
Circuit held that Tekoh’s Section 1983 claim should
be retried yet again, and that Vega may be held liable
simply if he failed to provide a Miranda warning
before receiving Tekoh’s confession.
A.

The Criminal Case And Finding Of No
Miranda Violation

In March 2014, Deputy Vega responded to a call
from the Los Angeles County/USC Medical Center, a
public teaching hospital, to investigate allegations
that an employee—Terence Tekoh—had sexually
assaulted a patient. App. 2a; 4-ER-756.1 According
to the patient, Tekoh had lifted her gown and made
sexual contact while transporting her within the
hospital.
App. 2a.
A forensic sexual assault
examination revealed vaginal lacerations consistent
with the patient’s account. 4-ER-853-54.
After speaking with the patient, Vega encountered
Tekoh in the hospital’s MRI section. According to
Vega, Tekoh quickly admitted that he had “made a

1
x-ER-y refers to Excerpts of Record volumes 1-8 filed in
No. 18-56414 (9th Cir.). “ECF No.” refers to additional
documents filed below in No. 18-56414. “Dkt. No.” refers to
documents filed below in No. 16-cv-7297 (C.D. Cal.).

6
mistake” and asked to “talk to [Vega] away from [his]
co-workers and get a little privacy.” App. 4a-5a. The
two went to the nearby MRI reading room to talk in
private. Id. at 5a; 3-ER-624. Vega did not read Tekoh
a Miranda warning because he believed the interview
was non-custodial. App. 5a. Tekoh agreed to write
down what happened while Vega called his sergeant,
Dennis Stangeland.
Id.
Tekoh then wrote a
confession without further prompting. Id.
Vega’s account was corroborated by Sergeant
Stangeland, who arrived on the scene soon after
Tekoh said he was willing to talk to the officers. Id.
According to Stangeland, Vega questioned Tekoh “in
a very conversational tone” and Tekoh orally
admitted to non-consensual sexual touching of the
victim.
Id.
Stangeland testified that Tekoh’s
demeanor was “contrite,” like someone who “regretted
what he had done.” Id.
Tekoh was arrested and charged in state court for
unlawful sexual penetration. Id. Prosecutors sought
to introduce Tekoh’s confession into evidence, and the
trial court admitted it. But the court ultimately
declared a mistrial because of an unrelated
evidentiary issue. 7-ER-1817-18. During the retrial
before a new judge, the prosecution again introduced
Tekoh’s confession and the court again admitted the
confession—recognizing that Tekoh’s statement was
not taken in violation of Miranda because Tekoh was
not in custody when he confessed. Id. The jury
returned a verdict of not guilty. App. 5a.2
2

At trial, Tekoh offered a different story about the
circumstances surrounding his confession. Tekoh claimed that
Vega barred the exit, rested his hand on a firearm, threatened

7
B.

The Civil Action And Jury Verdicts
Rejecting Tekoh’s Section 1983 Claims

After his acquittal, Tekoh filed a civil damages
action under 42 U.S.C. § 1983 against Vega and
several other defendants, for violating his Fifth
Amendment right against self-incrimination by
failing to give a Miranda warning. App. 5a-6a.
Section 1983 creates a cause of action against state
officials who cause a “deprivation of any rights,
privileges, or immunities secured by the Constitution
and laws.” 42 U.S.C. § 1983. Among other things,
Tekoh claimed that Deputy Vega violated his
constitutional “right” to a Miranda warning. 1-ER150.
At the first civil trial, Tekoh asked the district
court to instruct the jury that it must find Vega liable
on the self-incrimination claim if it determined that
Vega took a custodial, un-Mirandized statement from
Tekoh that was later used at his criminal trial. See 2ER-407-14.
The court declined to give this
instruction. It reasoned that Miranda had announced
only a “prophylactic rule,” and that a Section 1983
plaintiff like Tekoh could not “use a prophylactic rule
to create a violation of a constitutional right,” as
required to trigger Section 1983 liability. 2-ER-408.
Instead, the court instructed the jury to evaluate
Tekoh’s claim as a Fourteenth Amendment due
process claim alleging that Vega used coercive
to report Tekoh to immigration authorities, and ultimately
bullied him into writing a confession. But as noted below, two
civil juries rejected Tekoh’s account by finding Vega not liable
for coercion or any violation of Tekoh’s Fifth Amendment rights
under the totality of the circumstances. 1-ER-11-14, 68; infra
at 8.

8
investigation techniques to fabricate evidence. App.
6a-7a; 1-ER-68. The jury returned a full defense
verdict in Vega’s favor, rejecting the notion that he
had tried to fabricate evidence through his
questioning. App. 6a-7a; 1-ER-59.
Following trial, the district court determined it
had erred by instructing the jury on a Fourteenth
Amendment due process violation rather than a Fifth
Amendment self-incrimination violation. App. 7a,
38a-54a. It therefore ordered a new trial on Tekoh’s
self-incrimination claim. Id. at 7a. This time, the
court instructed the jury to determine whether Vega
had “improperly coerced or compelled” Tekoh’s
confession under the Fifth Amendment by
considering the totality of the circumstances
surrounding the questioning—including its location,
length, and manner, as well as whether Vega
provided a Miranda warning. Id. at 7a-8a. Once
again, the jury rejected Tekoh’s claim and returned a
verdict for Vega. Id. at 8a.
C.

The Ninth Circuit’s Reversal

Tekoh appealed to the Ninth Circuit. He argued
that the district court should have instructed the jury
to find Vega liable if the confession introduced at
Tekoh’s criminal trial had been taken in a custodial
setting without Miranda warnings—even absent any
proof of coercion.
The Ninth Circuit agreed, holding that “the use of
an un-Mirandized statement against a defendant in a
criminal proceeding violates the Fifth Amendment
and may support a § 1983 claim” against the officer
who obtained the statement. App. 18a. In reaching
that conclusion, the panel recognized that “merely
taking a statement without Miranda warnings is

9
insufficient to give rise to a § 1983 claim,” unless the
statement is subsequently used in a criminal case. Id.
at 18a & n.7. It also acknowledged that the Supreme
Court has repeatedly “described Miranda warnings
as mere ‘prophylactic rules’ or ‘procedural safeguards’
that were ‘not themselves rights protected by the
Constitution.’” Id. at 12a (collecting cases). But it
nevertheless concluded that the Supreme Court
changed course in Dickerson v. United States, 530
U.S. 428 (2000), which invalidated a federal statute
designed to override the evidentiary rule set out in
Miranda. App. 12a-13a. According to the panel,
Dickerson “affirmatively backed away from previous
decisions . . . that had described Miranda warnings as
merely prophylactic and ‘not themselves rights
protected by the Constitution.’” Id. at 20a (quoting
Dickerson, 530 U.S. at 437-39). The panel therefore
held that a plaintiff may bring a claim under Section
1983 for deprivation of that “right,” so long as the unMirandized statement was used against the plaintiff
at his criminal trial. Id. at 13a.
The court stated that this view of Miranda “was
later muddied” in the Supreme Court’s postDickerson cases, including Chavez v. Martinez, 538
U.S. 760 (2003), and United States v. Patane, 542 U.S.
630 (2004), App. 13a-14a, but concluded that those
cases were too fractured to be binding, id. at 13a-23a.
It likewise recognized the circuit split on this question
and rejected the Eighth Circuit’s contrary position as
“unpersuasive.” Id. at 19a-20a.
The Ninth Circuit next turned to causation,
concluding that the eventual introduction of Tekoh’s
confession at trial was attributable to Vega. It
reasoned that there was “no question that Deputy
Vega ‘caused’ the introduction of the statements at

10
Tekoh’s criminal trial,” even though Vega was not one
of the prosecutors or judges involved in admitting it.
Id. at 21a. In the Ninth Circuit’s view, when Vega
took Tekoh’s confession it was natural and
foreseeable that the confession would be improperly
admitted at Tekoh’s criminal trial. Id. at 22a.
The Ninth Circuit therefore reversed the judgment
in Vega’s favor and remanded the case for a new trial.
It directed the district court to instruct the jury that
“the introduction of a defendant’s un-Mirandized
statement at his criminal trial during the
prosecution’s case in chief is alone sufficient to
establish a Fifth Amendment violation and give rise
to a § 1983 claim for damages.” Id. at 26a.
D. The Seven-Judge Dissent From Denial
Of Rehearing
The Ninth Circuit denied Vega’s petition for
rehearing en banc, id. at 71a-72a, over the vigorous
dissent of Judge Bumatay, who was joined by six
judges, id. at 77a-96a. Judge Bumatay contested the
panel’s determination that an officer may be subject
to Section 1983 liability in this context for simply
failing to give a Miranda warning.
Reasoning from both the original meaning of the
Fifth Amendment and subsequent Supreme Court
interpretation of Miranda, Judge Bumatay noted that
Miranda itself described its rules as “procedural
safeguards effective to secure the privilege against
self-incrimination.”
Id. at 84a (Bumatay, J.,
dissenting from denial of rehearing en banc) (quoting
Miranda, 384 U.S. at 444). The dissent carefully
analyzed this Court’s Miranda jurisprudence—
including its post-Dickerson rulings in Chavez and
Patane—and concluded that failure to provide a

11
Miranda warning cannot give rise to a Section 1983
claim against an officer because that failure, on its
own, does not violate any constitutional “right.” Id. at
90a.
Judge Bumatay explained that Dickerson
confirmed the “constitutional underpinnings” of
Miranda, but did not upset “the long line of cases
characterizing Miranda as a prophylactic rule and not
a ‘constitutional right.’” Id. at 86a-87a, 91a (quoting
530 U.S. at 440 n.5). He further noted that this
reading of Dickerson was confirmed by the Court’s
plurality opinion in Chavez, 538 U.S. at 763, which
Chief Justice Rehnquist—the author of Dickerson—
joined in full. App. 91a & n.3. In Chavez, a plaintiff
brought a Section 1983 action against an officer for
questioning him without Miranda warnings. 538
U.S. at 764-65 (plurality opinion). The four-justice
plurality reiterated that Miranda is a prophylactic
rule and that “a violation of the constitutional right
against self-incrimination occurs only if one has been
compelled to be a witness against himself in a
criminal case.”
Id. at 770 (emphasis omitted).
Because “[r]ules designed to safeguard a
constitutional right . . . do not extend the scope of the
constitutional right itself,” the plurality held that the
failure to provide Miranda warnings “cannot be
grounds for a § 1983 action.” Id. at 772. Judge
Bumatay noted that Chief Justice Rehnquist also
joined the plurality opinion in Patane, 542 U.S. at
636-39, which further reinforced the prophylactic
nature of Miranda after Dickerson. App. 93a.
Finally, Judge Bumatay observed that the panel’s
decision set the Ninth Circuit at odds with several
other circuits, deepening what he described as a 6-2
circuit split. Id. at 95a-96a.

12
REASONS FOR GRANTING THE WRIT
This petition readily satisfies all the traditional
criteria for certiorari. See Sup. Ct. R. 10(a). In
holding that Miranda violations alone may support
Section 1983 claims against law enforcement officers,
the Ninth Circuit expressly acknowledged that its
decision deepens an existing circuit conflict. Judge
Bumatay’s opinion dissenting from the denial of
rehearing en banc further details the disagreement
among the courts of appeals. Other courts have also
acknowledged the conflict, and respondent has
conceded the existence of a circuit split.
Certiorari is also warranted because the decision
below incorrectly resolved an important federal
question. The Ninth Circuit’s decision fundamentally
misconstrued the nature of the Miranda rule, the
scope of Section 1983, and the Fifth Amendment right
against self-incrimination. Its ruling not only exposes
law enforcement officers to money damages but also
risks undermining legitimate policing techniques and
investigations.
The question presented is the subject of a
longstanding, intractable, and acknowledged circuit
split on a frequently recurring and important
question of law. The conflict has caused substantial
confusion in the application of constitutional law and
police practice. Only this Court can clear up that
confusion, and this petition provides an ideal vehicle
to do so. The petition should be granted.
I. The Ninth Circuit’s Holding Conflicts With
The Decisions Of Other Circuits And
Deepens An Existing Circuit Split
The Ninth Circuit’s ruling deepens an entrenched
5-4 split on whether police officers may be held liable

13
under Section 1983 for failing to give Miranda
warnings.
1. On one side of the split, two circuits have
held—and two others have strongly indicated—that
officers who take un-Mirandized, self-incriminating
statements may be subject to civil liability if those
statements are later wrongly introduced at a criminal
trial. As Judge Bumatay observed below, the Ninth
and Seventh Circuits have squarely adopted that
position. App. 95a-96a. Two other circuits—the
Third and Fourth—have clearly suggested that they
would reach the same conclusion.
The Ninth Circuit’s decision below held that when
“government officials introduce an un-Mirandized
statement to prove a criminal charge at a criminal
trial against a defendant, a § 1983 claim may lie
against the officer who took the statement.” App. 23a.
Central to the panel’s reasoning were two points:
(1) that Dickerson confirmed Miranda’s status as a
constitutional “right” giving rise to Section 1983
liability, see id. at 13a, 19a-20a; and (2) that an officer
“cause[s]” the violation of the right against selfincrimination by failing to offer Miranda warnings,
because the subsequent use of un-Mirandized
statements in a criminal trial is the natural and
probable consequence of that failure, see id. at 20a21a.
The Ninth Circuit relied heavily on the Seventh
Circuit’s decision in Sornberger v. City of Knoxville,
434 F.3d 1006, 1026-27 (7th Cir. 2006), which held
that a police officer’s failure to provide a Miranda
warning can create Section 1983 liability.
In
Sornberger, prosecutors used a suspect’s unwarned
confession in pretrial proceedings to support charges
for assisted bank robbery. Id. at 1011-12. The

14
Seventh Circuit held that when a defendant’s
unwarned statements were used at a “preliminary
hearing . . . to determine whether probable cause
existed to allow the case against her to go to trial,” the
defendant may bring “a suit for damages under
§ 1983.” Id. at 1026-27.
Like the Ninth Circuit, the Seventh Circuit relied
on Dickerson for the proposition that “the Miranda
warnings themselves have constitutional status,” and
it distinguished Chavez, because the unwarned
statement there had not been admitted into any
criminal proceeding. Id. at 1023-25. The Sornberger
court therefore concluded that the officer who failed
to give Miranda warnings could be held civilly liable.
Id. at 1025-27.
And the Seventh Circuit has
continued applying Sornberger to uphold Section
1983 liability in these circumstances. See, e.g.,
Johnson v. Winstead, 900 F.3d 428, 434 (7th Cir.
2018) (reaffirming “that a [Section 1983] claim for
violation of the Fifth Amendment right against
compulsory self-incrimination” lies against an officer
when an un-Mirandized statement “is introduced as
evidence at trial to convict him of a criminal offense”).
As the Ninth Circuit decision below recognized,
the Third and Fourth Circuits have indicated that
they, too, would hold that a Section 1983 claim lies
against an officer who obtains an un-Mirandized
statement that is later used at trial. See App. 19a.
Although both of those circuits—unlike the Seventh
Circuit—have rejected Section 1983 claims when the
un-Mirandized statements were used only in pretrial
proceedings, both have made equally clear that a
Section 1983 claim is viable when the statement is
introduced at trial.

15
In Renda v. King, the Third Circuit reasoned that
“questioning a plaintiff in custody without providing
Miranda warnings is not a basis for a § 1983 claim as
long as the plaintiff’s statements are not used against
her at trial.” 347 F.3d 550, 557-58 (3d Cir. 2003)
(emphases added). If, however, such statements are
used “during a criminal trial, and not in obtaining an
indictment, that violates the Constitution.” Id. at
559.
Similarly, the Fourth Circuit concluded in Burrell
v. Virginia, that because the Section 1983 plaintiff did
“not allege any trial action that violated his Fifth
Amendment rights; thus, ipso facto, his claim fails on
the plurality’s reasoning [in Chavez].” 395 F.3d 508,
514 (4th Cir. 2005). In both cases, the Third and
Fourth Circuits indicated that if the unwarned
statements had been introduced in evidence at trial,
the plaintiffs could have stated a claim against the
officers under Section 1983.
2. On the other side of the split, the Fifth, Sixth,
Eighth, and Tenth Circuits have squarely held that
police officers are not subject to Section 1983 liability
simply because an unwarned statement was used
against a defendant at trial. The Eleventh Circuit has
also embraced the logic of those decisions.
In Hannon v. Sanner, the Eighth Circuit held that
“a litigant cannot maintain an action under § 1983
based on a violation of the Miranda safeguards.” 441
F.3d 635, 636 (8th Cir. 2006). There, officers obtained
a murder confession through continued questioning
after a criminal suspect had invoked his right to
counsel; prosecutors later introduced the confession
during his criminal trial. Id. at 635-36. The state
supreme court overturned the conviction on those
grounds, and the criminal defendant brought a

16
Section 1983 action against the officers who
questioned him. Id. at 636. The district court granted
summary judgment to the officers because the
plaintiff’s “exclusive remedy was suppression of the
statements,” and “§ 1983 does not provide a remedy
for a violation of Miranda.” Id.
The Eighth Circuit affirmed. Judge Colloton
explained for the court that Section 1983 provides a
civil action only against persons who, under color of
law, cause a “deprivation of any rights, privileges, or
immunities secured by the Constitution and laws.”
Id.
The court carefully analyzed this Court’s
decisions in Dickerson, Chavez, and Patane to
conclude that, although the prophylactic safeguards
announced in Miranda reflect a “constitutional rule,”
they are “‘not themselves rights protected by the
Constitution,’ but instead ‘measures to insure that
the right against compulsory self-incrimination [is]
protected.’” Id. at 637 (alteration in original). The
proper response to a Miranda violation, the court
concluded, is not to obtain damages under Section
1983 after the fact. Instead, it is suppression of the
unlawfully obtained evidence—which the plaintiff
had already achieved through a ruling of the state
supreme court. Id. at 637-38.
The Sixth Circuit took the same approach in
McKinley v. City of Mansfield, 404 F.3d 418 (6th Cir.
2005).
There, un-Mirandized statements were
introduced against a defendant in a criminal trial,
and the defendant later sued under Section 1983. Id.
at 432 & n.13. The court rejected the notion that the
failure to Mirandize could sustain a Section 1983
action, even though “the fruits of the compulsory
interview were introduced against McKinley at a trial
for those crimes.” Id. at 432. The court held that an

17
“action on that basis is squarely foreclosed by the
Supreme Court’s decision” in Chavez. Id. at 432 n.13
(citing Chavez, 538 U.S. at 772). The Sixth Circuit,
like Judge Bumatay, read the plurality opinion in
Chavez as standing for the proposition that Section
1983 liability cannot lie against an officer who fails to
offer Miranda warnings, even when the unwarned
statement is later introduced at a criminal trial.
The Tenth Circuit’s decision in Bennett v. Passic,
545 F.2d 1260 (10th Cir. 1976), is in accord. There the
Tenth Circuit rejected a Section 1983 claim founded
on a Miranda violation because, “[e]ven assuming
that Bennett’s confession should have been excluded
from the evidence at his trial, . . . [t]he Constitution
and laws of the United States do not guarantee
Bennett the right to Miranda warnings.” Id. at 1263.
The court emphasized that Miranda itself “does not
even suggest that police officers who fail to advise an
arrested person of his rights are subject to civil
liability; it requires, at most, only that any confession
made in the absence of such advice of rights be
excluded from evidence.” Id. The court could find
“[n]o rational argument . . . in support of the notion
that the failure to give Miranda warnings subjects a
police officer to liability under the Civil Rights Act.”
Id. The Tenth Circuit has continued to apply Bennett,
explaining that “the law in this circuit is clear that
the only remedy available for a Miranda violation is
the suppression of any incriminating evidence.
Accordingly, [a plaintiff] may not recover damages” in
connection with a claim that his un-Mirandized
statement was later used against him in criminal
proceedings. Haulman v. Jefferson Cnty. Sheriff Off.,
15 F. App’x 720, 721 (10th Cir. 2001) (citations
omitted).

18
The Eleventh Circuit adopted the same logic as the
Eighth, Sixth, and Tenth Circuits in the closely
related context of assessing whether a Section 1983
claim is viable when un-Mirandized statements are
used in pretrial proceedings. Jones v. Cannon, 174
F.3d 1271, 1290-91 (11th Cir. 1999). Relying on the
Tenth Circuit’s decision in Bennett, the Eleventh
Circuit rejected a Section 1983 claim where an officer
took an unwarned confession and later helped secure
an indictment through testimony before a grand jury.
Id. The court reasoned that “[v]iolations of the
prophylactic Miranda procedures do not amount to
violations of the Constitution itself.” Id. at 1291.
Under that view, it would make no difference if the
statement were admitted at trial, as it was in Tekoh’s
case, because Miranda did not establish a
constitutional “right” that may be vindicated under
Section 1983.
Finally, the Fifth Circuit likewise categorically
rejects Section 1983 liability for law enforcement
under these circumstances. See Murray v. Earle, 405
F.3d 278, 293 (5th Cir. 2005). Whereas the other
circuits reached that conclusion because Miranda did
not establish a constitutional “right” under Section
1983, the Fifth Circuit instead embraced a proximate
causation rationale to arrive at the same result: It
held that a fully informed prosecutor or trial court
judge’s decision to introduce and admit unMirandized testimony severs the chain of causation,
thereby foreclosing Section 1983 liability against the
officer. Id.
As the Fifth Circuit explained, Section 1983
“require[s] a showing of proximate causation, which
is evaluated under a common law standard.” Id. at
290. Because a prosecutor’s decision to introduce

19
unwarned statements and a judge’s decision to admit
such statements constitute superseding causes, the
court held that an officer “who provides accurate
information to a neutral intermediary, such as a trial
judge, cannot ‘cause’ a subsequent Fifth Amendment
violation”—“even if a defendant can later
demonstrate that his or her statement was made
involuntarily while in custody.” Id. at 293.3
3. The cases discussed above make clear that the
courts of appeals are intractably divided over the
question presented. Although the Ninth Circuit held
that Tekoh had a viable claim under Section 1983,
that same claim would have failed as a matter of law
in the Fifth, Sixth, Eighth, Tenth, and Eleventh
Circuits. The Tekoh panel expressly “reject[ed] the
Eighth Circuit’s approach in Hannon” and
acknowledged the existence of a circuit split. App.
19a-20a. So did Tekoh himself, who acknowledged to
the Ninth Circuit that “[t]here is indeed a conflict
among the circuits.” ECF No. 61 at 3; see also id. at 5.
Federal constitutional rights—and government
officers’ exposure to damages claims—should not vary
by geography. This conflict in the courts of appeals
will not resolve itself, as both sides of the split have
reaffirmed their positions in recent decisions. The
Court should grant review to settle the dispute.
3
Consistent with the plurality opinion in Chavez, the
Fifth Circuit emphasized that its “analysis does not apply to
Fourteenth Amendment claims brought by plaintiffs against
officials that attack the lawfulness of the interrogation itself.”
Murray, 405 F.3d at 293 n.52 (citing Chavez, 538 U.S. at 773-74,
which discusses Chavez’s substantive due process claim). The
district court here followed that approach by construing Tekoh’s
Section 1983 claim as a Fourteenth Amendment due process
claim. 1-ER-68.

20
II. The Ninth Circuit’s Decision Is Wrong
Certiorari is also warranted because the decision
below is plainly mistaken. As the dissenters from the
denial of rehearing en banc explained, the majority
side of the circuit split has it right: Law enforcement
officers are not subject to damages claims under
Section 1983 simply because they failed to give a
Miranda warning. Instead, the proper response to
such failure is exclusion of the unwarned statement
from any criminal trial.
The Ninth Circuit’s decision rested on two related
but distinct errors. First, the court incorrectly treated
Miranda as having established a constitutional right
related to police conduct, rather than a prophylactic
constitutional rule designed to protect the Fifth
Amendment right against self-incrimination during a
criminal trial. Second, the court mistakenly held that
an officer who fails to give a Miranda warning is the
proximate cause of a subsequent violation of a
criminal defendant’s trial right against selfincrimination, because an officer should expect that
prosecutors and judges will improperly admit
unwarned statements in criminal trials. Each error
independently warrants reversal.
A.

Miranda Announced A Prophylactic
Constitutional
Rule
Governing
Admissibility Of Evidence, Not A
Constitutional Right To Police Warnings

1. Section 1983 creates a civil cause of action for
deprivation of “any rights . . . secured by the
Constitution.”
42 U.S.C. § 1983.
Here, the
constitutional “right” at issue comes from the Fifth
Amendment’s Self-Incrimination Clause, which
states that “[n]o person . . . shall be compelled in any

21
criminal case to be a witness against himself.” U.S.
Const. amend. V.
The Self-Incrimination Clause preserves a
“fundamental trial right of criminal defendants.”
United States v. Verdugo-Urquidez, 494 U.S. 259, 264
(1990); see also, e.g., Withrow v. Williams, 507 U.S.
680, 691 (1993). It “permits a person to refuse to
testify against himself at a criminal trial in which he
is a defendant.” Minnesota v. Murphy, 465 U.S. 420,
426 (1984); see also, e.g., Patane, 542 U.S. at 637
(plurality opinion) (“[T]he core protection afforded by
the Self-Incrimination Clause is a prohibition on
compelling a criminal defendant to testify against
himself at trial.” (citing Chavez, 538 U.S. at 764-68
(plurality opinion)); Chavez, 538 U.S. at 777-79
(Souter, J., concurring in the judgment)).
Because the Self-Incrimination Clause preserves a
trial right, a person may be deprived of his Fifth
Amendment right against self-incrimination only at
trial. Verdugo-Urquidez, 494 U.S. at 264 (“Although
conduct by law enforcement officials prior to trial may
ultimately impair that right, a constitutional
violation occurs only at trial.”). Still, this Court has
recognized several “prophylactic rules” designed to
prevent later violations of the right during a criminal
case. Patane, 542 U.S. at 637-39 (plurality opinion)
(collecting examples). Such prophylactic rules are
designed to protect the pre-existing constitutional
right; they do not themselves create new
constitutional rights.
At issue here is the prophylactic rule adopted in
the landmark Miranda decision—a decision that has
done much good for this country and that is not
challenged here. Miranda set out a constitutional
rule for “determining the admissibility of suspects’

22
incriminating statements.” Dickerson, 530 U.S. at
434; see Miranda, 384 U.S. at 479. Miranda provided
that “the admissibility in evidence of any statement
given during custodial interrogation of a suspect w[ill]
depend on whether the police provided the suspect
with four warnings.” Dickerson, 530 U.S. at 435.
These warnings, known as “Miranda warnings,” are a
“set of specific protective guidelines” that “help police
officers conduct interrogations without facing a
continued risk that valuable evidence would be lost.”
Michigan v. Tucker, 417 U.S. 433, 443 (1974). In
other words, Miranda recognized a constitutional
“prophylactic rule[] designed to safeguard the core
constitutional right protected by the SelfIncrimination Clause.” Chavez, 538 U.S. at 770
(plurality opinion); see also id. at 790 (Kennedy, J.,
concurring in part and dissenting in part) (describing
Miranda as a constitutional “rule of exclusion”). Two
important points follow from this.
First, although Miranda warnings have been
described “colloquially as ‘Miranda rights,’”
Dickerson, 530 U.S. at 435, this Court has repeatedly
explained that the warnings are “not themselves
rights protected by the Constitution but [are] instead
measures to insure that the right against compulsory
self-incrimination [is] protected,” New York v.
Quarles, 467 U.S. 649, 654 (1984) (alterations in
original) (quoting Tucker, 417 U.S. at 444). The
“Miranda exclusionary rule . . . sweeps more broadly
than the Fifth Amendment itself” and “may be
triggered even in the absence of a Fifth Amendment
violation.” Oregon v. Elstad, 470 U.S. 298, 306 (1985);
see also Dickerson, 530 U.S. at 441; Patane, 542 U.S.
at 639 (plurality opinion); Chavez, 538 U.S. at 770
(plurality opinion). As Judge Bumatay explained,

23
this Court has called Miranda a prophylactic rule
more than twenty times—but never a constitutional
right. App. 80a.4
Second, because the Self-Incrimination Clause
and the Miranda rule designed to protect it focus on
“the admissibility of statements” at a criminal trial,
they do not “operate[ ] as a direct constraint on
police.” Patane, 542 U.S. at 642 n.3 (plurality
opinion). Miranda is “not a code of police conduct, and
police do not violate the Constitution (or even the
Miranda rule, for that matter) by mere failures to
warn.” Id. at 637.
Rather, Miranda ultimately sets forth a
constitutional rule of evidence: It dictates that (as a
general matter), custodial statements obtained from
suspects without a warning cannot be admitted at
trial. As a result, although an officer’s failure to give
a Miranda warning may have downstream
evidentiary repercussions in a criminal case—i.e.,
exclusion of a confession—there is nothing unlawful
about failing to give the warning in and of itself. See
Quarles, 467 U.S. at 686 (Marshall, J., dissenting)
(“[P]olice are free to interrogate suspects without
4
See, e.g., Davis v. United States, 512 U.S. 452, 458 (1994);
Brecht v. Abrahamson, 507 U.S. 619, 629 (1993); Withrow, 507
U.S. at 691; McNeil v. Wisconsin, 501 U.S. 171, 176 (1991);
Michigan v. Harvey, 494 U.S. 344, 350 (1990); Duckworth v.
Eagan, 492 U.S. 195, 203 (1989); Arizona v. Roberson, 486 U.S.
675, 681 (1988); Connecticut v. Barrett, 479 U.S. 523, 528 (1987);
Elstad, 470 U.S. at 309; Quarles, 467 U.S. at 654; South Dakota
v. Neville, 459 U.S. 553, 564 n.15 (1983); United States v. Henry,
447 U.S. 264, 273-74 (1980); North Carolina v. Butler, 441 U.S.
369, 374 (1979); Fare v. Michael C., 439 U.S. 1310, 1314 (1978);
Brown v. Illinois, 422 U.S. 590, 600 (1975); Tucker, 417 U.S. at
439; Michigan v. Payne, 412 U.S. 47, 53 (1973).

24
advising them of their constitutional rights” because
“[a]ll the Fifth Amendment forbids is the introduction
of coerced statements at trial.”).
It therefore follows that “police cannot violate the
Self-Incrimination Clause by taking unwarned
though voluntary statements.” Patane, 542 U.S. at
643 (plurality opinion). And because the prophylactic
exclusionary rule set forth in Miranda does not
provide a freestanding “right[] . . . secured by the
Constitution,” 42 U.S.C. § 1983, a police officer’s
failure to provide Miranda warnings cannot supply
the basis for liability under Section 1983. This Court
has admonished that “rights” must be interpreted
strictly in the Section 1983 context and that such
rights do not include “broader or vaguer ‘benefits’ or
‘interests.’” Gonzaga Univ. v. Doe, 536 U.S. 273, 283
(2002).
Although Miranda warnings are an
important safeguard of the right against selfincrimination, they are not themselves “rights
protected by the Constitution.” Quarles, 467 U.S. at
654; see Chavez, 538 U.S. at 772 (plurality opinion)
(“Rules designed to safeguard a constitutional right,
however, do not extend the scope of the constitutional
right itself . . . .”). A law enforcement officer does not
violate anyone’s constitutional rights simply by
failing to give a Miranda warning.
2. The Ninth Circuit reached a contrary
conclusion based on its reading of Chief Justice
Rehnquist’s opinion for this Court in Dickerson, which
held that “Miranda announced a constitutional rule.”
530 U.S. at 444. Dickerson involved the distinct
question of whether Congress may legislatively
override Miranda. That question turned not on
whether Miranda established a constitutional “right,”
but rather whether it established a constitutional-

25
based rule. In answering that question, Dickerson
never described Miranda warnings as constitutional
“rights”; nor did it purport to overturn the Court’s
prior
cases
characterizing
Miranda
as
a
“prophylactic” rule designed to protect the core Fifth
Amendment right against self-incrimination. See
supra note 4. Dickerson merely held that Congress
“may not legislatively supersede” the Court’s
constitutional decisions, 530 U.S. at 437, and that
Miranda was such a “constitutional rule” with
“constitutional underpinnings,” id. at 441, 440 n.5.
Indeed, Dickerson recognized and reaffirmed the
Court’s prior statements that Miranda’s procedural
safeguards “sweep[] more broadly than the Fifth
Amendment itself” and are “not themselves rights
protected by the Constitution.” Id. at 437-38, 441.
And faced with the dissent’s invitation to “hold that
the Miranda warnings are required by the
Constitution,” the Court expressly refused to do so.
Id. at 442.
As Judge Bumatay explained, Dickerson’s
recognition
of
Miranda’s
constitutional
underpinnings did not convert Miranda warnings
into a constitutional “right” for purposes of Section
1983. See id. at 438, 444. This Court trains the same
skeptical eye on “whether personal rights exist in the
§ 1983 context” as it does when “discerning whether
personal rights exist in the implied right of action
context.” Gonzaga, 536 U.S. at 285.
This Court’s precedent establishes that not all
violations of constitutional rules are violations of
personal constitutional rights providing an actionable
Section 1983 claim. See, e.g., Golden State Transit
Corp. v. City of Los Angeles, 493 U.S. 103, 107 (1989).
Like other prophylactic rules of a constitutional

26
dimension, such as the Fourth Amendment
exclusionary rule and the fruit-of-the-poisonous-tree
doctrine, Miranda is a judicially created rule designed
to safeguard the Fifth Amendment right against selfincrimination through its deterrent effect; it does not
confer a personal constitutional right to Miranda
warnings. Cf. United States v. Calandra, 414 U.S.
338, 348 (1974) (describing the exclusionary rule
derived from the Fourth Amendment as “a judicially
created remedy designed to safeguard Fourth
Amendment rights generally through its deterrent
effect, rather than a personal constitutional right of
the party aggrieved”). Violation of such prophylactic
rules, without more, cannot give rise to Section 1983
claims. See Townes v. City of New York, 176 F.3d 138,
145 (2d Cir. 1999) (Jacobs, J.).
This Court’s post-Dickerson decisions in Chavez
and Patane confirm that Miranda does not create a
constitutional “right” supporting Section 1983
liability. See, e.g., Chavez, 538 F.3d at 772 (plurality
holding that “violations of judicially crafted
prophylactic rules do not violate the constitutional
rights of any person”); id. at 777-78 (Souter, J.,
concurring in the judgment) (concurring that there
was no sufficient basis “to expand [Miranda’s]
protection of the privilege against compelled selfincrimination to the point of civil liability”); Patane,
542 U.S. at 641 (plurality explaining that “a mere
failure to give Miranda warnings does not, by itself,
violate a suspect’s constitutional rights”). Indeed,
this Court has called Miranda a prophylactic,

27
procedural rule many times since Dickerson—but
never once a constitutional “right.”5
In Patane, the plurality warned lower courts that
Dickerson “does not lessen the need to maintain the
closest possible fit between the Self-Incrimination
Clause and any judge-made rule designed to protect
it.” Id. at 643. For that reason, Miranda’s broad
protection of a defendant’s trial rights in the criminal
context should not be extended as a sword against
officers in the civil context under Section 1983.
The Ninth Circuit’s ruling ignores that warning
and extends Miranda well beyond the SelfIncrimination Clause, and beyond anything this
Court ever contemplated or sanctioned. Although
Miranda creates an irrebuttable presumption in
criminal cases that unwarned statements were
“compelled” in violation of the Fifth Amendment, the
Court has never extended that broad prophylactic
rule to presume coercion in a subsequent civil action.
As Judge Colloton explained in Hannon,
“[s]tatements obtained in violation of Miranda are not
‘compelled.’” 441 F.3d at 637. And as the district
court here correctly recognized, the Fifth Amendment
right against self-incrimination is violated only when
a statement introduced at trial was coerced under the
totality of the circumstances. One circumstance
relevant to this inquiry is whether a statement was
Mirandized. But outside the context of a criminal
trial, that is only one of several factors in considering
whether a statement was actually “compelled.” Only
5
See, e.g., J.D.B. v. North Carolina, 564 U.S. 261, 269
(2011); Howes v. Fields, 565 U.S. 499, 507 (2012); Florida v.
Powell, 559 U.S. 50, 59 (2010); Maryland v. Shatzer, 559 U.S. 98,
103 (2010); Montejo v. Louisiana, 556 U.S. 778, 794 (2009).

28
when a defendant’s compelled statement is
introduced in his criminal trial is the Fifth
Amendment’s privilege against self-incrimination
violated. The decision below can be reversed on that
basis alone.
B.

Police Officers Do Not Proximately
Cause The Improper Admission Of
Un-Mirandized Statements

Even the Ninth Circuit ultimately recognized that,
insofar as Miranda implicates a criminal defendant’s
Fifth Amendment rights, it does so only at trial,
where a defendant generally has the right to suppress
any unwarned, self-incriminating statement that was
provided in custody. For that reason, the Ninth
Circuit limited its holding to situations where the
Section 1983 plaintiff’s un-Mirandized statement was
improperly introduced into evidence at his criminal
trial. App. 21a & n.9. But in upholding liability in
such circumstances, the Ninth Circuit made another
significant error: It held that the officer is the
proximate cause of the statement’s introduction at
trial, while discounting the intervening and
superseding roles played by the prosecutor and trial
judge. See id. at 20a-23a. The Ninth Circuit’s
causation analysis is flawed and provides an
independent basis for reversal.
Section 1983 authorizes remedial action only
against a person who “subjects, or causes to be
subjected, any citizen of the United States . . . to the
deprivation of any rights, privileges, or immunities,
secured by the Constitution.” 42 U.S.C. § 1983
(emphasis added). The Court’s analysis of Section
1983 follows common-law principles of tort, including
the requirement of proximate cause. See, e.g., Malley

29
v. Briggs, 475 U.S. 335, 344 n.7 (1986). “It is a well
established principle of [the common] law, that in all
cases of loss we are to attribute it to the proximate
cause, and not to any remote cause . . . .” Waters v.
Merchants’ Louisville Ins. Co., 36 U.S. (11 Pet.) 213,
223 (1837) (Story, J.). That “sole requirement”
demands “some direct relation between the injury
asserted and the injurious conduct alleged,” and thus
excludes injuries that are “too remote,” “purely
contingent,” or “indirect[].” Holmes v. Sec. Inv. Prot.
Corp., 503 U.S. 258, 268-69, 271 (1992). Here,
because any violation of the Fifth Amendment SelfIncrimination Clause or Miranda can “occur[] only at
trial,” Chavez, 538 U.S. at 767 (emphasis altered), the
question is whether an officer’s failure to give the
Miranda warning proximately causes the subsequent
admission of the un-Mirandized statement at trial.
The Ninth Circuit found there was “no question
that Deputy Vega ‘caused’ the introduction of the
statements at Tekoh’s criminal trial,” because
government officials “are generally responsible for the
‘natural’ or ‘reasonably foreseeable’ consequences of
their actions.” App. 21a. That causation analysis is
erroneous.
Officers violate neither the Fifth Amendment nor
Miranda by taking an unwarned statement, and they
are entitled to presume that the prosecutor would
decline to introduce evidence obtained in violation of
Miranda—and that the judge would exclude such
evidence. See United States v. Armstrong, 517 U.S.
456, 464 (1996) (“[T]he presumption of regularity”
applies to “prosecutorial decisions,” and “courts
presume that they have properly discharged their
official duties.”). An officer should not be held
responsible for the failure of these other officials—

30
whose legal training and knowledge of the Miranda
doctrine put them in the best position to evaluate
admissibility—to discharge their obligations under
law.
Imposing liability on officers is especially inapt
given how difficult it can be to ascertain whether
Miranda even applies in any given situation. For
example, the duty to give warnings only arises when
a suspect is questioned “in custodial surroundings,”
Miranda, 384 U.S. at 458, but that concept is
notoriously murky and has led to much confusion,
even among members of this Court. See, e.g., Howes
v. Fields, 565 U.S. 499, 511 (2012); Maryland v.
Shatzer, 559 U.S. 98, 112 (2010); Yarborough v.
Alvarado, 541 U.S. 652, 666 (2004).
In such
circumstances, a reasonable officer should be able to
rely on prosecutors and judges to correctly determine
whether the suspect’s statements are admissible.
That officer is not the cause of any constitutional
violation that occurs when those other officials get the
law wrong.
Indeed, officers often make these
determinations in the heat of the moment without
time for the reflection of appellate briefing and
argument.
Here, for example, Officer Vega
questioned Tekoh in trying to resolve a report of a
serious sexual assault on a patient by an individual
working in a public hospital.
Then, too, statements obtained without Miranda
warnings—so long as they are voluntary—may be
used for a wide variety of legitimate law enforcement
and judicial purposes without violating the Fifth
Amendment.
Those valid purposes include
(1) responding
to
exigent
circumstances;
(2) discovering other relevant evidence; and
(3) impeaching trial testimony. See, e.g., Quarles, 467

31
U.S. at 655; Tucker, 417 U.S. at 438-39; Elstad, 470
U.S. at 308; Oregon v. Hass, 420 U.S. 714, 723-24
(1975). An officer is entitled to presume that other
law enforcement officers, prosecutors, and judges will
use unwarned statements in those permissible ways
without fear that a different, improper use will
eventually subject him to liability. The improper
admission of an un-Mirandized statement into
evidence at trial is neither the “natural” nor
“reasonably foreseeable” consequence of taking an
unwarned statement.
Under
standard,
common-law
causation
principles, when a prosecutor or judge allows
statements obtained in violation of Miranda to be
admitted at trial, their intervening acts qualify as
superseding causes that sever the chain of causation
for purposes of Section 1983. Many courts have
recognized that such intervening decisions break the
chain of causation under Section 1983. See Murray,
405 F.3d at 292-93 & n.51 (collecting cases); Townes,
176 F.3d at 147 (addressing this question in the
analogous fruit-of-the-poisonous-tree context); Evans
v. Chalmers, 703 F.3d 636, 649 (4th Cir. 2012)
(malicious prosecution context); Egervary v. Young,
366 F.3d 238, 249-50 (3d Cir. 2004) (due process
context).
In sum, the act of taking an unwarned statement
does not violate Miranda, and law enforcement
officers may presume that prosecutors and judges will
follow Miranda’s constitutional rule of evidentiary
admissibility. Miranda does not create rules of police
conduct. Holding officers liable for trial errors would
defy the presumption of regularity afforded to
prosecutors and judges and unfairly penalize officers

32
who act lawfully when speaking with criminal
suspects.
III. The Question Presented Is Exceptionally
Important And Merits Review In This Case
Whether law enforcement officers may be sued
under Section 1983 for failure to give Miranda
warnings is an important and frequently litigated
question. Such litigation imposes significant costs
and burdens on individual officers, municipalities,
and States, “increas[ing] to an intolerable degree
interference with the public interest” in effective
criminal investigation. United States v. Blue, 384
U.S. 251, 255 (1966).
The question presented
warrants this Court’s review now, and this case is an
excellent vehicle for resolving it.
1. Real world encounters in which law
enforcement officers legitimately seek information
about ongoing or potential crimes often present
murky situations. It is not always clear whether an
encounter will be deemed custodial or non-custodial.
An officer in the field has to make on-the-spot
judgments about whether Miranda is triggered, and
does not always know whether a court will later
determine that a statement was inadequately
warned, or that such statements will be unlawfully
introduced based on the subsequent and independent
acts of prosecutors or judges.
Under the minority approach embraced by the
Ninth Circuit, the consequences of an officer’s failure
to warn extend not merely to exclusion of valuable
evidence at trial (a consequence that is serious
enough), but to liability for money damages. For law
enforcement officers and the frequently cashstrapped governmental entities that indemnify them,

33
this risk looms large, and will deter lawful
investigations of unlawful conduct.
It is important that this Court reinforce the
distinction between official conduct that simply
renders a statement inadmissible in a criminal case
and official conduct that independently violates the
Constitution. That distinction provides the necessary
breathing space for law enforcement to investigate
imminent threats to the public safety while protecting
the civil liberties of those who stand trial for criminal
offenses.
2. Whether and how Section 1983 creates a
cause of action for Miranda violations is often
litigated, and this Court should settle the question
once and for all. Plaintiffs routinely try to bring
Section 1983 claims against law enforcement officers
in their personal capacities. As the cases discussed in
the circuit split make clear, plaintiffs regularly invoke
violations of Miranda as a basis for liability. See
supra at 13-15. Scores of cases now pending in the
lower courts confirm as much.6
6

See, e.g., Steward v. Dunlap, No. 3:21-cv-00416-BJDJRK (M.D. Fla. filed Apr. 16, 2021); Bass v. Carr, No. 2:21-cv00448-RCY-RJK (E.D. Va. filed Mar. 5, 2021); Smith v. Aims,
No. 2:20-cv-12013-MAG-DRG (E.D. Mich. filed July 14, 2020);
Allen v. O’Neill, No. 3:20-cv-00854-JAM (D. Conn. filed June 19,
2020); Carter v. City of Chicago, No. 1:20-cv-01684 (N.D. Ill. filed
Mar. 9, 2020), appeal docketed sub nom. Carter v. Wrobel, No.
21-1018 (7th Cir. Jan. 5, 2021); Green v. Irvington Police Dep’t,
No. 2:19-cv-20239-SDW-ESK (D.N.J. filed Nov. 14, 2019); Lee v.
Clark, No. 2:19-cv-17936-WJM-MF (D.N.J. filed Sept. 12, 2019);
Kelley v. Reyes, No. 2:19-cv-17911-WJM-MF (D.N.J. filed Sept.
11, 2019); Gibson v. City of Chicago, No. 1:19-cv-04152 (N.D. Ill.
filed June 20, 2019); Bollfrass v. City of Phoenix, No. 2:19-cv04014-MTL (D. Ariz. filed May 31, 2019); Sanchez v. Village of

34
The Ninth Circuit’s decision is already having an
impact on the ground by encouraging litigants to
bring Section 1983 Miranda claims. See, e.g., Smith
v. City of Dalles, No. 6:16-cv-1771-SI, 2021 WL
1040380, at *11-12 (D. Or. Mar. 17, 2021) (allowing
plaintiff to amend Section 1983 complaint to add
Miranda claim in light of Tekoh). Those claims, which
should fail as a matter of law, will only proliferate as
Tekoh takes root in the Ninth Circuit. Meantime, this
litigation will impose unnecessary burdens on both
law enforcement officers and their employers,
distracting them from their ultimate job of protecting
the public.
3. Finally, this petition provides an ideal vehicle
to resolve the question presented. Because Tekoh’s
Section 1983 claim was litigated to final judgment,
the relevant issues were fully developed in the district
court and on appeal. The legal questions surrounding
the Miranda issue are cleanly teed up, and do not
turn on disputed facts.
Indeed, this case is an especially good vehicle
because two civil juries have already concluded that
Vega did not induce Tekoh’s confession through
coercion. This case therefore does not involve a
Wheeling, No. 1:19-cv-02437 (N.D. Ill. filed Apr. 10, 2019); Nunez
v. Village of Rockville Centre, No. 2:18-cv-04249-DRH-SIL
(E.D.N.Y. filed July 26, 2018); Hincapie v. City of New York, No.
1:18-cv-03432-PAC (S.D.N.Y. filed Apr. 19, 2018); Monson v.
Detroit, No. 2:18-cv-10638 (E.D. Mich. filed Feb. 23, 2018);
Besedin v. County of Nassau, No. 2:18-cv-00819-KAM-ST
(E.D.N.Y. filed Feb. 7, 2018); Fulton v. Foley, No. 1:17-08696
(N.D. Ill. filed Dec. 1, 2017); Tobias v. City of Los Angeles, No.
2:17-cv-01076-DSF-AS (C.D. Cal. filed Feb. 9, 2017); Eames v.
Town of East Hampton, No. 2:15-cv-05539-JMA-AKT (E.D.N.Y.
filed Sept. 24, 2015); Natsis v. Turner, No. 2:13-cv-07269-JMVMF (D.N.J. filed Dec. 3, 2013).

35
violation of the Self-Incrimination Clause’s core
constitutional right. Rather, Tekoh’s claim is viable
only if Section 1983 provides a remedy for a bare
violation of Miranda’s prophylactic rule, even when
the Section 1983 plaintiff’s statements were not
coerced in violation of the Fifth Amendment itself.
For the reasons explained, courts and law
enforcement need guidance from this Court on how
Miranda and Section 1983 intersect. This case—in
which the nation’s largest circuit has wrongly given
its imprimatur to a new class of Section 1983
litigation—presents an ideal opportunity for the
Court to provide that guidance.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
RICKEY IVIE
ANTONIO K. KIZZIE
IVIE MCNIELL WYATT
PURCELL & DIGGS, APLC
444 S. Flower Street
Suite 1800
Los Angeles, CA 90071

ROMAN MARTINEZ
Counsel of Record
GREGORY G. GARRE
CHARLES S. DAMERON
MICHAEL CLEMENTE
JOSHUA J. CRADDOCK
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for Petitioner

October 1, 2021

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Ninth Circuit, Tekoh v. County of
Los Angeles, 985 F.3d 713 (9th Cir. 2021) .........1a
Judgment of the United States District Court
for the Central District of California, Tekoh
v. County of Los Angeles, No. 2:16-cv-07297
(C.D. Cal. Nov. 7, 2017), Dkt. No. 193 .............27a
Ruling of the United States District Court for
the Central District of California on
Plaintiff’s Motion for a New Trial, Tekoh v.
County of Los Angeles, No. 2:16-cv-07297
(C.D. Cal. Mar. 8, 2018), Dkt. No. 206 .............30a
Transcript of September 20, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 29, 2019), Dkt.
No. 342 (excerpts) .............................................62a
Transcript of September 24, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 29, 2019), Dkt.
No. 343 (excerpts) .............................................65a
Judgment of the United States District Court
for the Central District of California, Tekoh
v. Sgt. Carlos Vega, No. 2:16-cv-07297
(C.D. Cal. Oct. 5, 2018), Dkt. No. 307 ..............67a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc, Tekoh v. County of Los
Angeles, 997 F.3d 1260 (9th Cir. 2021),
with concurrence and dissent...........................71a
42 U.S.C. § 1983 ......................................................97a

ii
TABLE OF CONTENTS—Continued
Page
Transcript of August 27, 2018 Proceedings,
Tekoh v. County of Los Angeles, No. 2:16cv-07297 (C.D. Cal. May 25, 2019), Dkt.
No. 340 (excerpts) .............................................98a
[Proposed] Supplemental Jury Instructions
Re: Fifth Amendment, Miranda and
Damages, Tekoh v. Sgt. Carlos Vega, No.
2:16-cv-07297 (C.D. Cal. Sept. 21, 2018),
Dkt. No. 280 (excerpts) ...................................107a
Final Jury Instructions, Tekoh v. Deputy
Carlos Vega, No. 2:16-cv-07297 (C.D. Cal.
Oct. 2, 2018), Dkt. No. 299 (excerpts) ............117a

1a
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
Terence B. TEKOH, Plaintiff-Appellant,
v.
COUNTY OF LOS ANGELES; Dennis Stangeland,
Sergeant; Carlos Vega, Deputy, DefendantsAppellees,
and
Los Angeles County Sheriff's Department;
Does, 1 to 10, Defendants.
No. 18-56414
Argued and Submitted April 27, 2020
Pasadena, California
Filed January 15, 2021
985 F.3d 713
Before: KIM MCLANE WARDLAW, MARY H.
MURGUIA, and ERIC D. MILLER, Circuit Judges.
OPINION
WARDLAW, Circuit Judge:
We must decide whether the use of an unMirandized statement against a defendant in a
criminal case is alone sufficient to support a 42 U.S.C.
§ 1983 action based on the Fifth Amendment
violation. The district court concluded that the use of
the statement alone was insufficient to demonstrate
a violation of the right against self-incrimination and,
instead, instructed the jury that the plaintiff had to
show that the interrogation that procured the
statement was unconstitutionally coercive under the
totality of the circumstances, with the Miranda

2a
violation only one factor to be considered. Neither the
Supreme Court nor our court has directly addressed
this precise question. However, in light of the
Supreme Court’s decision in Dickerson v. United
States, 530 U.S. 428, 120 S.Ct. 2326, 147 L.Ed.2d 405
(2000), which held that Miranda is a rule of
constitutional law that could not be overruled by
congressional action, we conclude that where the unMirandized statement has been used against the
defendant in the prosecution’s case in chief in a prior
criminal proceeding, the defendant has been deprived
of his Fifth Amendment right against selfincrimination, and he may assert a claim against the
state official who deprived him of that right under
§ 1983.
I.
A.
Terence Tekoh was working at a Los Angeles
medical center when a patient accused him of sexual
assault. According to the patient, Tekoh lifted her
coversheets and made sexual contact while
transporting her within the hospital. Hospital staff
reported the allegation to the Los Angeles Sheriff’s
Department. Deputy Carlos Vega responded to
investigate.
Deputy Vega found Tekoh in the MRI section,
where he worked transporting patients to and from
their MRIs and their rooms, and the two went into a
nearby, private room to talk. Though Deputy Vega
questioned Tekoh, he did not advise him of his
Miranda rights. By the end of the questioning, Tekoh
had written the following statement:

3a
To who [sic] it may concern,
This is an honest and regrettable apology from
me about what happened a few hours ago. It
was I don’t know what suddenly came over me,
but it was certainly the most weakest moment
I’ve ever been caught up with in my life. I’ve
never ever found myself doing such a despicable
act. and I am I don’t think this is an excuse but
I’m single and currently don’t have a girlfriend
and became very excited after I first saw her
vagina accidently. So after dropping her off, I
decided to go further by woking [sic] and
spreading her vagina lip for a quick view and
then went back to my duty post with the
intention of masturbating, which I never did.
How Tekoh came to write this statement is hotly
disputed and was the focus of the 42 U.S.C. § 1983
claim against Deputy Vega that gave rise to this
appeal.
1. Tekoh’s Account of the Questioning
In Tekoh’s telling, when Deputy Vega first
approached him, Vega asked if there was somewhere
they could speak in private. Tekoh’s co-workers
suggested the MRI “reading room,”—a small,
windowless, and soundproof room used by doctors to
read MRIs. When one of Tekoh’s co-workers tried to
accompany Tekoh into the reading room, Deputy
Vega stopped her and told her the interview was
private.
Deputy Vega shut the door and stood in front of it,
blocking Tekoh’s path to the exit. He then accused
Tekoh of touching the patient’s vagina. Tekoh
adamantly denied the allegation. After about 35 to 40
minutes of questioning during which Tekoh refused to

4a
confess, Deputy Vega told him (falsely) that the
assault had been captured on video so he might as
well admit to it. Still, Tekoh did not confess.
Tekoh then asked to speak to a lawyer, but Deputy
Vega ignored the request. At that point, Tekoh grew
frustrated and tried to get up and leave the room.
Tekoh testified:
I made one or two steps, and [Deputy Vega]
rushed at me and stepped on my toes, put his
hand on his gun and said, “Mr. Jungle Nigger
trying to be smart with me. You make any
funny move, you’re going to regret it. I’m about
to put your black ass where it belongs, about to
hand you over to deportation services, and you
and your entire family will be rounded up and
sent back to the jungle . . . . Trust me, I have
the power to do it.”
According to Tekoh, this outburst left him “shaking”
and triggered flashbacks to his experiences with
police brutality in Cameroon, where he was from.
Deputy Vega then grabbed a pen and paper, put
them in front of Tekoh, and told him to “write what
the patient said [he] did.” When Tekoh hesitated,
Vega put his hand on his gun and said he was not
joking. According to Tekoh, Vega then dictated the
content of the written confession and Tekoh, who was
scared and “ready to write whatever [Vega] wanted,”
acquiesced and wrote the statement down.
2. Deputy Vega’s Account of the Questioning
Deputy Vega testified to a much different version
of events. According to Vega, when he first arrived at
the MRI section, he asked Tekoh what had happened
with the patient, and Tekoh said, “I made a mistake.”

5a
Tekoh asked if he could “talk to [Vega] away from
[his] co-workers and get a little privacy.”
After the two went into the MRI reading room,
Vega handed Tekoh a sheet of paper and said, “Can
you write what happened while I get my sergeant and
we can ask you a couple of questions[?]” According to
Vega, Tekoh then wrote out the confession himself
without further prompting.
Another officer, Sergeant Stangeland, arrived
soon after, joining Deputy Vega in the room with
Tekoh. According to Stangeland, Tekoh indicated
that he was willing to talk to the officers. Deputy
Vega then questioned Tekoh in “a very conversational
tone,” and Tekoh verbally admitted to touching the
patient’s vagina. Sergeant Stangeland testified that
Tekoh’s demeanor was “that of a man who was
contrite, who truly, you know, regretted what he had
done.”
B.
Tekoh was arrested and charged in California
state court with unlawful sexual penetration in
violation of California Penal Code § 289(d). Early on
in Tekoh’s first criminal trial (before his confession
was introduced), a witness for the prosecution
revealed evidence that had not been disclosed to the
defense, and, with Tekoh’s assent, a mistrial was
declared. During Tekoh’s retrial, the prosecution
introduced Tekoh’s confession as evidence of his guilt.
Also during the retrial, Dr. Iris Blandon-Gitlin, an
expert on coerced confessions, testified on Tekoh’s
behalf. The jury returned a verdict of not guilty.
C.
After his acquittal on the criminal charge, Tekoh
filed this action under 42 U.S.C. § 1983 seeking

6a
damages for alleged violations of his constitutional
rights. The case began with several claims against
multiple defendants, but only one is at issue in this
appeal: the claim that Deputy Vega violated Tekoh’s
Fifth Amendment right against self-incrimination.
Before the first trial in this case, Tekoh asked the
district court to instruct the jury that it should find in
his favor on the Fifth Amendment claim if it
determined that Deputy Vega obtained statements
from him in violation of Miranda that were used in
the criminal case against him. And because the only
issue in dispute on this theory was whether Tekoh
was “in custody” during the questioning in the MRI
reading room such that Miranda warnings were
required, Tekoh submitted a proposed jury
instruction that would have informed jurors of factors
to consider on that point. See Oregon v. Mathiason,
429 U.S. 492, 495, 97 S.Ct. 711, 50 L.Ed.2d 714 (1977)
(per curiam) (“Miranda warnings are required only
where there has been such a restriction on a person’s
freedom as to render him ‘in custody.’”).
The district court refused to instruct the jury on
Tekoh’s theory, reasoning that the Supreme Court’s
plurality decision in Chavez v. Martinez, 538 U.S. 760,
123 S.Ct. 1994, 155 L.Ed.2d 984 (2003), held that
Miranda was a mere “prophylactic rule,” rather than
a “constitutional requirement,” and that a § 1983
plaintiff like Tekoh “[could not] use a prophylactic
rule to create a constitutional right.” Instead, the
district court instructed the jury to evaluate Tekoh’s
claim that Deputy Vega had coerced a confession as if
it were a Fourteenth Amendment claim based on

7a
fabrication of evidence.1 So instructed, the jury
returned a verdict in favor of Deputy Vega.
After the trial, however, the district court
concluded that it had erred by instructing the jury to
evaluate Tekoh’s claim as if it were brought under the
Fourteenth Amendment instead of as a violation of
the Fifth Amendment. See Hall v. City of Los Angeles,
697 F.3d 1059, 1068–69 (9th Cir. 2012) (holding that
a coerced confession claim must be brought under the
Fifth Amendment, not as a Fourteenth Amendment
fabrication-of-evidence claim). It therefore ordered a
new trial on the coerced confession claim.
The jury instructions were again contested.
Ultimately, the district court gave the jury the
following instruction on coerced confessions:
You must consider the objective totality of all
the surrounding circumstances. Whether a
confession is improperly coerced or compelled
depends on the details of the interrogation.
Factors to consider include, but are not limited
to:
(1) The location where the questioning took
place (for example at a police station or on a
public street), and whether the location was
chosen by the person or the officer;
(2) Was the person free to go or was the
person
under
arrest
or
physically
restrained;

1

This instruction required Tekoh to prove that, at a
minimum, “[Deputy] Vega used techniques that were so coercive
and abusive that he knew, or was deliberately indifferent, that
those techniques would yield false information that was used to
criminally charge and prosecute Plaintiff.”

8a
(3) Was the length of the questioning
oppressive;
(4) What Plaintiff was told at the beginning
of the encounter and throughout its
duration;
(5) The manner in which the person was
questioned—for example: was any actual
force or infliction of pain used on the person;
was the person (or anyone near or dear to
him or her) threatened either physically or
psychologically; was the officer’s gun drawn;
did the officer continually shout at the
suspect for an extended period; etc.
(6) If the warnings under the Miranda
decision (as described below) were required
at the time, whether the police advised the
person being questioned of his or her right
to remain silent and to have a counsel
present during the custodial interrogation;
and
(7) Any other factors that a reasonable
person would find coercive under the
circumstances.
Again, the jury returned a verdict in favor of
Deputy Vega.2 Tekoh timely appeals.

2 In both civil trials, the district court also excluded
testimony from Tekoh’s coerced confessions expert, Dr. BlandonGitlin, who had testified on Tekoh’s behalf at his second criminal
trial, which resulted in an acquittal.

9a
II.
We have jurisdiction under 28 U.S.C. § 1291.3 We
review de novo the district court’s rejection of Tekoh’s
proposed jury instruction on his Miranda theory on
the ground that it was not a correct statement of the
law.4 Smith v. City & Cnty. of Honolulu, 887 F.3d
944, 951 (9th Cir. 2018) (“We review a district court’s
formulation of civil jury instructions for an abuse of
discretion, but we consider de novo whether the
challenged instruction correctly states the law.”
(citation omitted)).
III.
Under 42 U.S.C. § 1983, a plaintiff may bring suit
for damages against a state official who deprives him
3

Deputy Vega briefly argues that we lack jurisdiction to
review the district court’s refusal to instruct the jury on the
Miranda theory because Tekoh did not list the orders rejecting
his proposed Miranda instruction in his notice of appeal. But
the district court’s pretrial orders regarding the jury instructions
merged into the final judgment, so by appealing the judgment,
Tekoh “implicitly brought all of the district court’s subordinate
orders within the jurisdiction of our court.” Hall, 697 F.3d at
1070.
4

Deputy Vega’s argument that Tekoh failed to preserve
his challenge to the jury instruction lacks merit. The propriety
of Tekoh’s requested jury instruction was extensively litigated in
both trials. The district court made clear on several occasions
that it understood Tekoh’s argument but was not going to change
its mind on giving the instruction. In fact, the court specifically
told Tekoh that he had preserved his objection to the refusal to
give the instruction. This was more than enough to preserve the
issue for appeal. United States ex rel. Reed v. Callahan, 884 F.2d
1180, 1184 (9th Cir. 1989) (holding that additional objections to
the jury instructions are not required “when it is obvious that in
the process of settling the jury instructions the court was made
fully aware of the objections of the party and the reasons therefor
and further objection would be unavailing”).

10a
of “any rights, privileges, or immunities secured by
the Constitution.” Whether the district court should
have given Tekoh’s proposed Miranda instruction
turns on whether the introduction of Tekoh’s unMirandized statement at his criminal trial
constituted a violation of Tekoh’s Fifth Amendment
rights.
A.
The Fifth Amendment provides that “[n]o person
. . . shall be compelled in any criminal case to be a
witness against himself.” U.S. Const. amend. V. In
Miranda v. Arizona, the Supreme Court implemented
this guarantee by setting forth “concrete
constitutional guidelines” for officers to follow when
conducting custodial interrogations. 384 U.S. 436,
441–42, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966); see
Chavez, 538 U.S. at 790, 123 S.Ct. 1994 (Kennedy, J.,
concurring) (explaining that Miranda warnings were
“adopted to reduce the risk of a coerced confession and
to implement the Self-Incrimination Clause”). Under
Miranda, before an individual in custody is
interrogated, he must be advised “that he has a right
to remain silent, that any statement he does make
may be used as evidence against him, and that he has
a right to the presence of an attorney, either retained
or appointed.” 384 U.S. at 444, 86 S.Ct. 1602.
Thereafter, the officer may proceed with questioning
only if the subject of the interrogation agrees to waive
these rights. Id. at 444–45, 86 S.Ct. 1602; see
Berghuis v. Thompkins, 560 U.S. 370, 382–85, 130
S.Ct. 2250, 176 L.Ed.2d 1098 (2010).
Miranda marked a significant shift in how courts
evaluate the admissibility of confessions. Before
Miranda, “voluntariness vel non was the touchstone
of admissibility.” Davis v. United States, 512 U.S.

11a
452, 464, 114 S.Ct. 2350, 129 L.Ed.2d 362 (1994)
(Scalia, J., concurring). In determining whether a
confession could be admitted in criminal proceedings,
courts looked to “the totality of all the surrounding
circumstances” to determine “whether [the]
defendant’s will was overborne.” Schneckloth v.
Bustamonte, 412 U.S. 218, 226, 93 S.Ct. 2041, 36
L.Ed.2d 854 (1973). After Miranda, however, an
officer’s failure to provide the requisite Miranda
warnings or to obtain a valid waiver of the suspect’s
Miranda rights is generally enough, on its own, to
“require[ ] exclusion of any statements obtained.”5
Missouri v. Seibert, 542 U.S. 600, 608, 124 S.Ct. 2601,
159 L.Ed.2d 643 (2004).
In the decades following Miranda, there was
significant debate about the extent to which Miranda
warnings were constitutionally required. On the one
hand, the Miranda opinion itself appeared to
contemplate that statements taken from a defendant
who was in custody but had not been given Miranda
warnings were inherently compelled, and thus
obtained in violation of the Fifth Amendment. See
Miranda, 384 U.S. at 458, 86 S.Ct. 1602 (“Unless
adequate protective devices are employed to dispel
the compulsion inherent in custodial surroundings,
5

Miranda supplemented, rather than replaced, the
traditional voluntariness test. Dickerson, 530 U.S. at 444, 120
S.Ct. 2326. Accordingly, a suspect seeking to suppress a
confession may show either that it was obtained in violation of
Miranda or that it was involuntarily given. Id. But see Berkemer
v. McCarty, 468 U.S. 420, 433 n.20, 104 S.Ct. 3138, 82 L.Ed.2d
317 (1984) (“[C]ases in which a defendant can make a colorable
argument that a self-incriminating statement was ‘compelled’
despite the fact that the law enforcement authorities adhered to
the dictates of Miranda are rare.”).

12a
no statement obtained from the defendant can truly
be the product of his free choice.”); see also Dickerson,
530 U.S. at 447, 120 S.Ct. 2326 (Scalia, J., dissenting)
(acknowledging that the “fairest reading” of Miranda
is that the use of un-Mirandized statements at trial
“violates the Constitution”). And Miranda involved
proceedings in state courts, over which the Supreme
Court lacks plenary supervisory control. See Smith v.
Phillips, 455 U.S. 209, 221, 102 S.Ct. 940, 71 L.Ed.2d
78 (1982) (“Federal courts hold no supervisory
authority over state judicial proceedings and may
intervene only to correct wrongs of constitutional
dimension.”).
On the other hand, the Miranda decision left open
the possibility that the specific warnings set out in the
opinion might not be necessary if the states or
Congress devised other adequate means of protecting
against “the inherent compulsions of the
interrogation process.” 384 U.S. at 467, 86 S.Ct. 1602.
And more significantly, in several decisions, the Court
described Miranda warnings as mere “prophylactic
rules” or “procedural safeguards” that were “not
themselves rights protected by the Constitution.”
New York v. Quarles, 467 U.S. 649, 653–55, 104 S.Ct.
2626, 81 L.Ed.2d 550 (1984); Michigan v. Tucker, 417
U.S. 433, 444, 94 S.Ct. 2357, 41 L.Ed.2d 182 (1974);
see also Oregon v. Elstad, 470 U.S. 298, 306, 105 S.Ct.
1285, 84 L.Ed.2d 222 (1985) (“The Miranda
exclusionary rule . . . sweeps more broadly than the
Fifth Amendment itself.”).
The issue came to a head in Dickerson v. United
States.
Dickerson concerned a federal statute,
enacted in the wake of the Court’s Miranda decision,
that provided that confessions were admissible as
long as they were voluntarily made, regardless of

13a
whether Miranda warnings had been provided. 530
U.S. at 432, 120 S.Ct. 2326; 18 U.S.C. § 3501.
Whether the rule set forth in the statute was
constitutionally permissible “turn[ed] on whether the
Miranda Court [had] announced a constitutional
rule”; if it had, Congress could not override that rule
by statute. Dickerson, 530 U.S. at 437, 120 S.Ct.
2326. The Court acknowledged that language in
Quarles, Tucker, and other post-Miranda decisions
could be read to support the view that Miranda
warnings were not constitutionally required. Id. at
437–38, 120 S.Ct. 2326. But the Dickerson Court
ultimately concluded that Miranda was “a
constitutional decision” that Congress could not
overrule. Id. at 438–39, 120 S.Ct. 2326; see also id. at
440 & n.5, 120 S.Ct. 2326 (describing Miranda as
“constitutionally based” and as having “constitutional
underpinnings”). Accordingly, the Dickerson Court
invalidated § 3501. Id. at 443–44, 120 S.Ct. 2326.
Dickerson strongly supports Tekoh’s argument
that a plaintiff may bring a § 1983 claim predicated
on a Miranda violation when the un-Mirandized
statement is used against him in criminal
proceedings. Section 1983 permits suits for damages
to vindicate “rights, privileges, or immunities secured
by the Constitution.” Because Dickerson made clear
that the right of a criminal defendant against having
an un-Mirandized statement introduced in the
prosecution’s case in chief is indeed a right secured by
the Constitution, we conclude that Tekoh has a claim
that his Fifth Amendment right against selfincrimination was violated.
B.
This clear view of the constitutional nature of
Miranda warnings was later muddied by United

14a
States v. Patane, 542 U.S. 630, 124 S.Ct. 2620, 159
L.Ed.2d 667 (2004), and Chavez v. Martinez, 538 U.S.
760, 123 S.Ct. 1994, 155 L.Ed.2d 984 (2003). In
Patane, the Court held, in a fractured decision, that
the Constitution did not require suppression of
physical evidence found as a result of an interrogation
that violated Miranda—i.e., the “physical fruits” of a
Miranda violation. 542 U.S. at 633–34, 124 S.Ct.
2620. Writing for the four-Justice plurality, Justice
Thomas described the Miranda rule as “sweep[ing]
beyond the actual protections of the SelfIncrimination Clause.” Id. at 639, 124 S.Ct. 2620. He
further concluded that a constitutional violation
based on a failure to give Miranda warnings could not
occur, if at all, until the unwarned statements were
admitted at trial, at which point the exclusion of the
statements themselves would be a “complete and
sufficient remedy” for the violation. Id. at 641–42,
124 S.Ct. 2620 (quoting Chavez, 538 U.S. at 790, 123
S.Ct. 1994 (Kennedy, J., concurring)). However,
Justice Kennedy, joined by Justice O’Connor,
concurred in the judgment on narrower grounds,
holding only that the suppression of physical evidence
was not required by the Fifth Amendment because it
“does not run the risk of admitting into trial an
accused’s coerced incriminating statements against
himself.” Id. at 645, 124 S.Ct. 2620 (Kennedy, J.,
concurring). Neither justice joined the plurality’s
broader discussion of Miranda as sweeping beyond
the protection of the Fifth Amendment.
Previously, in Chavez, the Supreme Court had
confronted the question of whether a plaintiff could
sue under § 1983 for an officer’s failure to give
Miranda warnings when the plaintiff was not charged
with a crime, and, therefore, his un-Mirandized

15a
statements were never used against him in criminal
proceedings. See 538 U.S. at 764–65, 123 S.Ct. 1994
(plurality opinion). In a fractured decision consisting
of six separate opinions, none of which garnered a
majority on anything but the judgment, the Court
held that such claims are not viable.
Specifically, Justice Thomas’s plurality opinion in
Chavez concluded that a “criminal case” requires, at
the very least, “the initiation of legal proceedings,”
and that because no proceedings had been brought
against the plaintiff, he had not suffered a Fifth
Amendment violation. 538 U.S. at 766, 123 S.Ct.
1994. Having reached this conclusion, which alone
was enough to resolve the case, the plurality
nevertheless continued on to discuss Miranda. Citing
Elstad, Tucker and other pre-Dickerson cases, the
plurality characterized the requirement of Miranda
warnings as a “prophylactic rule[ ] designed to
safeguard the core constitutional right protected by
the Self-Incrimination Clause,” id. at 770, 123 S.Ct.
1994, repeating the points made by Justice Scalia,
whose dissent in Dickerson was joined by Justice
Thomas. 530 U.S. at 447, 120 S.Ct. 2326 (Scalia, J.,
dissenting). The Chavez plurality explained that
violations of “judicially crafted prophylactic rules do
not violate the constitutional rights of any person”
and therefore “cannot be grounds for a § 1983 action.”
538 U.S. at 772, 123 S.Ct. 1994.
The specific holding in Chavez does not govern
Tekoh’s case because unlike the plaintiff in Chavez,
Tekoh’s un-Mirandized statements were used against
him in criminal proceedings. But the district court
read Chavez to stand for the broader proposition that
a § 1983 claim can never be grounded on a Miranda
violation. In adopting this reading of Chavez, the

16a
district court treated Justice Thomas’s plurality
opinion of four Justices as supplying the controlling
precedent here.
The district court went astray by doing so. In
United States v. Davis, 825 F.3d 1014 (9th Cir. 2016),
our court, sitting en banc, examined the question of
what rule our court was bound to apply when
construing fractured Supreme Court decisions.
Addressing the guidelines laid out in Marks v. United
States, 430 U.S. 188, 193, 97 S.Ct. 990, 51 L.Ed.2d 260
(1977), we held that a fractured Supreme Court
decision “only bind[s] the federal courts of appeal
when a majority of the Justices agree upon a single
underlying rationale and one opinion can reasonably
be described as a logical subset of the other. When no
single rationale commands a majority of the Court,
only the specific result is binding on lower federal
courts.” Davis, 825 F.3d at 1021–22. In sum, we
concluded that “Marks instructs us to consider the
opinions only of ‘those Members who concurred in the
judgments on the narrowest grounds’ when deriving
a rule from a fractured Supreme Court decision.” Id.
at 1024 (quoting Marks, 430 U.S. at 193, 97 S.Ct. 990).
Applying Davis to Patane is straightforward.
Even though Justice Thomas’s plurality opinion
spoke broadly about the relationship between
Miranda and the Fifth Amendment, Justice
Kennedy’s concurring opinion was both necessary to
the judgment and narrowly focused on the distinction
between physical evidence and un-Mirandized
statements. Patane, 542 U.S. at 633–45, 124 S.Ct.
2620. Critically, Justice Kennedy’s opinion did not
echo the plurality’s broader discussion of Miranda,
and it thus controls. Davis, 825 F.3d at 1021–22.

17a
While applying Davis to Chavez is less
straightforward, we conclude that none of the six
opinions provides a binding rationale. See Stoot v.
City of Everett, 582 F.3d 910, 923 (9th Cir. 2009).
Justice Thomas’s plurality opinion, which reasoned in
dicta that damages were unavailable for Miranda
violations, did not command support from five
Justices and was based on a rationale significantly
broader than those of the concurring Justices. See
Marks, 430 U.S. at 193, 97 S.Ct. 990. Thus, contrary
to the district court’s conclusion, the broad principles
in Justice Thomas’s opinion are not binding here.
None of the other opinions in Chavez articulates a
principle directly applicable to the facts presented
here. Justice Kennedy’s opinion was a dissent on the
Fifth Amendment claim because he would have
affirmed, while the plurality opinion reversed. 538
U.S. at 799, 123 S.Ct. 1994.6 And while Justice
Kennedy’s concurring opinion suggests that exclusion
“is a complete and sufficient remedy” for Miranda
violations, it assumes that the exclusion of “unwarned
statements” is available as a remedy. 538 U.S. at 790,
123 S.Ct. 1994 (Kennedy, J., concurring). Justice
Kennedy’s opinion thus does not speak to Tekoh’s
plight, where exclusion is not available as a remedy
because the un-Mirandized statements were already
used against him in his criminal trial. Exclusion,
here, is neither complete nor sufficient.
6

In Davis, we left open the question whether we can
consider dissents in applying Marks. 825 F.3d at 1025; see also
id. at 1028–30 (Christen, J., concurring) (five judges concurring
in the view that Marks, on its face, limits review to “the opinions
of ‘those Members [of the Court] who concurred in the
judgments”’ (quoting Marks, 430 U.S. at 193, 97 S.Ct. 990)).

18a
On the other hand, Justice Souter’s concurring
opinion, joined by Justice Breyer, expressly noted
that “[t]he question whether the absence of Miranda
warnings may be a basis for a § 1983 action under any
circumstance is not before the Court.” Id. at 779 n.*,
123 S.Ct. 1994 (Souter, J., concurring).
“When, [as in Chavez], no ‘common denominator of
the Court’s reasoning’ exists, we are bound only by
[and only apply] the ‘specific result.’” Davis, 825 F.3d
at 1028. Here, the “specific result” from Chavez does
not and cannot apply to Tekoh’s particular
circumstances because his un-Mirandized statement
was admitted in his criminal trial, obviating exclusion
as a remedy. Under our holding in Davis, Justice
Thomas’s plurality in Chavez therefore cannot
control.
Thus, we are left with Dickerson for
guidance, which, as previously discussed, leads us to
conclude that the use of an un-Mirandized statement
against a defendant in a criminal proceeding violates
the Fifth Amendment and may support a § 1983
claim.7
Our own decisions post-Patane and Chavez further
support this conclusion. In Stoot, we held that
plaintiffs could bring a § 1983 claim based on an
officer’s extraction of a coerced confession that was
“relied upon to file formal charges against the
declarant, to determine judicially that the
prosecution may proceed, and to determine pretrial
custody status.” 582 F.3d at 925. Although we did
not consider the specific Miranda question presented
7

Chavez clearly stands for the proposition that merely
taking a statement without Miranda warnings is insufficient to
give rise to a § 1983 claim. Chavez, 538 U.S. at 767, 123 S.Ct.
1994.

19a
here, we examined the various opinions in Chavez and
interpreted them in a manner consistent with our
interpretation here. See id. at 922–24; see also Crowe
v. Cty. of San Diego, 608 F.3d 406, 429–31 (9th Cir.
2010). And in Jackson v. Barnes, 749 F.3d 755, 762,
767 (2014), we held that a plaintiff could bring a
§ 1983 suit against an officer for obtaining an unMirandized statement that was later used against
him at his criminal trial, as well as against a police
department for failing to supervise officers who
routinely fail to give Miranda warnings.
Several of our sister circuits have also
distinguished Chavez, agreeing that the use of
statements obtained in violation of the Fifth
Amendment against a defendant at his criminal trial
may give rise to a § 1983 claim. See Sornberger v. City
of Knoxville, 434 F.3d 1006, 1023–27 (7th Cir. 2006);
Burrell v. Virginia, 395 F.3d 508, 513–14 (4th Cir.
2005) (holding that the plaintiff’s failure to “allege
any trial action that violated his Fifth Amendment
rights” barred recovery under § 1983) (emphasis
added); Murray v. Earle, 405 F.3d 278, 285 & n.11
(5th Cir. 2005); id. at 289–90 (holding that the use of
an “involuntary statement” against a criminal
defendant at trial could give rise to a § 1983 action);
Renda v. King, 347 F.3d 550, 552, 557–59 (3d Cir.
2003) (recognizing that Chavez “leaves open the issue
of when a statement is used at a criminal
proceeding”).
We therefore also reject the Eighth Circuit’s
approach in Hannon v. Sanner, in which the court
interpreted Dickerson together with Chavez to hold
that a Miranda violation cannot form the basis of a
§ 1983 claim because “the Miranda procedural
safeguards are ‘not themselves rights protected by the

20a
Constitution.’” 441 F.3d 635, 636–38 (8th Cir. 2006)
(quoting Tucker, 417 U.S. at 444, 94 S.Ct. 2357). In
Hannon, the court described Dickerson as
“maintaining the status quo of the Miranda doctrine,”
such that it remained bound by pre-Dickerson circuit
precedent that treated Miranda as a prophylactic rule
that swept more broadly than the Fifth Amendment.
Id. at 636–37 (citing Warren v. City of Lincoln, 864
F.2d 1436, 1442 (8th Cir. 1989) (en banc) and Brock v.
Logan Cty. Sheriff’s Dep’t, 3 F.3d 1215, 1217 (8th Cir.
1993) (per curiam)). In light of Dickerson’s express
holding, however, this cannot be correct.
In
Dickerson, the Supreme Court in no way maintained
the status quo; in fact, it affirmatively backed away
from previous decisions like Quarles and Tucker that
had described Miranda warnings as merely
prophylactic and “not themselves rights protected by
the Constitution,” the very cases Hannon relied upon.
530 U.S. at 437–39, 120 S.Ct. 2326 (quoting Tucker,
417 U.S. at 444, 94 S.Ct. 2357). Finding Hannon
unpersuasive, we conclude that the use of an unMirandized statement against a defendant in a
criminal proceeding violates the Fifth Amendment
and may support a § 1983 claim.
C.
To hold Deputy Vega liable under § 1983 for
violating Tekoh’s Fifth Amendment rights, Tekoh
must also prove that his un-Mirandized statements
were used against him and that Deputy Vega caused
the violation of his right against self-incrimination.
While the question of liability is ultimately for the
jury to decide, we conclude that Tekoh sufficiently
demonstrated a Fifth Amendment violation caused by
Deputy Vega under § 1983, such that the district

21a
court erred by failing to instruct the jury on this
claim.8
Here, there is no question that Tekoh’s statement
was used against him. The statement was introduced
into evidence in the failed state criminal prosecution
of him. See Stoot, 582 F.3d at 914–16; see also
Sornberger, 434 F.3d at 1026–27 (holding that where
“a suspect’s criminal prosecution was . . . commenced
because of her allegedly un-warned confession, the
‘criminal case’ contemplated by the SelfIncrimination Clause has begun”).9
There is also no question that Deputy Vega
“caused” the introduction of the statements at Tekoh’s
criminal trial even though Vega himself was not the
prosecutor. In Stoot, we held that a plaintiff may
assert a Fifth Amendment violation against the
officer who interrogated him and then included the
coerced statements in the police report. 582 F.3d at
926. We explained that “government officials, like
other defendants, are generally responsible for the
‘natural’ or ‘reasonably foreseeable’ consequences of
their actions.” Id. (quoting Higazy v. Templeton, 505
F.3d 161, 175 (2d Cir. 2007)). Joining other circuits,
we held that, absent unusual circumstances, such as
evidence that the officer “attempted to prevent the
8

A district court errs “when it rejects proposed jury
instructions that are properly supported by the law and the
evidence.” Clem v. Lomeli, 566 F.3d 1177, 1181 (9th Cir. 2009)
(citing Dang v. Cross, 422 F.3d 800, 804–05 (9th Cir. 2005)).
9

Because we do not address the circumstances present in
Sornberger, where an un-Mirandized statement was used
against the defendant in the commencement of her criminal
prosecution but where charges were dropped prior to trial, we do
not decide whether such facts could give rise to a claim for
damages under § 1983. Id.

22a
use of the allegedly incriminating statements . . . or
that he never turned the statements over to the
prosecutor in the first place,” id. at 926 (quoting
McKinley v. City of Mansfield, 404 F.3d 418, 439 (6th
Cir. 2005)), a police officer who elicits incriminating
statements from a criminal suspect can reasonably
foresee that the statements will be used against the
suspect in a criminal case, id. (citing Higazy, 505 F.3d
at 177); see also id. at 927 (“[O]rdinarily, ‘in actions
brought under § 1983 for alleged violations of [the
Fifth Amendment], it is the person who wrongfully
coerces or otherwise induces the involuntary
statement who causes the violation of the [Fifth
Amendment] privilege.’” (quoting McKinley, 404 F.3d
at 439)).
Similarly, here, although it was the prosecutors
who used Tekoh’s statements at his criminal trial, it
was Deputy Vega who interrogated Tekoh, prepared
the incident report, and personally signed the
probable cause declaration. In those documents, Vega
stated that Tekoh was a suspect, that he arrested
Tekoh for the charge of “Sexual Penetration by
Foreign Object,” and that Tekoh’s incriminating
statements were the basis for the report and the
probable cause determination. As a result, a jury
could infer that the subsequent introduction of the
statements in Tekoh’s criminal trial was the
reasonably foreseeable consequence of Deputy Vega’s
conduct. See Stoot, 582 F.3d at 926 (“[A] jury could
infer that the subsequent uses of the statements to
file criminal charges against [the suspect] and to set
conditions for his release at arraignment were
reasonably foreseeable consequences of [the
interrogating officer’s] conduct.”).

23a
We do not hold that taking an un-Mirandized
statement always gives rise to a § 1983 action. We
hold only that where government officials introduce
an un-Mirandized statement to prove a criminal
charge at a criminal trial against a defendant, a
§ 1983 claim may lie against the officer who took the
statement.10 By contrast, in cases like Chavez, where
the suspect was never charged, or where police coerce
a statement but do not rely on that statement to file
formal charges, the Fifth Amendment is not
implicated. See Stoot, 582 F.3d at 925 n.15 (citing
Chavez, 538 U.S. at 778–79, 123 S.Ct. 1994).
D.
Therefore, the district court erred by giving the
coerced confession instruction, rather than
instructing on the Miranda violation alone.11 The
giving of solely the coerced confession instruction was
not harmless. “[W]e ‘presume prejudice where civil
10 This holding is not inconsistent with our prior holding in

Fortson v. L.A. City Atty’s Office, 852 F.3d 1190, 1192, 1194–95
(9th Cir. 2017). In Fortson, we cited Chavez for the proposition
that “failure to give Miranda warnings does not create liability
in a civil rights action.” Id. at 1194–95. This reliance on Chavez,
however, is limited to Chavez’s binding result that a mere failure
to read Miranda warnings does not give rise to a claim under
§ 1983. See id. at 1192 (explaining that Fortson’s Miranda claim
was based on the defendants’ failure to read him his Miranda
warnings, but nothing more). The plaintiff’s situation in
Fortson, like in Chavez, is distinguishable from Tekoh’s claim
because there was no indication that the Fortson plaintiff’s unMirandized statements were used against him in a subsequent
criminal case.
11 Of course, if the jury believes Deputy Vega’s version of
events, it could conclude that Tekoh was not “in custody,” and
thus Miranda warnings were not required, in which case Deputy
Vega would prevail.

24a
trial error is concerned.’” Clem v. Lomeli, 566 F.3d
1177, 1182 (9th Cir. 2009) (quoting Dang v. Cross, 422
F.3d 800, 811 (9th Cir. 2005)). Deputy Vega bears the
burden of demonstrating “that it is more probable
than not that the jury would have reached the same
verdict had it been properly instructed.” Id. Deputy
Vega has not met that burden.
First, to establish a Miranda violation, Tekoh need
only demonstrate that he was “in custody” when he
was questioned by Deputy Vega without Miranda
warnings. Miranda, 384 U.S. at 445, 86 S.Ct. 1602.
The district court instead required Tekoh to prove
“that the confession or statement was improperly
coerced and not voluntary” and that Vega “acted
intentionally in obtaining that coerced confession or
statement,”—a more difficult showing that effectively
added two elements to Tekoh’s claim. We have
previously recognized that when a court improperly
requires an extra element for a plaintiff’s burden of
proof, the error is unlikely to be harmless. Clem, 566
F.3d at 1182 (quoting Caballero v. City of Concord,
956 F.2d 204, 207 (9th Cir. 1992)).
Second, we cannot presume that the jury would
have found that Tekoh was not in custody if it had
been properly instructed on Tekoh’s Miranda claim.
As Deputy Vega concedes, whether Tekoh was in
custody involved a disputed question of fact that
turned on “credibility determinations that an
appellate court is in no position to make.” Caballero,
956 F.2d at 207; see also id. (“In reviewing a civil jury
instruction for harmless error, the prevailing party is
not entitled to have disputed factual questions
resolved in his favor[.]”).
Furthermore, we simply do not—and cannot—
know what the jury found as to the question of

25a
custody. The district court erroneously instructed the
jury to assess whether Tekoh was coerced under a
totality-of-the-circumstances test, under which the
Miranda violation was one of seven factors. Thus, it
was entirely possible for the jury to find that Tekoh
was in custody for Miranda violation purposes, but
still ultimately conclude that Deputy Vega’s
questioning did not rise to the level of coercion—a
significantly higher standard. See, e.g., Pollard v.
Galaza, 290 F.3d 1030, 1035 (9th Cir. 2002) (holding
that the detective’s questioning of the defendant
violated Miranda but “did not amount to coercion or
compulsion”); Carpenter v. Chappell, No. C 00-3706
MMC, 2013 WL 4605362, at *15–16 (N.D. Cal. Aug.
26, 2013) (same); United States v. Betters, 229 F.
Supp. 2d 1103, 1108 (D. Or. 2002) (same). Indeed,
Deputy Vega’s testimony supported Tekoh’s claim
that he was not free to leave during the interrogation.
Therefore, we cannot conclude “that it is more
probable than not that the jury would have reached
the same verdict had it been properly instructed.”
Clem, 566 F.3d at 1182 (citation omitted). Because
we do not believe that Deputy Vega has made such a
showing, the error was not harmless. We thus vacate
the judgment on the jury’s verdict and remand the
case for a new trial, in which the jury must be
properly instructed that the introduction of a
defendant’s un-Mirandized statement at his criminal
trial during the prosecution’s case in chief alone is
sufficient to establish a Fifth Amendment violation.
IV.
Because we remand for a new trial, we need not
reach the question of whether the district court
abused its discretion by excluding the testimony of
Tekoh’s coerced confession expert, Dr. Blandon-

26a
Gitlin. On remand, we leave it to the district court to
consider whether the expert should be permitted to
testify given the questions that remain.
V.
We vacate the judgment on the jury’s verdict,
reverse the district court’s judgment as to Tekoh’s
requested jury instruction, and remand the case for a
new trial, in which the jury must be properly
instructed that the introduction of a defendant’s unMirandized statement at his criminal trial during the
prosecution’s case in chief is alone sufficient to
establish a Fifth Amendment violation and give rise
to a § 1983 claim for damages. The parties shall bear
their own costs of appeal.
VACATED; REVERSED AND REMANDED

27a
RICKEY IVIE (S.B.N.: 76864)
rivie@imwlaw.com
ANTONIO K. KIZZIE (S.B.N.: 279719)
akizzie@imwlaw.com
IVIE, McNEILL & WYATT
444 S. Flower Street, 18th Floor
Los Angeles, CA 90017-2919
(213) 489-0028/(213) 489-0552 FAX
Attorneys for Defendants
ANGELES, et al.

COUNTY

OF

LOS

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
TERENCE B.
TEKOH,
Plaintiff
vs.
COUNTY OF LOS
ANGELES, a
municipal entity,
DEPUTY CARLOS
VEGA, an individual
and DOES 1 through
10, inclusive
Defendants

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: CV 16-7297GW(SKx)
[Hon. George H. Wu,
Courtroom 9D]
JUDGMENT
Complaint Filed:
October 25, 2016
FSC Date:
August 31, 2017
Trial Date:
October 10, 2017
Closing Date:
October 17, 2017

1. This case came on regularly for trial on October
10, 2017 to October 17, 2017 in Department 9D of this
Court, the Honorable George H. Wu presiding; the

28a
Plaintiff appearing by Attorney John Burton from
LAW OFFICE OF JOHN BURTON and Maria
Cavalluzzi of CAVALLUZZI & CAVALLUZZI, and
Defendants appearing by Attorneys Rickey Ivie and
Antonio K. Kizzie from IVIE, MCNEILL & WYATT.
2. A jury of 8 persons was regularly impaneled
and placed under oath. Witnesses were placed under
oath and testified. After hearing the evidence and
arguments of counsel, the jury was duly instructed by
the Court and the cause was submitted to the jury
with directions to return a verdict on special issues.
The jury deliberated and thereafter returned into
court with its special verdict consisting of the special
issues submitted to the jury and the answers given
thereto by the jury, which said verdict was in words
and figures as follows, to wit:
“WE, THE JURY in the above-entitled action,
unanimously find as follows on the questions
submitted to us:
QUESTION # 1
Did Plaintiff prove by a preponderance of the
evidence that Defendant Carlos Vega violated
Plaintiff’s rights by arresting Plaintiff without
probable cause?
Answer: Yes_____ No X
QUESTION # 3
Did Plaintiff prove by a preponderance of the
evidence that Defendant Vega violated Plaintiff’s
rights by deliberately fabricating evidence or using
techniques that were so coercive and abusive that he
knew, or was deliberately indifferent, that those
techniques would yield false information that was
used to criminally charge or prosecute Plaintiff?

29a
Answer: Yes_____ No X
QUESTION #5
Did Plaintiff prove by a preponderance of the
evidence that Defendant Stangeland violated
Plaintiff’s rights by deliberately fabricating evidence
or using techniques that were so coercive and abusive
that he knew, or was deliberately indifferent, that
those techniques would yield false information that
was used to criminally charge or prosecute Plaintiff?
Answer: Yes_____ No X
It appearing by reason of said special verdict that:
Defendant SGT. CARLOS VEGA and SGT.
DENNIS STANGELAND are entitled to judgment
against the plaintiff TERENCE B. TEKOH.
Now, therefore, it is ORDERED, ADJUDGED,
AND DECREED that said Plaintiff TERENCE B.
TEKOH shall recover nothing by reason of the
complaint, and that defendants shall recover costs
from said plaintiff TERENCE B. TEKOH pursuant
to Federal Rule of Civil Procedure 54(d)(1). The cost
bill will be submitted directly to this Court for its
review and determination.
Dated: November 7, 2017

/s/ George H. Wu
GEORGE H. WU,
U.S. District Judge

30a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. CV 16-7297-GW(SKx) Date March 8, 2018
Title Terence B. Tekoh v. County of Los Angeles, et al.
Present: The Honorable GEORGE H. WU, UNITED
STATES
DISTRICT
JUDGE
Javier Gonzalez
None Present
Deputy Clerk
Court Reporter/
Tape No.
Recorder
Attorneys Present
for Plaintiffs:
None Present

Attorneys Present
for Defendants:
None Present

PROCEEDINGS: IN CHAMBERS – RULING ON
PLAINTIFF’S MOTION FOR A
NEW TRIAL [199]
Attached hereto is the Court’s Final Ruling on
Plaintiff’s Motion for a New Trial. The Court would
GRANT the Motion for a New Trial but only as to
Plaintiff’s Fifth Amendment claim and only as to
Defendant Vega.
The Court sets a scheduling conference for March 12,
2018 at 9:00 a.m.
Terence Tekoh v. County of Los Angeles, et al.;
Case No. 2:16-cv-07297-GW-(SKx)
Final Ruling on Motion for New Trial

31a
I. Background
Plaintiff Terence Tekoh sued Defendants County
of Los Angeles, Los Angeles County Sherriff’s
Department (“LACSD”) Sergeant Carlos Vega, and
LACSD Sergeant Dennis Stangeland for violations of
his civil rights.
See generally First Amended
Complaint (“FAC”), Docket No. 37. Plaintiff alleged
that Sergeant Vega took him into custody, failed to
give the required Miranda advisal, and then − by use
of threats and coercion − caused him to hand-write a
false confession to sexually assaulting a patient at the
Los Angeles County/USC Medical Center. See id.
¶¶ 47(a)-(c). Additionally, Plaintiff alleged that both
Sergeants Vega and Stangeland fabricated reports
that were later used to form the basis of a criminal
prosecution for sexual assault. See id. ¶¶ 47(e), 48.
Plaintiff was ultimately acquitted of the offense and
thereafter filed this action under 42 U.S.C. § 1983
against the Defendants. See id. ¶ 43.
The matter was tried to a jury in October of 2017,
resulting in a unanimous verdict for Defendants. See
generally Docket No. 182. Plaintiff now moves for a
new trial, arguing that: 1) the Court erred in
excluding Plaintiff’s proposed expert on false
confessions; 2) the Court erroneously failed to give
two of Plaintiff’s proposed jury instructions; and 3)
defense counsel’s persistent misconduct permeated
the proceedings and deprived Plaintiff of a fair trial.
See generally Motion for a New Trial (“Motion”),
Docket No. 202.1 In support of the Motion, Plaintiff
1 Plaintiff’s Motion was first filed at Docket No. 201.
Docket No. 202 corrects − what Plaintiff terms − “drafting errors
that can be distracting.” See Notice of Errata, Docket No. 202 at
1 of 33.

32a
provides the Court with two portions of the trial
transcript, i.e. defense counsel’s opening statement
and closing argument. See generally Declaration of
Matt Sahak, Docket No. 200, Ex. A (“Defs.’ Opening”)
and Ex. B (“Defs.’ Closing”). Defendants oppose the
Motion. See generally Opposition to Motion (“Opp’n”),
Docket No. 203.
Additionally, Defendants, as prevailing parties,
filed an Application to the Clerk to Tax Costs. See
generally Docket No. 196. Plaintiff objected to a
number of the proposed costs. See generally Objection
to Cost Bill, Docket No. 198. If the Court were to
order a new trial the Defendants’ application would
become moot. Accordingly, the Court will first
consider the Motion and then address Defendants’
application.
II. Legal Standard
Federal Rule of Civil Procedure (“Rule”)
59(a)(1)(A) permits a court, after a jury trial, to grant
a new trial on all or some of the issues “for any reason
for which a new trial has heretofore been granted in
an action at law in federal court.” “Rule 59 recognizes
the common-law principle that it is the duty of a judge
who is not satisfied with the verdict of a jury to set the
verdict aside and grant a new trial.” 11 Charles Alan
Wright & Arthur R. Miller, Federal Practice and
Procedure § 2801 (3d ed. 2017) (“Federal Practice and
Procedure”). “[T]he burden of proof on a motion for a
new trial is on the moving party, and the court should
not lightly disturb a plausible jury verdict.” AngloAmerican General Agents v. Jackson Nat’l Life Ins.
Co., 83 F.R.D. 41, 43 (N.D. Cal. 1979).
Rule 61 provides that “[u]nless justice requires
otherwise, no error in admitting or excluding evidence

33a
− or any other error by the court or a party − is ground
for granting a new trial, for setting aside a verdict, or
for vacating, modifying, or otherwise disturbing a
judgment or order. At every stage of the proceeding,
the court must disregard all errors and defects that
do not affect any party’s substantial rights.”
Accordingly, a court will only grant a new trial if a
party’s “substantial rights” have been affected. See
also United States v. 99.66 Acres of Land, 970 F.2d
651, 658 (9th Cir. 1992) (stating that a new trial will
only be warranted on the basis of an incorrect
evidentiary ruling if a party was “substantially
prejudiced”).
Additionally, “erroneous jury instructions, as well
as the failure to give adequate instructions, are . . .
bases for a new trial.” Murphy v. City of Long Beach,
914 F.2d 183, 187 (9th Cir. 1990). Nevertheless, only
prejudicial error in the formulation of jury
instructions will warrant a new trial. See Dang v.
Cross, 422 F.3d 800, 805 (9th Cir. 2005).
“[P]rejudicial error results when, looking to the
instructions as a whole, the substance of the
applicable law was [not] fairly and correctly covered.”
Id. (citing Swinton v. Potomac Corp., 270 F.3d 794,
802 (9th Cir. 2001) (alteration in original)).
Finally, a new trial is warranted based on
counsel’s misconduct “where the ‘flavor of misconduct
. . . sufficiently permeates[s] an entire proceeding to
provide conviction that the jury was influenced by
passion and prejudice in reaching its verdict.’”
Settlegoode v. Portland Public Schools, 371 F.3d 503,
516-17 (9th Cir. 2004) (quoting Kehr v. Smith Barney,
736 F.2d 1283, 1286 (9th Cir. 1984) (alteration in
original)).

34a
III. Discussion
A. Exclusion of Plaintiff’s Proffered Expert
Plaintiff first argues that the Court erroneously
excluded his proposed expert on the topic of coerced
confessions, i.e. Dr. Iris Blandon-Gitlin. See Motion
at 1-5. Prior to trial, Defendants moved to exclude Dr.
Blandon-Giltin from testifying on the basis that her
proposed testimony failed to meet the Daubert
standard of admissibility. See generally Defs.’ Motion
in Limine No. 9, Docket No. 86. Plaintiff opposed in
writing and, after considering the papers and hearing
argument, the Court granted Defendants’ Motion in
Limine No. 9. See Order, Docket No. 150, at 2.
Plaintiff argues that he was prejudiced by this
evidentiary ruling. See Motion at 4.
To prevail here in securing a new trial, Plaintiff
must demonstrate both that ruling was erroneous
and that he was substantially prejudiced. See 99.66
Acres of Land, 970 F.2d at 658. A trial court’s decision
as to whether to admit or exclude expert testimony is
reviewed under an abuse of discretion standard. See
Kumho Tire Co. v. Carmichael, 526 U.S. 137, 152
(1999); United States v. Curtin, 489 F.3d 935, 943 (9th
Cir. 2007) (en banc).
Plaintiff contends that the Court’s ruling
prevented Dr. Blandon-Giltin from being able “to
explain, based on studies and scientific data, how
innocent people can be coerced to confess to crimes
they did not commit. Dr. Blandon-Gitlin’s testimony
on the science of confessions, how it applies to
Defendants’ interrogation of Plaintiff, and why
Plaintiff’s statement read the way it did, contributed
to the criminal jury’s rejection of the confession.”
Motion at 4. As a preliminary matter, the Court

35a
would observe that the relevant issue here is not an
abstract one as to why an innocent person would
confess to a crime he or she did not commit. Nor it is
what did or did not contribute to the criminal jury’s
conclusions and verdict. Rather, at the trial in this
case, Plaintiff expressly explained in his testimony as
to why he wrote and signed the confession. And if one
were to believe his version of the events, the
confession was indeed coerced.
Plaintiff cites a concurring opinion in a Ninth
Circuit case for the proposition that expert testimony
was required here because the Court should not
“naively assume[] that a jury would be easily
persuaded ˗ that an innocent person would confess to
a crime they [sic] did not commit ˗ by the confessor’s
testimony alone.” Lunbery v. Hornbeak, 605 F.3d 754,
765 (9th Cir. 2010) (Hawkins, J., concurring). In that
case, the criminal defendant (Kristi Lunbery)
confessed in December 2001 to a murder committed
in 1992.2 Id. at 758. However, the actual holding in

2

The Circuit Court describes the interrogation that gave
rise to the purported false confession as follows:
For the first hour and one half, the detectives’ approach
was low-key, touching on various aspects of Kristi’s life
with [the decedent] and the events of April 17, 1992.
Kristi was providing care to Jim, a man with severe
mental retardation and epilepsy, and at various points in
the interview his interruptions and inarticulate noises
may be heard. Kristi’s children were not home.
The interview became intense when the detectives
showed her a FBI profile of the case and told her that a
secret witness had inculpated her. Detective Grashoff
then said, “Kristi, we think you did it.” She denied it.
The detectives said they knew she had done it and only

36a
that case was that it was error at the criminal trial to
have precluded the defendant from presenting
testimony that another individual had admitted to
the murder and the circumstances surrounding it. Id.
at 760-61. As to the issue of allowing expert
testimony as to coerced confessions, the majority
opinion did not even reach that question. Instead, the
majority’s focus (as well as Judge Hawkins’s
concurrence) was on whether the defendant’s counsel
were ineffective because they failed to call at trial an
expert in regards to false confessions or to further
investigate the validity of defendant’s confession. Id.
at 760. Even then, the majority opinion merely held
that it needed live testimony from the attorneys
before it could decide the ineffective assistance of
counsel issue. Id.
The facts here are entirely inapposite to those in
Lunbery.
Plaintiff’s proposed expert’s (i.e. Dr.
Blandon-Gitlin’s) basic opinion was that: “In the
current case, as evaluated from a scientific
perspective and assuming the veracity of Mr. Tekoh’s
accounts of events, it is my opinion that Mr. Tekoh’s
written confession was coerced and highly
unreliable.” See Exhibit C to Defendants’ Motion in
Limine No. 9 to Exclude Dr. Iris Blandon-Gitlin [sic]
Improper and Inadmissible Expert Opinions (which is
in Dr. Blandon-Gitlin’s June 14, 2017 report), Docket
No. 86-1 at 15-16 of 42. This Court found that her
opinion was unnecessary and problematic because: (1)
wanted to know why. Was it because he was abusive?
“For God’s sake, tell the truth,” Grashoff urged.
Eventually, Grashoff asked, “Did you shoot Charlie?”
She answered, “Yes.”
Id. at 757-58.

37a
if the jury believed Mr. Tekoh’s version of the events,
his confession was clearly coerced and highly
unreliable and her opinion added nothing of
substance, (2) Plaintiff appeared to be trying to use
Dr. Blandon-Gitlin to simply vouch for his version of
the events, but she was not a percipient witness, and
(3) her report included studies and contentions which
were irrelevant to the case.
Plaintiff here testified that Defendant Vega
browbeat him both physically and verbally,
threatened to deport not only him but also his family,
used racial epithets, denied him access to counsel, lied
to him regarding the evidence against him, and put a
piece of paper in front of him and forced him to write
a confession which Vega dictated. A reasonable juror
would not need the assistance of a person with
specialized knowledge to understand that those
conditions, if true, would give rise to a false and
coerced confession.
Accordingly, the proposed
testimony would not have sufficiently helped the jury
“to understand the evidence or to determine a fact in
issue” to warrant its admission. See Federal Rule of
Evidence 702.
As such, the Court’s ruling on
Defendant’s Motion in Limine No. 9 was not
erroneous.
See generally United States v.
Redlightning, 624 F.3d 1090, 1111-12 (9th Cir. 2010).
Furthermore, given the evidence presented at
trial, assuming arguendo that the Court ought to have
permitted Dr. Blandon-Gitlin to testify, its refusal to
do so did not amount to substantial prejudice that
would warrant relief and retrial. See 99.66 Acres of
Land, 970 F. 2d at 658. The jury heard hours of
conflicting testimony from Plaintiff plus his witnesses
and both individual defendants. Plaintiff testified
that Sergeant Vega displayed overt racial animus and

38a
threatened and coerced him into writing out a false
confession. Sergeant Vega vehemently denied this.
Thus, in the end, this matter came down to a question
of credibility.3
Whatever information Plaintiff’s
proposed expert might have brought to bear, she
would not have been permitted to vouch for Plaintiff’s
credibility. See United States v. Candoli, 870 F. 2d
496, 506 (9th Cir. 1989) (“An expert witness is not
permitted to testify specifically to a witness’
credibility or to testify in such a manner as to
improperly buttress a witness’ credibility.”). In
Mullen v. Barnes, No. 2:13–cv–0165–MCE–EFB,
2015 WL 2000764, at *17-19 (E.D. Ca. April 30, 2015),
it was held that the trial court’s decision to exclude
the testimony of an expert on false confessions was
not erroneous because the circumstances surrounding
the confession was explored in depth by both sides.
Additionally, the court held that even if it was error
to have excluded the testimony, that error was not
prejudicial because the proposed expert testimony in
this regard would not have altered appreciably the
jury’s perception of the confession.
In sum, the Court would not find that its refusal
to permit Dr. Blandon-Gitlin to testify was incorrect
or that it substantially prejudiced Plaintiff.
B. Plaintiff’s Proposed Instructions
Plaintiff next contends that the Court erred in
failing to give two of his proposed jury instructions.
See Motion at 5-13. Both sides agreed on giving the
3

In arguing for a new trial on the basis of defense
counsel’s persistent misconduct, Plaintiff concedes this point.
See Motion at 21 (“Plaintiff’s case fundamentally hinged on
whether the jury believed [Plaintiff’s] account of what happened
. . . , or whether they believed Defendants.”).

39a
Ninth Circuit Model Jury Instruction 9.33 on
“deliberate fabrication of evidence” (see proposed
Joint Jury Instructions, Docket No. 142 at 25 of 37).
Plaintiff only asked for further relevant instructions
on: (1) a “Fifth-Amendment Miranda Claim” (see
Plaintiff’s Proposed Jury Instruction (“PJI”) No. 19A),
and (2) a “Fourteenth-Amendment Coercive
Interrogation Claim” (PJI No. 19B). See Docket No.
143.
As stated in Clem v. Lomeli, 566 F.3d 1177, 1181
(9th Cir. 2009):
“‘[J]ury instructions must fairly and
adequately cover the issues presented, must
correctly state the law, and must not be
misleading.’”
Dang, 422 F.3d at 804
(quoting White v. Ford Motor Co., 312 F.3d
998, 1012 (9th Cir. 2002)). Each party is
therefore” ‘entitled to an instruction about
his or her theory of the case if it is supported
by law and has foundation in the evidence.’”
Id. at 804-05 (quoting Jones v. Williams, 297
F.3d 930, 934 (9th Cir. 2002)). A district
court therefore commits error when it
rejects proposed jury instructions that are
properly supported by the law and the
evidence. Id. “If, however, the error in the
jury instruction is harmless, it does not
warrant reversal.”
Id. at 805 (citing
Tritchler v. County of Lake, 358 F.3d 1150,
1154 (9th Cir. 2004)).
1. Miranda Instruction
Plaintiff’s PJI No. 19A stated:
Plaintiff contends that Defendant Carlos
Vega deprived him of rights guaranteed by

40a
the Fifth Amendment to the United States
Constitution by interrogating him while in
custody without advising him of his rights to
remain silent and to consult an attorney.
These rights were established by Miranda v.
Arizona, and are referred to by that case
name.
Defendant Vega denies that Plaintiff was in
custody for Miranda purposes.
To
determine whether Plaintiff was in custody,
and was therefore entitled to Miranda
admonitions, you should focus on the
objective circumstances, not the subjective
views of the officer or the individual being
questioned.
The ultimate question is
whether the officer created a setting from
which a reasonable person would believe
that he or she was not free to leave.
The following factors are among those likely
to be relevant to deciding that question:
(1) The language used to summon the
individual;
(2) The extent to which the individual
being questioned is confronted with
evidence of guilt;
(3) The physical surroundings;
(4) The duration of the detention; and
(5) The degree of pressure applied to
detain the individual.
In order to establish his Fifth-Amendment
claim, Plaintiff must prove by a
preponderance of the evidence that
Defendant Carlos Vega obtained one or

41a
more statements from him in violation of
Miranda that were subsequently used in the
criminal case against Plaintiff.
See Docket No. 143 at 2. Plaintiff argues that his
“main liability theory [was] that Defendants
interrogated him in violation of Miranda, and fruit of
the illegal interrogation was used against him in a
criminal case, a violation of the Fifth Amendment
actionable under § 1983.” Motion at 6. By failing to
give the proposed instruction, the Court supposedly
“obliterated” Plaintiff’s Fifth Amendment claim to the
point that it “did not exist” as far as the jurors were
concerned. Id. at 10.
However, in the operative FAC as to his Fifth
Amendment claim (as opposed to those based on the
Fourth or Fourteenth Amendment), Plaintiff alleged
that:
Defendant Vega subjected Plaintiff, while in
custody for Fifth Amendment purposes, to a
coercive and illegal interrogation, in
violation of Miranda, generating an
involuntary and false confession, which
caused Plaintiff to be prosecuted for a sexual
assault that he did not commit, an
independent violation of the Fifth
Amendment, and proximately causing all
the damages alleged above.
FAC ¶ 47(b). Notwithstanding Plaintiff’s arguments
here, his theory was not simply that Defendant Vega
was liable for failing to give a Miranda advisal prior
to questioning Plaintiff. To the contrary, Plaintiff’s
theory of liability, as clearly detailed in the FAC, was
that Defendant Vega “generat[ed] an involuntary and
false confession.” Id.

42a
Plaintiff’s PJI No. 19A makes no mention of
coercion and it would have permitted the jury to find
Defendant Vega liable per se under § 1983 merely for
obtaining Plaintiff’s confession in violation of
Miranda but without any showing of improper force
or duress. Plaintiff’s Motion (and PJI No. 19A) would
allow the mere failure to advise a suspect in
accordance with Miranda prior to questioning in a
custody situation to be actionable under § 1983,
provided that his statement is later used in a criminal
proceeding.4 See Motion at 9 (Plaintiff “was ‘in
custody,’ and entitled to Miranda admonitions. The
statement was used against [Plaintiff] in a criminal
case.
These facts establish Plaintiff’s FifthAmendment claim.”).
Plaintiff cites no authority for this proposition, as
the case he relies upon does not address a mere
technical Miranda violation but instead deals with a
coerced confession/fabrication of evidence situation.
See Hall v. City of Los Angeles, 697 F.3d 1059, 1068
(9th Cir. 2012). A review of relevant authorities
strongly suggests that § 1983 liability will not attach
to a technical violation of Miranda. As stated in the

4

It would be noted that, in certain situations, a statement
taken in violation of the Miranda requirements can lawfully be
admitted in a criminal case. See e.g. Chavez v. Martinez, 538
U.S. 760, 790 (2003) (“statements secured in violation of
Miranda are admissible in some instances.”); United States v.
Patane, 542 U.S. 630, 639 (2004) (“statements taken without
Miranda warnings (though not actually compelled) can be used
to impeach a defendant’s testimony at trial . . . , though the fruits
of actually compelled testimony cannot . . . . [citations omitted]”).

43a
plurality opinion in Chavez v. Martinez, 538 U.S. 760,
772 (2003)5:
[The officer’s] failure to read Miranda
warnings to [the defendant] did not violate
[the defendant’s] constitutional rights and
cannot be grounds for a § 1983 action. See
Connecticut v. Barrett, 479 U.S. 523, 528
(1987) (Miranda’s warning requirement is
“not itself required by the Fifth Amendment
. . . but is instead justified only by reference
to its prophylactic purpose”); [Michigan v.]
Tucker, 417 U.S. [433,] 444 [(1974)]
(Miranda’s safeguards “were not themselves
rights protected by the Constitution but
were instead measures to insure that the
right against compulsory self-incrimination
was protected”).
See also Arden v. Kastell, No. 10-cv-00436 NC, 2012
WL 12893958, at *5 n.4 (N.D. Cal. Sept. 28, 2012)
(“Violation of Miranda warnings, however, cannot be
grounds for a § 1983 action as a matter of law.”); see
c.f. Park v. Thompson, 851 F.3d 910, 926 (9th Cir.
2017) (noting that, in Chavez, “a plurality of the
Supreme Court said that an officer’s failure to read
5

The quoted portion of Justice Thomas’s plurality opinion
had the agreement of Justices Rehnquist, O’Connor and Scalia.
However, a majority of the other justices were in agreement with
the basic proposition. See concurrence in part and dissent in
part of Justice Kennedy: “I agree with Justice Thomas that
failure to give a Miranda warning does not, without more,
establish a completed violation when the unwarned
interrogation ensues.” 538 U.S. at 789. The remaining issue
(where the justices could not agree) was the extent to which the
scenario gave rise to the specter of a violation of the Selfincrimination Clause.

44a
Miranda warnings to a defendant before
interrogation violates only ‘judicially crafted
prophylactic rules’ and, for that reason, was not
actionable under Section 1983.”); United States v.
Patane, 542 U.S. 630, 641 (2004) (“a mere failure to
give Miranda warnings does not, by itself, violate a
suspect’s constitutional rights or even the Miranda
rule.”).
Given the above cited law, it was not error for the
Court to have refused to give Plaintiff’s PJI No. 19A.
2. Coerced Confession Instruction
Plaintiff’s PJI No. 19B stated:
Plaintiff contends that Defendant Carlos
Vega deprived him of rights guaranteed by
the Due Process Clause of the Fourteenth
Amendment
to
the
United
States
Constitution by coercing an involuntary
confession.
Plaintiff must prove by a preponderance of
the evidence that his will was overborne by
the circumstances surrounding the giving of
a confession.
The due process test takes into
consideration the totality of all the
surrounding circumstances, including both
the characteristics of the person being
questioned and the details of the
interrogation. These include factors such as
the length of the questioning, the use of fear
to break a suspect, and whether the police
advised the person being questioned of his
rights to remain silent and to have counsel
present during a custodial interrogation.

45a
The basic question is whether the confession
is the product of an essentially free and
unconstrained choice by its maker. If it is,
if he has willed to confess, it may be used
against him. If it is not, if his will has been
overborne and his capacity for selfdetermination critically impaired, the use of
his confession offends due process.
See Docket No. 143 at 3. The Court declined to give
this instruction and instead gave the jury the
mutually agreed upon Ninth Circuit Model Jury
Instruction No. 9.33: Particular Rights ˗ Fourteenth
Amendment ˗ Due Process ˗ Deliberate Fabrication of
Evidence as follows:
As previously explained, Plaintiff has the
burden of proving that the acts of the
Defendants Vega and Stangeland deprived
him of particular rights under the United
States Constitution.
The Fourteenth
Amendment
protects
against
being
subjected to criminal charges on the basis of
false evidence that was deliberately
fabricated by a defendant. In this case,
Plaintiff alleges the Defendants deprived
him of rights under the Fourteenth
Amendment to the Constitution when they
filed false reports stating that the alleged
victim identified Plaintiff as the perpetrator
and that Plaintiff confessed to the crime.
For Plaintiff to prevail on his claim of
deliberate fabrication of evidence, he must
prove at least one of the following elements
by a preponderance of the evidence:

46a
(1) Defendant Carlos Vega and/or Dennis
Stangeland deliberately fabricated evidence
that was used to criminally charge and
prosecute Plaintiff; or
(2) Defendant Vega used techniques that
were so coercive and abusive that he knew,
or was deliberately indifferent, that those
techniques would yield false information
that was used to criminally charge and
prosecute Plaintiff.
“Deliberate indifference” is the conscious or
reckless disregard of the consequences of
one’s acts or omissions.
If Plaintiff proves that a defendant
deliberately fabricated evidence that was
used to criminally charge and prosecute
him, then Plaintiff is not required to prove
that the Defendants knew Plaintiff was
innocent or was deliberately indifferent to
the Plaintiff’s innocence.
Not all inaccuracies in an investigative
report give rise to a constitutional claim.
Errors concerning trivial or unimportant
matters is insufficient.
Further, mere
carelessness
or
negligence
is
also
insufficient.
Officers are not obligated to further
investigate or accept a suspect’s versions of
the facts or claim of innocence if they
otherwise have reasonable suspicion to
detain or probable cause to arrest based on
other credible information known to them.
A mere mistake of fact or refusal to believe

47a
a suspect’s innocent explanation will not
automatically make an arrest illegal.
See Final Jury Instructions, Docket No. 181, at 7.
Plaintiff argues that the Court erred in refusing to
give his PJI No. 19B because “[w]hile the Court’s final
jury instructions informed the jury on how to evaluate
Plaintiff’s fabricated-reports claim, it failed to inform
the jury on Plaintiff’s distinct coerced-confession
claim.” Motion at 11. The Court finds that Plaintiff
has raised an interesting issue.
Following oral argument at the hearing on the
present motion and upon further reflection and
research, the Court concludes that it was error not to
have given a separate jury instruction that the use of
improper coercion to elicit information from a suspect
(where the information is later used in a criminal
case) is a violation of the Fifth Amendment and can
give rise to a claim under § 1983. In reaching that
conclusion, the Court examined the precise language
of the referenced amendments and the Ninth Circuit’s
decision in Hall, 697 F.3d at 1067-69.
The Fifth Amendment has five clauses referring to
concepts covering: (1) Grand Jury, (2) Double
Jeopardy, (3) Self-incrimination, (4) Due Process, and
(5) Takings without Just Compensation. As relates to
this case, the two germane clauses are the third and
fourth which provide respectively that: “No person . . .
shall be compelled in any criminal case to be a witness
against himself;” and “No person shall be . . . deprived
of life, liberty, or property, without due process of law
. . . .”
The relevant portion of the Fourteenth
Amendment only covers the application of due process
to the States and delineates that “nor shall any State

48a
deprive any person of life, liberty, or property, without
due process of law . . . .”
As discussed by the Ninth Circuit in Hall, “[u]sing
a coerced confession against the accused in a criminal
proceeding implicates [the] Fifth Amendment . . . .”
697 F.3d at 1068. While there is a Fourteenth
Amendment due process claim that arises when
government agents use “investigative techniques that
were so coercive and abusive that they knew or should
have known that those techniques would yield false
information” which is later employed to bring charges
against a defendant (id.), “[w]here a particular
Amendment provides an explicit textual source of
constitutional protection against a particular sort of
government behavior, that Amendment, not the more
generalized notion of substantive due process, must
be the guide for analyzing such a claim.” Id. (quoting
Albright v. Oliver, 510 U.S. 266, 273 (1994)). Thus, a
deliberate fabrication of evidence claim (even if it is
based on the use of coercive techniques to obtain the
evidence) is separate and distinct from a claim resting
solely on the improper application of coercion to
obtain a statement from a suspect. The former is
governed by Fourteenth Amendment’s due process
provision6 whereas the latter is controlled by the Fifth
Amendment’s Self-incrimination Clause. Id. (“Here,
6

In Hall, the Circuit explained that the Fourteenth
Amendment due process claim is based upon “. . . ‘a clearly
established constitutional due process right not to be subjected
to criminal charges on the basis of false evidence that was
deliberately fabricated by the government’ . . . . We derived this
right from the Supreme Court’s holding in Pyle v. Kansas, 317
U.S. 213, 216 (1942), that ‘the knowing use by the prosecution of
perjured testimony in order to secure a criminal conviction
violates the Constitution. [citations omitted].” 697 F.3d at 1068.

49a
Hall claims that the detectives coerced his confession
and then used that confession to secure his conviction.
Thus, the Fifth Amendment is the explicit
constitutional provision that governs Hall’s claim.”).7
Additionally, the Circuit in Hall briefly surveyed
its caselaw in the area of deliberate falsification of
evidence claims, and concluded those cases which had
7

The facts in Hall are illustrative. In Hall, the plaintiff
raised his § 1983 coerced confession claim solely under the
Fourteenth Amendment. The district court held that Fifth
Amendment’s self-incrimination clause was the appropriate
constitutional basis for such a claim rather than the “more
generalized substantive due process provision of the Fourteenth
Amendment.” See Hall v. City of Los Angeles, 710 F. Supp. 2d
984, 992-93 (C.D. Cal. 2010). Noting the plaintiff’s failure to
allege any claim under the Fifth Amendment, it granted
summary judgment as to the Fourteenth Amendment-based
§ 1983 claim stating that: “Plaintiff cannot remedy his
inadequate pleading now by repackaging a Fifth Amendment
coerced interrogation claim as one for deliberate fabrication of
evidence arising under the Fourteenth Amendment.” Id. at 993.
The court went on to observe that, even if plaintiff’s claim were
cognizable under the Fourteenth Amendment, his case would
still be unsuccessful because: (1) under Ninth Circuit law, the
standard for showing a Fourteenth Amendment substantive due
process violation in this context is quite demanding (“a
Fourteenth Amendment claim of this type is cognizable only if
the alleged abuse of power ‘shocks the conscience’ and ‘violates
the decencies of civilized conduct,’” citing to Stoot v. City of
Everett, 582 F.3d 910, 928 (9th Cir. 2009)); (2) the standard
required more than showing coercion (i.e. it requires that the
interrogation techniques be so coercive and abusive that the
officers knew or should have known that those techniques would
yield false information; and (3) plaintiff’s allegations as to
defendant officers’ improper conduct (i.e. their threat to remove
his protective status as an informant − whereby he would be
subjected to possible violence from other inmates, his being
interrogated for several hours, and the denial of his request to
speak with his attorney) was insufficient. Id. at 995-97.

50a
held that the government agents − who had used
abusive or coercive techniques to obtain such evidence
− had done so as to third party witnesses and not as
to the suspects/defendants themselves. Id. at 1069.
It then went on to state that “Hall’s coerced confession
claim falls within the explicit language of the Fifth
Amendment and does not arise as a subset of the
substantive due process right set forth in Devereaux
prong (2).”8
In finding the aforesaid error on its part, the Court
notes that it did not err in rejecting Plaintiff’s PJI No.
19B as worded. First, PJI No. 19B makes the same
mistake the Court made which was to view the
coerced statement issue solely as within ambit of the
Fourteenth Amendment due process clause, rather
than the Fifth Amendment self-incrimination clause.9
8

The “Devereaux prong (2)” is a reference to the Circuit’s
holding in Devereaux v. Abbey, 263 F.3d 1070, 1076 (9th Cir.
2001) (en banc), which held that defendants enjoy a
constitutional right to be free from prosecution based on
deliberately fabricated evidence. See Hall, 697 F.3d at 1066. In
Devereaux, the Circuit stated that a plaintiff can establish a
deliberate fabrication of evidence claim by providing evidence
that either: “(1) [the government employee] Defendants
continued their investigation of [the suspect] despite the fact
that they knew or should have known that he was innocent; or
(2) Defendants used investigative techniques that were so
coercive and abusive that they knew or should have known that
those techniques would yield false information.” 263 F.3d at
1076.
9

PJI No. 19B starts out by stating that: “Plaintiff
contends that Defendant Carlos Vega deprived him of rights
guaranteed by the Due Process Clause of the Fourteenth
Amendment to the United States Constitution by coercing an
involuntary confession.” Additionally, as argued by Plaintiff,
“[t]he Court’s instructions do not address Plaintiff’s FourteenthAmendment coerced-confession claim.
Plaintiff presented

51a
Second, PJI No. 19B’s focus on the eliciting of a
confession from him actually is too restrictive in the
present context as to the scope of the Fifth
Amendment’s constitutional protection which covers
the use of personal compulsion to extract any evidence
from the suspect (not merely a false confession).10 See
generally Couch v. United States, 409 U.S. 322, 32728 (1973).11 Third, the Court would not find that PJI
No. 19B is entirely a correct statement of the law. For
example, it states that: “The basic question is
whether the confession is the product of an essentially
evidence to support finding that his confession was involuntary.
There is binding Ninth Circuit precedent to support Plaintiff’s
theory. The jury was not given law to make that determination.”
See Motion at 12.
10 Actually, one might have been able to construct a correct

jury instruction by taking the correct portions of PJI No. 19A and
No. 19B and leaving out the references that the constitutional
violation was based upon the Fourteenth Amendment or the
Supreme Court’s decision in Miranda.

11 In Murphy v. Waterfront Comm'n, 378 U.S. 52, 55 (1964),

the Supreme Court articulated the policies and purposes of the
Self-incrimination Clause as follows:
Our unwillingness to subject those suspected of crime
to the cruel trilemma of self-accusation, perjury or
contempt; our preference for an accusatorial rather
than an inquisitorial system of criminal justice; our
fear that self-incriminating statements will be elicited
by inhumane treatment and abuses; our sense of fair
play which dictates “a fair state-individual balance by
requiring the government . . . in its contest with the
individual to shoulder the entire load,” . . . our respect
for the inviolability of the human personality and of the
right of each individual “to a private enclave where he
may lead a private life,” our distrust of self-deprecatory
statements; and our realization that the privilege,
while sometimes “a shelter to the guilty,” is often “a
protection to the innocent.” [Citations omitted.]

52a
free and unconstrained choice by its maker.” That
statement is incorrect − or at least inaccurate − in the
Fifth Amendment context herein. Finally, as to the
issue of coerced confessions for purposes of the
Fourteenth Amendment, the Court had already
approved (and gave) the Ninth Circuit’s Model Jury
Instruction No. 9.33, which adequately covered that
topic.
Having concluded that the failure to give a
separate instruction on Plaintiff’s Fifth Amendment’s
Self-incrimination Clause claim was in error, the
Court next considers whether that mistake was
prejudicial. It concludes that it was.
As stated in Dang, the Ninth Circuit has
emphasized that:
We have stressed that “jury instructions
must fairly and adequately cover the issues
presented, must correctly state the law, and
must not be misleading.” . . . . Further, “[a]
party is entitled to an instruction about his
or her theory of the case if it is supported by
law and has foundation in the evidence” . . . .
We also have noted that the “use of a model
jury instruction does not preclude a finding
of error” . . . . If, however, the error in the
jury instruction is harmless, it does not
warrant reversal . . . . “In evaluating jury
instructions, prejudicial error results when,
looking to the instructions as a whole, the
substance of the applicable law was [not]
fairly and correctly covered.”
422 F.3d at 804-05 (citations omitted). As noted
above, in the FAC, Plaintiff does indicate that his first
claim for relief against Defendant Vega is pursuant to

53a
42 U.S.C. § 1983 for a violation of his rights under the
Fourth, Fifth and Fourteenth Amendments. See
Docket No. 37 at 14 of 17. In particular, it is charged
that: “Defendant Vega subjected Plaintiff, while in
custody for Fifth-Amendment purposes, to a coercive
and illegal interrogation, in violation of Miranda,
generating an involuntary and false confession, which
caused Plaintiff to be prosecuted for a sexual assault
that he did not commit, an independent violation of
the Fifth Amendment . . . .” Id.
Looking at the instructions as a whole, Plaintiff’s
Fifth Amendment Self-incrimination claim was not
fairly and correctly covered by the instructions which
the Court gave to the jury. Although his Fourteenth
Amendment claim was adequately dealt with in the
Ninth Circuit’s Model Instruction No. 9.33, the
criteria for a finding of a Fourteenth Amendment due
process violation are not the same as for a Fifth
Amendment Self-incrimination claim. Indeed, it has
been held that “due process violations under the
Fourteenth Amendment occur only when official
conduct ‘shocks the conscience’. . . .” See, e.g., Gantt
v. City of Los Angeles, 717 F.3d 702, 707 (9th Cir.
2013). As held by the district court in the Hall case,
mere coercion is not a sufficient basis for a finding of
a substantive due process violation under the
Fourteenth Amendment. See 710 F. Supp. 2d at 99596. The tactics used must “shock the conscience” such
that the interrogation itself constitutes a due process
violation.12 Id. Further, as held by the Ninth Circuit
12 As stated in Stoot v. City of Everett, 582 F.3d 910, 928
(9th Cir. 2009):
The standard for showing a Fourteenth Amendment
substantive due process violation, however, is quite

54a
in Hall, “Hall’s coerced confession claim falls within
the explicit language of the Fifth Amendment and
does not arise as a subset of the substantive due
process right set forth in Devereaux prong (2).” 697
F.3d at 1069.
In sum, the Court’s failure to include a coerced
confession jury instruction under the Fifth
Amendment separate and apart from the instruction
as to the deliberate fabrication of false evidence was
erroneous and prejudicial. Hence, it would grant a
new trial on that basis which would only cover the
Fifth Amendment claim against Defendant Vega.
C. Defense Counsel’s Misconduct
Finally, Plaintiff argues that “[d]efense counsel
made myriad statements during trial that were
improper, prejudicial, and fundamentally unfair.
These statements permeated the trial, prejudiced the
Plaintiff and affected the fairness and integrity of the
proceedings.”
See Motion at 13.
The specific
demanding. Chavez refers to “police torture or other
abuse” as actionable under the Fourteenth
Amendment, 538 U.S. at 773, and Justice Kennedy’s
opinion states that “a constitutional right is traduced
the moment torture or its close equivalents are brought
to bear.” Id. at 789. Such language is consistent with
the general rule that “only the most egregious official
conduct can be said to be ‘arbitrary in the
constitutional sense’” and therefore a violation of
substantive due process. County of Sacramento v.
Lewis, 523 U.S. 833, 846 (1998) (quoting Collins v.
Harker Heights, 503 U.S. 115, 129 (1992)). More
specifically, a Fourteenth Amendment claim of this
type is cognizable only if the alleged abuse of power
“shocks the conscience” and “violates the decencies of
civilized conduct.” Id. at 846 (internal quotations
omitted).

55a
statements cited by Plaintiff are contained in defense
counsel’s opening statement and closing argument.
The Court finds that defense counsel’s opening
statement (until it was cut-off by the Court) was rife
with improper comments, such as:
Defense Counsel: The evidence will show
that in all of [Sergeant Vega’s] years with
the department, this is his first lawsuit
ever.
Plaintiff’s Counsel: Objection, Your Honor.
The Court: I will sustain the objection.
Plaintiff’s Counsel: Move to strike.
The Court: I don’t have to strike because I
have already instructed the jury that
opening statement is not evidence.
Defense Counsel: Thank you. You can have
a seat, Sergeant Vega. Now, Sergeant
Stangeland has been with the department
20 years. He is a devout Christian, and has
never had case like this claimed against
him.
The Court: Counsel, let me have you on
sidebar.
(Sidebar begins.)
Defense Counsel:
introduction

I’m done with the

The Court: You know that that is improper.
And if you don’t, you are crazy. And now I
have to decide whether or not the Plaintiff
is going to ask to go through all of the prior
complaints against him, things of that sort.

56a
Plaintiff’s Counsel:
There was an
instruction not to answer when I asked
about it.
The Court: No, no. The problem is that he
can’t get away with that type of stuff. I
mean, if you want to, I will give the jury an
instruction because he can’t − you know, I
would not have allowed past conduct to be
offered in this case anyway. So, this is not
proper. You should know that.
Defense Counsel: All right.
The Court: So if the plaintiff thinks of
something, a pound of flesh you want to
extract, let me know, and I will consider it.
(Sidebar ends.)
Defs.’ Opening at 88:21-90:5. Moments later, defense
counsel stated that “the evidence will show that this
case isn’t about justice or race. It’s about capitalizing
off an acquittal and about credibility.” Id. at 90:1921. At that point, the Court had enough and provided
defense counsel one minute to finish up opening
statement because, as the Court described it in the
presence of the jury, defense counsel had “squandered
the opportunity.” Id. at 90:23-24. Later, outside the
presence of the jury, defense counsel asked the Court
to be permitted to complete his opening statement.
The Court denied the request stating: “The answer is
no. You are not going to be allowed to have an
opportunity to complete your opening statement,
because again, if you do it . . . if you are given an
opportunity and you interject things that are clearly
in this Court’s opinion improper, this is the
consequence.” Id. at 160:23-161:2.

57a
In addition to the defense counsel’s opening
statement, Plaintiff points to many statements made
during defense counsel’s closing argument. As a
preliminary matter, the Court notes that Plaintiff
failed to object to most of these statements. See, e.g.,
Defs.’ Closing at 6:6-11 (plaintiff’s counsel did not
object when defense counsel asked the jury “[i]f there
was a shred of evidence that Sergeant Vega called Mr.
Tekoh a jungle N-word, do you think we would be
here? I didn’t become the first attorney in my family
to defend alleged crooked cops.”13); but see, e.g.,
Motion at 16 (arguing that this statement amounted
to improper vouching).
“A party will not be allowed to speculate with the
court by letting error go without any comment and
then seek a new trial on the basis of the error if the
outcome of the case is unfavorable.” Federal Practice
and Procedure § 2472. “This principle has been
employed in many cases and applies to . . . the content
of various arguments of counsel for either side . . . .”
Id. Plaintiff contends that his counsel did not object
because he “was cognizant of the rule that ‘constant
objections are certainly not required, as they could
antagonize the jury.’” See Motion at 23 (citing Kehr,
736 F.2d at 1286). Plaintiff gives unfairly short shrift
to Kehr. There, the Ninth Circuit held that the
district court did not abuse its discretion in denying a
motion for a new trial, stating that “while constant
objections are certainly not required, as they could
antagonize the jury, we note that opposing counsel
here never objected during the closing argument or
moved for a mistrial.” Id. (internal citation omitted).
Thus, rather than standing for the proposition that
13 It is noted that defense counsel is Black.

58a
counsel may purposefully fail to object during
argument and then seek a new trial after an
unfavorable verdict, Kehr lends supports the general
principle that a party must timely object to improper
argument or live with the consequences. Accordingly,
the Court will not consider statements made by
defense counsel that elicited no objection in
evaluating Plaintiff’s arguments here. The Court is
thus left with two statements made by defense
counsel in the closing argument that elicited an
objection at trial and are now addressed in the
Motion.
During his closing argument, defense counsel
sought to have the jurors consider the case from the
perspective of the alleged victim of Plaintiff’s sexual
assault: “[i]f you were to tell one of these marshals
that a barista downstairs around lunch time sexually
assaulted you, male, black, mid 20’s, thin build. And
they go find a male, black, mid 20’s, thin build barista
around 12 [sic] fitting the description and they arrest
him and they get sued just because he beat the case
. . . .” Defs.’ Closing at 21:13-18. Plaintiff objected
and the Court sustained the objection and
admonished defense counsel that the argument was
improper. See id. at 21:19-22. Notwithstanding the
admonishment, defense counsel returned to the
theme at the end of his closing, pleading with the jury
not to disappoint Plaintiff’s alleged victim: when she
“calls me and asks me what happened, don’t make me
. . . .” Id. at 44:17-18. Plaintiff objected and the Court
sustained the objection and once again admonished
defense counsel that the argument was improper. See
id. at 44:19-21.
The Court would not find that defense counsel’s
short opening statement, alone or coupled with the

59a
two specified improper arguments during closing,
prejudiced Plaintiff to the point that a new trial is
warranted. First, the Court sustained Plaintiff’s
objections and admonished defense counsel
repeatedly in the presence of the jury. To the extent
that either side was prejudiced by defense counsel’s
conduct, the Court would find it more likely that the
Defendants were harmed as the Court was not coy
about its view of the improper portions of defense
counsel’s opening statement or closing argument in
front of the jury. Beyond that, however, the Court
notes that Plaintiff’s Motion uses four pages to
describe the prejudicial effect of defense counsel’s
conduct. See Motion at 21-24. In those four pages,
Plaintiff makes no mention of the two arguments
defense counsel made during closing that the Court
considers here. As for defense counsel’s short opening
statement, Plaintiff argues only that by suggesting
that neither Sergeant Vega nor Stangeland had ever
been alleged to commit similar misconduct, Plaintiff
was left in an untenable position of being unable to
rebut the inference. See id. at 22-23. However, at side
bar, the Court unambiguously offered Plaintiff relief:
“if the plaintiff thinks of something, a pound of flesh
you want to extract, let me know, and I will consider
it.” Defs.’ Opening at 90:2-4. Plaintiff did not seek a
mistrial, an instruction, or any other remedy,
draconian or otherwise, at trial. The Court provided
an opportunity but the time for that is now gone − the
Court will not permit Plaintiff to seek a remedy after
an unfavorable verdict has been rendered.
Additionally, the jury was specifically instructed at
the start of trial and again at the close of the
evidentiary portion of the trial (before closing
arguments) that:

60a
Arguments and statements by lawyers are
not evidence.
The lawyers are not
witnesses. What they will say in their
opening
statements,
their
closing
arguments, and at other times is intended to
help you interpret the evidence, but it is not
evidence.
See Docket No. 180 at 3 of 6 and No. 181 at 3 of 12. A
jury is presumed to follow the instructions which are
given. Blueford v. Arkansas, 566 U.S. 599, 606 (2012).
Finally, the Court is mindful that a new trial is
warranted based on counsel’s misconduct only “where
the flavor of misconduct . . . sufficiently permeates[s]
an entire proceeding to provide conviction that the
jury was influenced by passion and prejudice in
reaching its verdict.” Settlegoode, 371 F.3d at 516-17.
Considering the evidence presented in this case, the
Court is not convinced that the jury was influenced by
passion and prejudice. To the contrary, the Court
would find that the jury found in Defendants’ favor
despite defense counsel’s misconduct, not because of
it.14
14 The Court notes that, after the jury verdict was returned

and the jury had been excused – and in response to an inquiry
by defense counsel as to his trial performance, the Court did
inform him that “he had made a couple of statements in his
closing argument that, if they had been said by a prosecutor to a
jury in a closing in a criminal case, would have been grounds for
a defendant’s seeking to overturn a jury’s return of a guilty
verdict on appeal.” See Docket No. 192 at 3 of 4. The reason for
that viewpoint is that a prosecutor’s statement to the jury
“carries with it the imprimatur of the Government and may
induce the jury to trust the Government’s judgment rather than
its own view of the evidence.” See United States v. Young, 470
U.S. 1, 18-19 (1985). Thus, a prosecutor may not make a
statement that imports the power of the government behind a

61a
IV. Defendants’ Application to Tax Costs
Having determined that a new trial is warranted,
the Court will not consider Defendants’ application to
tax costs against Plaintiff at this point. See Docket
No. 196.
V. Conclusion
Based on the foregoing discussion, this Court
would GRANT the Motion for a New Trial but only as
to Plaintiff’s Fifth Amendment claim and only as to
Defendant Vega.

witness (even if it was an inference based on the evidence) – see
United Sates v. Weatherspoon, 410 F.3d 1142, 1147 (9th Cir.
2005). However, here, defense counsel was not a prosecutor.

62a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA –
WESTERN DIVISION
HONORABLE GEORGE WU
UNITED STATES DISTRICT JUDGE PRESIDING
Terence Tekoh,
PLAINTIFF,
VS.
County of Los Angeles, et
al.,
DEFENDANT,

)
)
)
NO. CV 16-7297
) GW
)
)
)
)
)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
LOS ANGELES, CALIFORNIA
THURSDAY, SEPTEMBER 20, 2018
***
[12] [MR. BURTON:] And it is not what the
officer kept saying on the stand at the last trial, which
is handcuffs. In fact, in United States versus Kim,
where they did find her to be in custody, she was not
handcuffed.
THE COURT: Again, I am not saying that I would
not give that type of instruction because I do think
that -- you know, again, whether or not he was
Mirandized I think is a relevant factor.
Conversely, however, the fact that he wasn’t
Mirandized -- and that fact is not disputed in this case

63a
-- but if the situation did not call for a Miranda
warning, then even though the jury can consider that
as a factor, obviously that won’t be much of a factor
because it wasn’t required at that point in time.
But if it is required at that point in time and if
it wasn’t given, that fact does not establish a coerced
confession.
And I would include that in the
instruction, but it is a factor that can be considered by
the jury insofar as whether or not a confession was
coerced.
MR. BURTON: We differ with the Court on
whether the failure to Mirandize when it was
required would establish our claim by itself. But we
understand the Court’s position on that.
THE COURT: Well, let me put it this way. I [13]
understand that the plaintiff disagrees, but you are
also disagreeing with a line of cases, including a
plurality opinion from the supreme court and the
Ninth Circuit cases, which say a violation of Miranda
in and of itself does not give rise to a 1983 action.
MR. BURTON: Well, just to answer that point,
those cases, Chavez versus Martinez and its progeny,
did not find a Fifth Amendment violation for failure
to Mirandize because the statement was not used in a
subsequent criminal case.
THE COURT: That is not true. There are cases
that say it does not give rise to it period.
MR. BURTON: I read Stued(Phon.) and I read
Crowe differently than the Court. I want to move the
discussion forward. I just did not want to -THE COURT: Let’s put it this way. That matter
has already been resolved for all intents and purposes
here because I made a ruling. I do understand the

64a
plaintiff is reserving its objection to that ruling. So
that is not a problem.
***

65a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA –
WESTERN DIVISION
HONORABLE GEORGE WU
UNITED STATES DISTRICT JUDGE PRESIDING
Terence Tekoh,
PLAINTIFF,
VS.
County of Los Angeles, et
al.,
DEFENDANT,

)
)
)
NO. CV 16-7297
) GW
)
)
)
)
)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
LOS ANGELES, CALIFORNIA
MONDAY, SEPTEMBER 24, 2018
***
[12]
***
MR. KIZZIE: And just for the record, on factor No.
6 regarding if warnings under the Miranda decision
were required, just for the record, as indicated in the
supplemental brief as well as the supplemental
instructions offered, defendant objects to any
instructions discussing or weighing factors of
Miranda, for the reasons stated therein. But aside
from that, your Honor, nothing else on page 6 from
defendant.

66a
MR. BURTON: This might be a good time for us
also to reiterate an objection for the record on this
exact point.
We tendered an instruction with a note that we
know the Court has already ruled and will not give it
that we think that if he was in custody, he was not
Mirandized, that that constitutes a sufficient
violation of the Fifth Amendment to obtain damages
in this case.
And so I am just reiterating that for the record.
THE COURT: Well, as I indicated, I agree. I
already ruled that a pure failure to Mirandize will not
give rise to a 1983 action, for reasons I have already
stated.
***

67a
RICKEY IVIE (S.B.N.: 76864)
rivie@imwlaw.com
ANTONIO K. KIZZIE (S.B.N.: 279719)
akizzie@imwlaw.com
IVIE, McNEILL & WYATT
444 S. Flower Street, 18th Floor
Los Angeles, CA 90017-2919
(213) 489-0028/(213) 489-0552 FAX
Attorneys for Defendant SGT. CARLOS VEGA
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
TERENCE B.
TEKOH,
Plaintiff
vs.
SGT. CARLOS VEGA,
Defendants

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.: CV 16-7297GW(SKx)
[Hon. George H. Wu,
Courtroom 9D]
JUDGMENT
Complaint Filed:
October 25, 2016
FSC Date:
September 24, 2018
Trial Date:
September 25, 2018
Closing Date:
October 2, 2018

1. This case came on regularly for trial on September
25, 2018 to October 2, 2018 in Department 9D of this
Court, the Honorable George H. Wu presiding; the
Plaintiff appearing by Attorneys John Burton and

68a
Matthew Sahak from LAW OFFICE OF JOHN
BURTON and Maria Cavalluzzi of CAVALLUZZI &
CAVALLUZZI, and Defendants appearing by
Attorneys Rickey Ivie and Antonio K. Kizzie from
IVIE, MCNEILL & WYATT, APLC.
2. A jury of 8 persons was regularly impaneled and
placed under oath. Witnesses were placed under oath
and testified.
After hearing the evidence and
arguments of counsel, the jury was duly instructed by
the Court and the cause was submitted to the jury
with directions to return a verdict on special issues.
The jury deliberated and thereafter returned into
Court with its special verdict consisting of the special
issues submitted to the jury, each member was polled
as to their vote, and the answers given thereto by the
jury, which said verdict was in words and figures as
follows, to wit:
“WE, THE JURY in the above-entitled action,
unanimously find as follows on the questions
submitted to us:
QUESTION # 1
Did Plaintiff prove by a preponderance of the
evidence that Defendant Carlos Vega violated
Plaintiff’s constitutional rights by unlawfully coercing
an involuntary confession from him that was later
used against him in a criminal case?
Answer: Yes_____ No X
If you answered “YES” to Question # 1, please
answer Question # 2. If you answered “NO,” STOP
here, answer no further questions, have your
presiding juror date and sign the verdict and inform
the bailiff that you have reached a decision.

69a
QUESTION # 2
Did Plaintiff prove by a preponderance of the
evidence that Defendant Carlos Vega’s violation of
Plaintiff’s constitutional rights by unlawfully coercing
an involuntary confession from him that was later
used against him in a criminal trial was the moving
force (a substantial factor) in causing the injuries now
claimed by Plaintiff?
Answer: Yes_____ No_____
If you answered “YES” to Question # 2, please
answer Question # 3. If you answered “NO,” STOP
here, answer no further questions, have your
presiding juror date and sign the verdict and inform
the bailiff that you have reached a decision.
QUESTION #3
What Plaintiff’s damages, if any?
1) Past economic losses such as lost earning, not
including legal and bail expenses:
$____________________
2) Legal and Bail Expenses:
$____________________
3) Future economic losses such as lost earnings
and lost earning capacity:
$____________________
4) Past and future non-economic losses such as
pain and mental suffering, loss of reputation:
$____________________
Please answer Question # 4.
QUESTION NO. 4
Has Plaintiff proven by a preponderance of the
evidence that Defendant Vega acted with malice,
oppression or reckless disregard of Plaintiff’s rights?

70a
Answer: YES_______ NO_______
If your answer to Question # 4 is “Yes,” please go
to Question # 5. If your answer is “No,” please STOP
here, answer no further questions, have your
presiding juror date and sign the verdict and inform
the bailiff that you have reached a decision.
QUESTION # 5:
What is the total amount of punitive damages, if
any, that you award to Plaintiff against Defendant
Vega?
$____________________
It appearing by reason of said special verdict that:
Defendant SGT. CARLOS VEGA is entitled to
judgment against the plaintiff TERENCE B.
TEKOH.
Now, therefore, it is ORDERED, ADJUDGED,
AND DECREED that said Plaintiff TERENCE B.
TEKOH shall recover nothing by reason of the
complaint, and that defendants shall recover costs
from said plaintiff TERENCE B. TEKOH pursuant
to Federal Rule of Civil Procedure 54(d)(1). The cost
bill will be submitted directly to this Court for its
review and determination.
Dated: October 5, 2018

/s/ George H. Wu
GEORGE H. WU,
UNITED
STATES
DISTRICT JUDGE

71a
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
Terence B. TEKOH, Plaintiff-Appellant,
v.
COUNTY OF LOS ANGELES;
Dennis Stangeland, Sergeant; Carlos Vega,
Deputy, Defendants-Appellees,
and
Los Angeles County Sheriff's Department;
Does, 1 to 10, Defendants.
No. 18-56414
Filed June 3, 2021
997 F.3d 1260
Before: KIM MCLANE WARDLAW, MARY H.
MURGUIA, and Eric D. Miller, Circuit Judges.
Order;
Concurrence by Judge MILLER;
Dissent by Judge BUMATAY
ORDER
Judges Wardlaw, Murguia, and Miller have voted
to deny the petition for rehearing en banc. The full
court was advised of the petition for rehearing en
banc. A judge requested a vote on whether to rehear
the matter en banc. The matter failed to receive a
majority of the votes of the nonrecused active judges
in favor of en banc consideration. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED. A
concurrence in the denial by Judge Miller and a
dissent from the denial by Judge Bumatay are filed

72a
concurrently with this order. No further petitions for
rehearing or rehearing en banc will be entertained.
Judge Collins did not participate in the
consideration of the petition for rehearing en banc.
IT IS SO ORDERED.
MILLER, Circuit Judge, with whom WARDLAW
and MURGUIA, Circuit Judges, join, concurring in
the denial of rehearing en banc:
The issue here is whether the right guaranteed by
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16
L.Ed.2d 694 (1966), is among the “rights, privileges,
or immunities secured by the Constitution and laws,”
so that 42 U.S.C. § 1983 provides a remedy when the
prosecution introduces a defendant’s un-Mirandized
statement in its case in chief at his criminal trial. The
Supreme Court’s cases—most importantly, its
reaffirmation of Miranda in Dickerson v. United
States, 530 U.S. 428, 120 S.Ct. 2326, 147 L.Ed.2d 405
(2000)—make clear that the answer is yes.
Today’s dissenters invoke the history of the Fifth
Amendment in arguing that the answer should be no.
They also find support for their position in Supreme
Court cases that use language that is arguably in
tension with the holding of Dickerson. But even if we
were to sit en banc, we would remain judges of a
“[t]ribunal[ ] inferior to the [S]upreme Court.” U.S.
Const. art. I, § 8, cl. 9. As such, we lack authority to
resolve contradictions in the Supreme Court’s
precedents. To the contrary, we have repeatedly been
admonished that “[i]f a precedent of [the Supreme]
Court has direct application in a case, yet appears to
rest on reasons rejected in some other line of
decisions, the Court of Appeals should follow the case
which directly controls.” Rodriguez de Quijas v.

73a
Shearson/Am. Express, Inc., 490 U.S. 477, 484, 109
S.Ct. 1917, 104 L.Ed.2d 526 (1989); accord Tenet v.
Doe, 544 U.S. 1, 10–11, 125 S.Ct. 1230, 161 L.Ed.2d
82 (2005); State Oil Co. v. Khan, 522 U.S. 3, 20, 118
S.Ct. 275, 139 L.Ed.2d 199 (1997).
For more than 50 years, there has been a robust
debate about the conceptual underpinnings of
Miranda. It is neither necessary nor appropriate for
us to try to resolve that debate. In particular, the
“text and history of the Fifth Amendment” (Dissent at
1265–66) and the “long history of the common law
right” that preceded it (Dissent at 1269) are irrelevant
to the question before us. That is not to deny that text
and history are important to constitutional
interpretation—they surely are. It is merely to
recognize that the Supreme Court has already done
the necessary constitutional interpretation. Like it or
not, Miranda was not an originalist decision. That is
one of the reasons why Justice Scalia criticized it—in
a phrase echoed by today’s dissenters—as “a
milestone of judicial overreaching.” Dickerson, 530
U.S. at 465, 120 S.Ct. 2326 (Scalia, J., dissenting); cf.
Dissent at 1264–66. But we are not dissenting
Supreme Court Justices. As individuals, we are free
to criticize Miranda, but as a court, our task is simply
to interpret and apply it.
It is true that the Supreme Court has described
Miranda as a “prophylactic” rule, and that the
prophylactic nature of Miranda has been important
to many of the Court’s decisions narrowing Miranda’s
scope. For example, the Court has held that a
statement obtained in violation of Miranda may be
introduced for impeachment purposes, Oregon v.
Hass, 420 U.S. 714, 95 S.Ct. 1215, 43 L.Ed.2d 570
(1975); that there is a “public safety” exception to the

74a
warning requirement, New York v. Quarles, 467 U.S.
649, 104 S.Ct. 2626, 81 L.Ed.2d 550 (1984); and that
Miranda does not bar the introduction of a postwarning confession obtained as the fruit of an earlier
un-Mirandized statement, Oregon v. Elstad, 470 U.S.
298, 105 S.Ct. 1285, 84 L.Ed.2d 222 (1985).
Surveying those decisions in his Dickerson dissent,
Justice Scalia argued that “it is simply no longer
possible for the Court to conclude . . . that a violation
of Miranda’s rules is a violation of the Constitution.”
530 U.S. at 454, 120 S.Ct. 2326. But as he went on to
say, “that is what is required before the Court may
disregard a law of Congress governing the
admissibility of evidence in federal court”—which is
precisely what the Court did. Id.
Justice Scalia’s arguments in Dickerson highlight
a tension in the Court’s jurisprudence. As today’s
dissent demonstrates, one can begin with the cases
treating Miranda as a prophylactic rule and reason to
the conclusion that the doctrine must not be required
by the Constitution. But if that were so, then
Congress would be able to alter it, and Dickerson
would have come out the other way. The dissenters
evidently agree with Justice Scalia’s reasoning, and
some of us, or at least one of us, find it compelling as
well, but it is not up to this court to resolve the tension
he identified. Instead, we must “follow the case which
directly controls.” Rodriguez de Quijas, 490 U.S. at
484, 109 S.Ct. 1917. Here, that case is Dickerson,
which proves that Miranda announced a
constitutional rule. We know that not just because of
what the Court said—”Miranda announced a
constitutional rule,” 530 U.S. at 444, 120 S.Ct. 2326—
but because of what it did: strike down an Act of
Congress purporting to abolish Miranda. If Miranda

75a
is not “secured by the Constitution,” 42 U.S.C. § 1983,
then why is Congress not allowed to dispense with it?
If further proof were needed, we supply it every
time we review a Miranda claim in a habeas challenge
to a state conviction. See Withrow v. Williams, 507
U.S. 680, 113 S.Ct. 1745, 123 L.Ed.2d 407 (1993). In
language strikingly similar to that of section 1983, the
habeas statute makes relief available to state
prisoners only if they are in custody “in violation of
the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). No one thinks Miranda
comes from a treaty, so a Miranda violation must be
a “violation of the Constitution or laws.” The Miranda
right, therefore, must be one of those rights “secured
by the Constitution and laws.” 42 U.S.C. § 1983.
It will not do to say that Miranda is merely a
“rule,” as if that were different from a “right,”
“privilege,” or “immunity.” To be sure, the Supreme
Court has held that section 1983 is not available to a
plaintiff who complains of the violation of a statute
that creates abstract interests but not “individually
enforceable private rights.” Gonzaga Univ. v. Doe,
536 U.S. 273, 283, 290, 122 S.Ct. 2268, 153 L.Ed.2d
309 (2002). Those cases do not apply here because
Miranda indisputably creates individual legal rights
that are judicially enforceable. (Any prosecutor who
doubts this can try to introduce an un-Mirandized
confession and then watch what happens.) The
Supreme Court observed in Withrow that Miranda
“differs from” the Fourth Amendment exclusionary
rule precisely because that rule, unlike Miranda, “is
not a personal constitutional right.” 507 U.S. at 691,
113 S.Ct. 1745 (quoting Stone v. Powell, 428 U.S. 465,
486, 96 S.Ct. 3037, 49 L.Ed.2d 1067 (1976)). Miranda
therefore fits comfortably within the ordinary

76a
understanding of a “right.” See id. (“ ‘Prophylactic’
though it may be, . . . Miranda safeguards ‘a
fundamental trial right.’”
(emphasis omitted)
(quoting United States v. Verdugo-Urquidez, 494 U.S.
259, 264, 110 S.Ct. 1056, 108 L.Ed.2d 222 (1990))).
The Supreme Court’s cases since Dickerson do not
alter this analysis. Applying the rule of Marks v.
United States, 430 U.S. 188, 97 S.Ct. 990, 51 L.Ed.2d
260 (1977), to the fractured decisions in Chavez v.
Martinez, 538 U.S. 760, 123 S.Ct. 1994, 155 L.Ed.2d
984 (2003), and United States v. Patane, 542 U.S. 630,
124 S.Ct. 2620, 159 L.Ed.2d 667 (2004), yields no
holding that unsettles Dickerson. While the decisions
might be taken to have “persuasive force” (Dissent at
1271–72) as indications of how to count votes and
predict how the Supreme Court will someday rule,
making such predictions is the role of academics and
journalists, not circuit judges. Our duty is to follow
what the Supreme Court has done, not forecast what
it might do.
Finally, even if everything I have said so far is
wrong, it would not mean that this case “involves a
question of exceptional importance” warranting
rehearing en banc. Fed. R. App. P. 35(a)(2). The
circuit split is not nearly as lopsided as the dissenters
assert. They make it appear so only by counting three
circuits’ worth of unpublished decisions and, for good
measure, throwing in decisions that preceded
Dickerson or that did not involve the introduction of
un-Mirandized statements at trial but instead
involved only the failure to give warnings—an issue
the panel expressly declined to address. See Tekoh v.
County of Los Angeles, 985 F.3d 713, 724 (9th Cir.
2021) (“We do not hold that taking an un-Mirandized
statement always gives rise to a § 1983 action. We

77a
hold only that where government officials introduce
an un-Mirandized statement to prove a criminal
charge at a criminal trial against a defendant, a
§ 1983 claim may lie against the officer who took the
statement.”); see also Chavez, 538 U.S. at 769, 123
S.Ct. 1994 (plurality opinion); Elstad, 470 U.S. at 306
n.1, 105 S.Ct. 1285. As the panel explained, our
decision is aligned with most of the circuits that have
considered the issue after Dickerson and Chavez. See
Tekoh, 985 F.3d at 723. But more importantly,
whatever the tally of circuits, everyone agrees that we
are not alone (Dissent at 1272), so granting rehearing
en banc would not eliminate the conflict but at most
would simply move us from one side to the other. Nor
do the dissenters suggest that the panel’s decision,
the product of a quirky set of facts that required us to
confront this issue for the first time in the five decades
since Miranda was decided, threatens to bury the
district courts of the western United States beneath
an avalanche of section 1983 Miranda litigation.
There remains only the objection that “our
interpretation of the Self-Incrimination Clause is
detached from text and history.” (Dissent at 1272).
That is a complaint about Miranda and Dickerson, not
the decision here. Perhaps the defendants will find it
helpful in preparing a petition for a writ of certiorari,
but it is a poor reason to grant rehearing en banc.
BUMATAY, Circuit Judge, joined by CALLAHAN,
IKUTA, BENNETT, R. NELSON, BRESS, and
VANDYKE, dissenting from the denial of rehearing
en banc:
Most Americans can likely recite the Miranda
warnings by heart: the right to remain silent, that any
statements given can be used against you, the right to

78a
an attorney during questioning, and the right to have
an attorney appointed. Many also know that the
Supreme Court announced these warnings in the
watershed case, Miranda v. Arizona, 384 U.S. 436, 86
S.Ct. 1602, 16 L.Ed.2d 694 (1966). But few, I venture
to guess, can identify the origin and nature of the
warnings. Is Miranda a right mandated by the Fifth
Amendment’s Self-Incrimination Clause? Or are the
warnings prophylactic rules created by judges to
safeguard the people’s rights?
Terence Tekoh asks us to resolve these questions.
A police officer questioned him about a crime
committed at the hospital where he worked. Tekoh
agreed to speak with the officer, but the officer never
gave him the Miranda warnings. Tekoh eventually
confessed to the crime. He was charged, tried, and
acquitted—even after the introduction of his
confession at trial.
Following his acquittal, Tekoh sued the officer
under 42 U.S.C. § 1983, alleging a violation of his
Fifth Amendment right. At trial, Tekoh argued that
it was enough for him to prevail if he proved that the
officer obtained his confession without providing him
Miranda warnings. The district court disagreed,
instructing the jury that the officer violated Tekoh’s
Fifth Amendment right only if the officer coerced
Tekoh into confessing under the totality of the
circumstances. In other words, the district court
determined that the lack of Miranda warnings was a
factor for a Fifth Amendment violation, but it did not
violate the right in and of itself. The jury returned a
full defense verdict, and Tekoh appealed.
The central issue in this case, therefore, is
whether Miranda warnings amount to a
constitutional right. The question is important

79a
because § 1983 only provides a cause of action for
violating “any rights, privileges, or immunities
secured by the Constitution and laws.” 42 U.S.C.
§ 1983. Section 1983 won’t support liability for
violating anything less than a “right”—like
prophylactic rules.
Before reaching this question, we should have
heeded what the Supreme Court has said about the
matter. Many times, the Court has discussed the
nature of Miranda. And the answer could not be
clearer:
Supreme Court cases
referring to Miranda
warnings as “prophylaclic”

Michigan v. Payne,·412 U.S.
47, 53 (1973) • Michigan v
Tucker, 417 U.S. 433, 439
(1979) • Brown v. Illinois, 422
U.S. 590, 600 (1975) • Fare·v.
Michael C., 439 U.S. 1310,
1314 (1978) • North Carolina
v. Butler, 441 U.S. 369, 374
(1979) • United States v.
Henry, 447 U.S. 264, 274
(1980) •South Dakota v
Neville, 459 U.S. 553, 564
n.15 (1983) •New York v.
Quarles, 467 U.S. 649, 654
(1984) • Oregon v. Elstad, 470
U.S. 298, 309 (1985) •

Supreme Court
cases referring
to Miranda
warnings as a
“constitutional
right”

80a
Supreme Court cases
referring to Miranda
warnings as “prophylaclic”

Supreme Court
cases referring
to Miranda
warnings as a
“constitutional
right”

Connecticut v. Barret, 479
U.S. 523, 528 (1987) •
Arizona v Roberson, 486 U.S
675, 681 (1988) • Duckworth
v. Eagan, 492 U.S. 195, 203
(1989) • Michigan v. Harvey,
494 U.S. 344, 350 (1990) •
McNeil v. Wisconsin, 501 U.S.
171, 176 (1991) • Withrow v.
Williams, 507 U.S. 680, 691
(1993)
•
Brecht
v
Abrahamson, 507 U.S. 619,
629 (1993) • Davis v. United
States, 512 U.S. 452, 458
(1994) • Montejo v Louisiana,
556 U.S. 778, 794 (2009) •
Maryland v Shatzer, 559 U.S.
98, 103 (2010) • J.D.B. v
North Carolina, 564 U.S. 261,
269 (2011) • Howes v. Fields,
565 U.S. 499, 507 (2012)
The Court has described Miranda warnings as
“prophylactic” at least 21 times and called them a
“constitutional right” zero times.
With this background, this should have been a
straightforward case. Under Supreme Court
precedent, a Miranda warning is not a constitutional

81a
right, and we should have affirmed the judgment
accordingly. But that is not what happened. Our
court reversed, holding that Tekoh need only show
that his confession was taken in violation of Miranda
and later used against him in a criminal proceeding
to prove his § 1983 claim. That is because, we said,
Miranda was indeed a “right secured by the
Constitution.” Tekoh v. County of Los Angeles, 985
F.3d 713, 720 (9th Cir. 2021).
Rather than following the overwhelming weight of
Supreme Court authority, we justify our decision with
cherry-picked lines from a few cases—though none
(save the Seventh Circuit) directly hold as we do
today. In doing so, we also place ourselves at direct
odds with six of our fellow circuit courts. And so yet
again, our court embarks on brazen judicial
overreach.
To be clear, this case has nothing to do with
whether Miranda warnings are required before
custodial interrogation—they are. Neither does it
deal with whether un-Mirandized statements must
be excluded from the government’s case-in-chief—
Supreme Court case law says they should be. Nor
does this case ask whether Tekoh was coerced into
confessing—our court deemed coercion irrelevant.
Instead, the narrow question before the court was
whether the introduction of an un-Mirandized
statement at trial alone constitutes the violation of a
“right” secured by the Constitution. Our court’s
answer? Yes, the lack of Miranda warnings violates
the Fifth Amendment even if subsequent statements
were freely and voluntarily given. In adopting this
novel reading of Miranda, our court contravenes the
text and history of the Fifth Amendment and the
undeniable weight of precedent. Along the way, our

82a
court’s decision pushes us further than others in
rewriting the Fifth Amendment.
For this reason, I respectfully dissent from the
denial of rehearing en banc.
I.
A.
The Fifth Amendment’s Self-Incrimination Clause
provides that “[n]o person . . . shall be compelled in
any criminal case to be a witness against himself.”
U.S. Const. amend. V. The text of the Amendment
does not provide for a right to receive warnings before
interrogation by a law enforcement officer, as
envisioned by Miranda.
Rather, the Fifth
Amendment enshrined the “ancient” English common
law right against self-incrimination known as nemo
tenetur seipsum prodere (“no man shall be compelled
to criminate himself”). See John H. Wigmore, Nemo
Tenetur Seipsum Prodere, 5 Harv. L. Rev. 71, 71
(1891); Brown v. Walker, 161 U.S. 591, 596–97, 16
S.Ct. 644, 40 L.Ed. 819 (1896). Under that maxim, “a
confession forced from the mind by the flattery of
hope, or by the torture of fear, comes in so
questionable a shape when it is to be considered as
the evidence of guilt, that no credit ought to be given
to it; and therefore it is rejected.” R v. Warickshall
(1783), 168 Eng. Rep. 234, 235; 1 Leach 263, 263–64.
What originated in the old world quickly made its
way over the Atlantic. By the Founding, “the
principle of the nemo tenetur maxim was simply taken
for granted and so deeply accepted that its
constitutional expression had the mechanical quality
of a ritualistic gesture in favor of a self-evident truth
needing no explanation.” Leonard W. Levy, Origins
of the Fifth Amendment 430 (1968). Well before the

83a
Constitution was ratified, the right was ubiquitous:
each of the eight states that had a separate bill of
rights prohibited compelled self-incrimination. Id. at
412. Among the first proposed amendments to the
federal Constitution was the right against selfincrimination. See id. at 422–23; see also Brown, 161
U.S. at 597, 16 S.Ct. 644 (noting that the maxim,
“which in England was a mere rule of evidence,
became clothed in this country with the
impregnability of a constitutional enactment”).
Justice Story confirmed that the Self-Incrimination
Clause was “but an affirmance of a common law
privilege.” 3 Joseph Story, Commentaries on the
Constitution of the United States § 1782, at 660
(Boston, Hilliard, Gray & Co. 1833).
The right’s focus on voluntariness remained
throughout the transition from English to American
common law. An early American treatise explained
that “a confession, in order to be admissible, must be
free and voluntary: that is, must not be extracted by
any sort of threats or violence, nor obtained by any
direct or implied promises, however slight, nor by the
exertion of any improper influence.” 2 William
Oldnall Russell & Charles Sprengel Greaves, A
Treatise on Crimes and Misdemeanors 826 (5th Am.
ed., 1845) (emphasis omitted).
Early precedent confirmed the basic common law
understanding of the Clause—that its lodestar is
voluntariness, not prophylaxis. According to Chief
Justice Marshall, it was “a settled maxim of law that
no man is bound to criminate himself,” and that if a
person’s answer to a question might incriminate him,
“it must rest with himself, who alone can tell what it
would be, to answer the question or not.” United
States v. Burr, 25 F. Cas. 38, 39–40 (C.C.D. Va. 1807).

84a
While legitimate debate may remain around its
scope, as a matter of history, the right against selfincrimination did not include the right to be given
particular warnings before custodial interrogation
may begin. From the Fifth Amendment’s ratification
to the mid-20th century, neither the text nor the
common law right was understood to require law
enforcement officers to give such warnings.
B.
It was not until almost 200 years after our
Founding that the Supreme Court announced the
requirement of Miranda warnings in 1966. Miranda,
384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694. That
decision, however, does not suggest that Miranda
warnings are part of the Fifth Amendment. Instead,
the opinion explicitly refers to the Miranda rules, not
as a constitutional right, but as “procedural
safeguards effective to secure the privilege against
self-incrimination.”
Id. at 444, 86 S.Ct. 1602
(emphasis added). Thus, Miranda itself offers no
reason to conclude that it announced a constitutional
right.
In Miranda, the Supreme Court began by raising
concerns with the police tactics used to obtain
confessions from those in custody. Id. at 445–55, 86
S.Ct. 1602. Recounting the various psychological
measures employed, the Court was alarmed that
police regularly “persuade, trick, or cajole [those in
custody] out of exercising [their] constitutional
rights.” Id. at 455, 86 S.Ct. 1602. The Court decried
the “interrogation environment . . . created for no
purpose other than to subjugate the individual to the
will of his examiner.” Id. at 457, 86 S.Ct. 1602. To
counter these tactics, the Court warned that
“adequate protective devices” are necessary to

85a
counter “the compulsion inherent in custodial
surroundings” and to ensure that statements made in
custody are “truly” the product of “free choice.” Id. at
458, 86 S.Ct. 1602.
The Court thus adopted the requirement of the
Miranda warnings as “proper safeguards” to “combat
the[ ] [inherently compelling] pressures” of custodial
interrogation and to “permit a full opportunity to
exercise the privilege against self-incrimination.” Id.
at 467, 86 S.Ct. 1602. The Court was concerned that,
without such warnings, the accused would be
“compel[led] . . . to speak where he would not
otherwise do so freely.” Id.
Importantly, the Court did not state that the
Miranda warnings were anything more than
prophylactic. It even refused to say that “the
Constitution necessarily requires adherence to any
particular” pre-interrogation procedures.
Id.
Instead, the Court was open to federal and state
governments devising “potential alternatives for
protecting the privilege” outside of Miranda
warnings. Id. Indeed, the Court clarified that its
“decision in no way creates a constitutional
straitjacket.”
Id.
Nothing in Miranda itself,
therefore, can be said to constitutionalize its
eponymous warnings.
This understanding of Miranda as prophylactic
continued in the decades that followed. For example,
in Michigan v. Tucker, 417 U.S. 433, 94 S.Ct. 2357, 41
L.Ed.2d 182 (1974), the Court described the Miranda
warnings as merely a “supplement” to constitutional
doctrine, not doctrine itself. Id. at 443, 94 S.Ct. 2357.
The Court noted that Miranda “established a set of
specific protective guidelines” that would “help police
officers conduct interrogations without facing a

86a
continued risk that valuable evidence would be lost.”
Id. And it distinguished between police conduct that
deprives a person of their “privilege against
compulsory self-incrimination” and police conduct
that failed to provide “the full measure of procedural
safeguards associated with that right.” Id. at 444, 94
S.Ct. 2357. So, even though the suspect in Tucker did
not receive the entire complement of Miranda
warnings, the Court refused to exclude his statements
since his interrogation was not coercive. Id. at 445,
452, 94 S.Ct. 2357.
The Court emphasized this same understanding of
Miranda in New York v. Quarles, 467 U.S. 649, 104
S.Ct. 2626, 81 L.Ed.2d 550 (1984). In that case, an
officer asked a suspect where he disposed of a firearm
before formally placing the suspect under arrest and
before administering Miranda warnings. Id. at 652,
104 S.Ct. 2626.
Holding the suspect’s answer
admissible, the Court explained that “absent some
officially
coerced
self-accusation,
the
Fifth
Amendment privilege is not violated by even the most
damning admissions.” Id. at 654, 104 S.Ct. 2626
(simplified); see id. at 659, 104 S.Ct. 2626. The Court
then reaffirmed that Miranda’s prophylactic
warnings are “not themselves rights protected by the
Constitution but are instead measures to insure that
the right against compulsory self-incrimination is
protected.” Id. at 654, 104 S.Ct. 2626 (simplified).
Rather than being a constitutional right, Miranda
warnings provide mere “practical reinforcement for
the Fifth Amendment right.” Id. (simplified). With
no coercion in the case, the Court created the “public
safety” exception to Miranda warnings. Id. at 655–
56, 104 S.Ct. 2626. It explained that in some
situations, “a threat to the public safety outweighs the

87a
need for the prophylactic rule protecting the Fifth
Amendment’s privilege against self-incrimination.”
Id. at 657, 104 S.Ct. 2626.
A few years later in Oregon v. Elstad, 470 U.S. 298,
105 S.Ct. 1285, 84 L.Ed.2d 222 (1985), the Court held
that, without coercion, an initial failure to administer
Miranda warnings did not taint a suspect’s
subsequent, Mirandized admission. Id. at 312–14,
105 S.Ct. 1285. As before, the Court reiterated that
the Miranda rule “serves the Fifth Amendment,” but
“sweeps more broadly than the Fifth Amendment
itself.” Id. at 306, 105 S.Ct. 1285. “It may be
triggered even in the absence of a Fifth Amendment
violation,” because the Amendment itself is concerned
only with compelled testimony. Id. at 306–07, 105
S.Ct. 1285.
As a result, the Court explained,
“Miranda’s preventive medicine provides a remedy
even to the defendant who has suffered no identifiable
constitutional harm.” Id. at 307, 105 S.Ct. 1285.
Supreme Court precedent, then, has uniformly
recognized Miranda rules as prophylactic safeguards
of the Fifth Amendment right—not a constitutional
right in and of itself. And contrary to this court’s
holding, Dickerson v. United States, 530 U.S. 428, 120
S.Ct. 2326, 147 L.Ed.2d 405 (2000), did not change
that analysis. That case involved a congressional
enactment to effectively overrule Miranda. Id. at 436,
120 S.Ct. 2326 (noting that 18 U.S.C. § 3501 made
“voluntariness” the “touchstone of admissibility”
without regard for Miranda warnings). The question
in Dickerson was whether Congress could supersede
Miranda. Id. at 437, 120 S.Ct. 2326. In answering
“no,” the Court held that Congress could not
legislatively override a “constitutional rule,” id. at
441, 120 S.Ct. 2326, and described Miranda as a

88a
“constitutional
decision”
with
“constitutional
underpinnings,” id. at 438, 440 n.5, 120 S.Ct. 2326.
Because “Congress may not legislatively supersede
[the Court’s] decisions interpreting and applying the
Constitution,” the Court struck down the law as
unconstitutional. Id. at 437, 444, 120 S.Ct. 2326.
Nowhere in the opinion, however, did the Court
say that the introduction at trial of an un-Mirandized,
yet voluntary, confession violates the Fifth
Amendment by itself. In other words, it never
described Miranda as a constitutional “right,” but
called it something different—a “constitutional rule.”
Critically, the Court recognized just this: the dissent
invited the Dickerson majority to “hold that the
Miranda warnings are required by the Constitution”
to avoid “judicial overreach[ ].” Id. at 442, 120 S.Ct.
2326.1 But the majority expressly declined that
invitation and simply denied that it was
overreaching, responding, “we need not go further
than Miranda to decide this case.” Id. The Court thus
acknowledged that holding that the Constitution
itself required pre-interrogation warnings would go
further than Miranda, and it refused to do so.
1

In dissent, Justice Scalia accused the majority of
exercising “an immense and frightening antidemocratic power”
by striking down an Act of Congress for violating a
“constitutional rule.” Dickerson, 530 U.S. at 445–46, 120 S.Ct.
2326 (Scalia, J., dissenting). Justice Scalia invited the majority
to take the opinion “out of the realm of power-judging and into
the mainstream of legal reasoning” by simply declaring that
Miranda was in fact a constitutional right. Id. at 446, 120 S.Ct.
2326. He observed that the majority “cannot say that, because a
majority of the Court does not believe it.” Id. In his view, since
the Court can only nullify statutes in contravention of the
Constitution, the Dickerson majority acted “in plain violation of
the Constitution.” Id.

89a
C.
Given the text and history of the SelfIncrimination Clause and the overwhelming weight of
Supreme Court precedent, our court was wrong to
rule that the lack of Miranda warnings by itself
violates the Constitution for purposes of § 1983. That
section provides a civil action against state officials
who cause a “deprivation of any rights, privileges, or
immunities secured by the Constitution and laws.” 42
U.S.C. § 1983. Miranda warnings are neither “rights,
privileges, [n]or immunities” under the Constitution;
so a violation of Miranda alone cannot sustain money
damages under § 1983.
To begin, the text of the Fifth Amendment in no
way leads to our court’s contrary reading—it says
nothing about a pre-interrogation right to be advised
of the right against self-incrimination. The long
history of the common law right likewise provides no
support for a fundamental right to be warned.
Instead, the text and history show that the SelfIncrimination Clause protects against coerced or
compelled confessions, and mandates that any
statement used against an accused at trial be freely
and voluntarily given.
And by the plain terms of the Miranda decision
and at least 21 other Supreme Court cases
interpreting it,2 the absence of its warnings cannot
sustain a claim for money damages. These cases all
describe the Miranda warnings as “prophylactic,”
Quarles, 467 U.S. at 654, 104 S.Ct. 2626, “procedural
safeguards,” Miranda, 384 U.S. at 444, 86 S.Ct. 1602,
or “protective guidelines,” Tucker, 417 U.S. at 443, 94
2

See chart, supra.

90a
S.Ct. 2357. Not one of them describes Miranda
warnings as a “constitutional right.”
This distinction is important because § 1983 only
affords a cause of action for “the violation of a federal
right, not merely a violation of federal law.” Blessing
v. Freestone, 520 U.S. 329, 340, 117 S.Ct. 1353, 137
L.Ed.2d 569 (1997); see also Carey v. Piphus, 435 U.S.
247, 254, 98 S.Ct. 1042, 55 L.Ed.2d 252 (1978)
(explaining that the “basic purpose of a § 1983” claim
is “to compensate persons for injuries caused by the
deprivation of constitutional rights”). The Court has
been clear that “rights” are to be interpreted strictly
in the § 1983 context; they don’t include “broader or
vaguer ‘benefits’ or ‘interests.’” Gonzaga Univ. v. Doe,
536 U.S. 273, 283, 122 S.Ct. 2268, 153 L.Ed.2d 309
(2002).
They certainly don’t include “judicially
created prophylactic rules.” Chavez v. Martinez, 538
U.S. 760, 780, 123 S.Ct. 1994, 155 L.Ed.2d 984 (2003)
(Scalia, J., concurring in part in the judgment).
So the central question for the jury on Tekoh’s
claim was whether the confession admitted at trial
was improperly coerced, not merely whether Miranda
was violated.
Of course, as the district court
recognized, whether Miranda warnings were given is
a factor—but only a factor—in determining the
voluntariness of Tekoh’s confession under the totality
of the circumstances.
Dickerson did not change this understanding. In
that case, the Court expressly affirmed that it was not
going beyond Miranda. 530 U.S. at 442, 120 S.Ct.
2326 (“[W]e need not go further than Miranda to
decide this case.”). Indeed, Dickerson quotes Tucker’s
language, without qualification, that Miranda’s
procedural safeguards are “not themselves rights
protected by the Constitution.” Id. at 438, 120 S.Ct.

91a
2326 (quoting Tucker, 417 U.S. at 444, 94 S.Ct. 2357).
To be sure, Dickerson announces that Miranda is a
“constitutional rule.” Id. at 428, 120 S.Ct. 2326. But
that is a far cry from elevating it to a “constitutional
right”—a promotion that the Court explicitly declined
to allow. Id. at 442, 120 S.Ct. 2326. Accordingly, the
best reading of Dickerson is that it does not
undermine the long line of cases characterizing
Miranda as a prophylactic rule and not a
“constitutional right.”
The Court confirmed this understanding in
Chavez. In that case, a plaintiff brought a § 1983
action against an officer for questioning him without
Miranda warnings—much like this case except that
his admissions were never used against him in
criminal proceedings. 538 U.S. at 764–65, 123 S.Ct.
1994 (plurality opinion). A plurality of four Justices
reiterated that Miranda remained a prophylactic rule
and was not a constitutional right. Id. at 772, 123
S.Ct. 1994. The plurality explained that “a violation
of the constitutional right against self-incrimination
occurs only if one has been compelled to be a witness
against himself in a criminal case.” Id. at 770, 123
S.Ct. 1994 (emphasis omitted). But “[r]ules designed
to safeguard a constitutional right . . . do not extend
the scope of the constitutional right itself.” Id. at 772,
123 S.Ct. 1994. As a result, “violations of judicially
crafted prophylactic rules do not violate the
constitutional rights of any person.” Id. Because
Miranda is not a constitutional right, the plurality
concluded that the failure to provide Miranda
warnings “cannot be grounds for a § 1983 action.” Id.3
3

Notably, Chief Justice Rehnquist, the author of
Dickerson, joined Justice Thomas’s plurality opinion in full. 538

92a
Justice Souter, joined by Justice Breyer, likewise
concurred in denying relief under § 1983 for violating
Miranda. See id. at 777, 123 S.Ct. 1994 (Souter, J.,
concurring in the judgment). He agreed that Miranda
warnings are solely a “complementary protection” to
and “outside the core” of the Fifth Amendment. Id. at
777–78, 123 S.Ct. 1994. While noting that the
“absence of Miranda warnings” as “a basis for a
§ 1983 action under any circumstance” was not before
the Court, Justice Souter questioned the need for civil
liability when certain non-core Fifth Amendment
violations occurred, like “whenever the police fail to
honor Miranda.” Id. at 778–79, 779 n.*, 123 S.Ct.
1994 (emphasis added). He noted that “[r]ecognizing
an action for damages in [such a case] not only would
revolutionize Fifth . . . Amendment law,” but would
have to be justified as “necessary in aid of the basic
guarantee.” Id. at 779, 123 S.Ct. 1994. But there was
“no reason to believe” an extension of § 1983 to
Miranda was necessary, because existing measures
such as “excluding testimonial admissions” had been
sufficient. Id. While there was “no failure of efficacy
infecting . . . Fifth Amendment law” requiring an
extension of § 1983, Justice Souter departed from the
plurality and suggested that the particular
“outrageous conduct” by the police in Chavez could
give rise to a separate § 1983 claim under substantive
due process (a separate claim Tekoh did not raise). Id.
Chavez thus removes any doubt over whether
Tekoh can bring a § 1983 action for violating
Miranda. After Chavez, “it is now clear that there is
U.S. at 763 n.*, 123 S.Ct. 1994. So, our court’s use of Dickerson
to announce a sea-change in Miranda jurisprudence would be
lost on the author of that opinion himself.

93a
no cause of action for money damages for violations of
Miranda.” Erwin Chemerinsky, Federal Jurisdiction
§ 8.9, at 631–32 (8th ed. 2021); see also Renda v. King,
347 F.3d 550, 558 (3d Cir. 2003) (“[S]ix Justices (Chief
Justice Rehnquist, together with Justices Thomas,
O’Connor, Scalia, Souter, and Breyer) agreed that
mere custodial interrogation absent Miranda
warnings is not a basis for a § 1983 claim.”).
The year after Chavez, the Court again reinforced
the “prophylactic” nature of Miranda post-Dickerson.
See United States v. Patane, 542 U.S. 630, 636, 639,
124 S.Ct. 2620, 159 L.Ed.2d 667 (2004) (plurality
opinion). At issue was whether physical evidence
obtained as the fruit of an unwarned, but voluntary,
statement was admissible. Id. at 633–34, 124 S.Ct.
2620. A plurality of three Justices explained that “a
mere failure to give Miranda warnings does not, by
itself, violate a suspect’s constitutional rights.” Id. at
641, 124 S.Ct. 2620. According to the plurality, this
was “evident in many of [the Court’s] pre-Dickerson
cases,” and the Court has “adhered to this view since
Dickerson.” Id. The plurality noted that “Dickerson’s
characterization of Miranda as a constitutional rule
does not lessen the need to maintain the closest
possible fit between the Self-Incrimination Clause
and any judge-made rule designed to protect it.” Id.
at 643, 124 S.Ct. 2620. And admitting evidence that
is the fruit of a Miranda violation without more
“presents no risk that a defendant’s coerced
statements . . . will be used against him at a criminal
trial.” Id.
Justice Kennedy, joined by Justice O’Connor,
concurred and agreed with the majority that
Dickerson “did not undermine” the Court’s precedents
like Elstad and Quarles. Id. at 644–45, 124 S.Ct. 2620

94a
(Kennedy, J., concurring in the judgment). Justice
Kennedy only differed from the plurality in
concluding that it was unnecessary to characterize
the statements at issue as taken in violation of
Miranda. Id. at 645, 124 S.Ct. 2620.
Contrary to the panel’s holding, then, Chavez and
Patane add to the overwhelming precedent that a
Miranda violation itself does not violate a
constitutional right.4 Rather than find every which
way to distinguish or limit these cases, see Tekoh, 985
F.3d at 720–23, our court should have accepted their
persuasive force and rejected Tekoh’s theory of § 1983
liability.
Throughout its history, the Fifth Amendment’s
watchword has been “voluntariness.” Our court’s
decision substitutes that word with “warnings.” That

4

Those two cases are not alone in calling Miranda
prophylactic after Dickerson. See Montejo v. Louisiana, 556 U.S.
778, 794, 129 S.Ct. 2079, 173 L.Ed.2d 955 (2009) (describing
Miranda as “prophylactic protection of the right against
compelled self-incrimination”); Maryland v. Shatzer, 559 U.S.
98, 103, 130 S.Ct. 1213, 175 L.Ed.2d 1045 (2010) (“In [Miranda],
the Court adopted a set of prophylactic measures to protect a
suspect’s Fifth Amendment right from the ‘inherently
compelling pressures’ of custodial interrogation.” (citation
omitted)); Florida v. Powell, 559 U.S. 50, 59, 130 S.Ct. 1195, 175
L.Ed.2d 1009 (2010) (describing Miranda warnings as
“procedural safeguards” (simplified)); J.D.B. v. North Carolina,
564 U.S. 261, 269, 131 S.Ct. 2394, 180 L.Ed.2d 310 (2011)
(describing Miranda warnings as “a set of prophylactic measures
designed to safeguard the constitutional guarantee against selfincrimination”); Howes v. Fields, 565 U.S. 499, 507, 132 S.Ct.
1181, 182 L.Ed.2d 17 (2012) (“Miranda adopted a set of
prophylactic measures designed to ward off the inherently
compelling pressures of custodial interrogation . . . .”
(simplified)).

95a
is simply incorrect, as a matter of text, history, and
precedent.
D.
The court’s decision today puts us at odds with six
other circuit courts. The Second, Fifth, Sixth, Eighth,
Tenth, and Eleventh Circuits hold, as I would, that
Miranda is a procedural safeguard and the remedy for
its violation is exclusion, not a § 1983 action. See
Dalessio v. City of Bristol, 763 F. App’x 126, 127 (2d
Cir. 2019) (unpublished) (“Dalessio cannot state a
Fifth Amendment claim because ‘the failure to give
Miranda warnings does not create liability under
§ 1983.’” (quoting Neighbour v. Covert, 68 F.3d 1508,
1510 (2d Cir. 1995)) (per curiam)); Foster v. Carroll
County, 502 F. App’x 356, 358 (5th Cir. 2012)
(unpublished) (“Violations of the prophylactic
Miranda procedures do not amount to violations of
the Constitution itself and, as such, fail to raise a
cause of action under § 1983.”); McKinley v. City of
Mansfield, 404 F.3d 418, 432 n.13 (6th Cir. 2005)
(“McKinley also argues that Fortney’s failure to read
him the Miranda warnings at the outset of the second
interview is actionable under § 1983.
On the
contrary, a § 1983 action on that basis is squarely
foreclosed by the Supreme Court’s decision two terms
ago in Chavez.”); Hannon v. Sanner, 441 F.3d 635, 637
(8th Cir. 2006) (affirming that “Miranda procedural
safeguards are not themselves rights protected by the
Constitution,” even after Dickerson (simplified));
Marshall v. Columbia Lea Reg’l Hosp., 345 F.3d 1157,
1165 n.6 (10th Cir. 2003) (explaining that “violations
of Miranda rights do not subject police officers to
liability under § 1983” (citing Bennett v. Passic, 545
F.2d 1260, 1263 (10th Cir. 1976))); Lloyd v. Marshall,
525 F. App’x 889, 892 (11th Cir. 2013) (unpublished)

96a
(“[F]ailing to follow Miranda procedures . . . does not
violate any substantive Fifth Amendment right such
that a cause of action for money damages under
§ 1983 is created.” (quoting Jones v. Cannon, 174 F.3d
1271, 1291 (11th Cir. 1999))). Even post-Dickerson,
these cases remain the law. As a result, our court’s
expansive reading of that case is wrong.
Contrary to the panel’s position, it appears that
the only out-of-circuit support for the panel’s decision
comes from the Seventh Circuit. See Sornberger v.
City of Knoxville, 434 F.3d 1006, 1026–27 (7th Cir.
2006). In that case, the court permitted a § 1983
claim based on the use of un-Mirandized statements
in probable cause and bail hearings. Id. at 1027.
Even though the court found the police interrogation
coercive, it also seemed to allow a stand-alone § 1983
claim for the absence of Miranda warnings. Id.
In short, our court is out of step with Supreme
Court precedent and the vast majority of circuit
courts around the country.
II.
Our decision here sets us apart from others in
elevating Miranda warnings to the level of a
constitutional right. By seizing on a few lines from a
single case, we willfully ignore the mountain of
Supreme Court precedent to the contrary. Worse yet,
our interpretation of the Self-Incrimination Clause is
detached from text and history. Given the clear
weight of authority against us, we should not have
been so bold.
I respectfully dissent.

97a
42 U.S.C. § 1983
§ 1983. Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial
officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes
of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

98a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA –
WESTERN DIVISION
HONORABLE GEORGE WU
UNITED STATES DISTRICT JUDGE PRESIDING
Terence Tekoh,
PLAINTIFF,
VS.
County of Los Angeles, et
al.,
DEFENDANT,

)
)
)
NO. CV 16-7297
) GW
)
)
)
)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
LOS ANGELES, CALIFORNIA
THURSDAY, AUGUST 27, 2018
***
[15]
***
THE COURT: Yes. Including causation as to
damages so it would just be in terms of liability. And,
again, there is also something I wanted to address
with the parties. I handed you out that Soot, SOOT,
case, and there are actually two constitutional
amendments that could potentially be applied. The
first is the Fifth Amendment, and the second one is
the Fourteenth [16] Amendment. But the Fourteenth

99a
Amendment requires a shocking to the conscience
type of standard. It is extremely high.
Is the plaintiff intending to to go forward under
both sections or just under the Fifth Amendment?
MR. BURTON: We understood the court’s initial
ruling to be that we are going only under the Fifth
Amendment standard. I think the Fifth Amendment
standard is a lower standard.
THE COURT: It definitely is a lower standard but
that is the point is that originally when it was
presented, you know, because one of the problems I
had was that the plaintiff in the proposed jury
instructions had, you know, one as to Miranda
violation, supposedly, and then another one as to
what it referred to as the Fourteenth Amendment
violation. And then the other one was as to use of
false evidence.
And so the false evidence aspect I used the
Ninth Circuit standard instruction, and the Fifth
Amendment violation based on Miranda, I said
Miranda violations don’t give rise to a constitutional
1983 action. And I cited cases for that proposition.
But the middle one was the Fourteenth
Amendment, and the problem that I had was the
standard that you were giving me in that instruction
really wasn’t [17] applicable to the Fourteenth
Amendment because it shocks the conscience is the
criteria. The one that you had under the Fourteenth
Amendment was actually more one that was a propos
for the Fifth Amendment.
And so the question is is the plaintiff at this
point in time only attempting to go under the Fifth
Amendment, or does the plaintiff want to go under
both the Fifth and the Fourteenth. But the problem

100a
is if youwant to go under the Fourteenth Amendment,
the criteria is so much higher.
MR. BURTON: Right.
The whole way we
prepared it and the way that we have submitted our
jury instructions in our case is that it is a Fifth
Amendment violation.
THE COURT: All right.
MR. BURTON: But we do think just in terms of
the Miranda -THE COURT: I think the failure to give a
Miranda warning can be part of a consideration as to
whether or not a confession was coerced. But it would
have to be a situation where a Miranda warning was
required because if it wasn’t a situation where a
Miranda warning was required, then it doesn’t
necessarily preclude the existence of a coerced
confession, but one of the factors would not be
whether or not the person should have been given an
advisal or a warning.
[18] But let me just ask this however: Well, is
it a dispute as to whether the, I guess it is in dispute
as to whether or not a Miranda warning should have
been given because the defense position is that he was
not in custody being questioned in custody. Or is it?
MR. BURTON: If I could be heard, your Honor,
briefly on that.
THE COURT: Let the defense answer it first.
MR. KIZZIE: If I could respond to the court’s
question first.
MR. KIZZIE: Thank you.
Thank you, your Honor. Yeah. It is the
defendant’s position that this was not a custodial
interrogation requiring a Miranda warning. Further,
even so Miranda is a prophylactic rule. It is not a

101a
constitutional violation which I think was one of the
reasons why it wasn’t brought up in the first trial.
THE COURT: But whether or not a confession is
coerced, the absence of a Miranda warning is a factor
that can be taken into account by a jury.
MR. KIZZIE: I think I got to disagree with the
court, your Honor, based on some of the cases that I
read. But, in terms of that, you know, your Honor, it
is our position that this wasn’t, even so, it wasn’t a
custodial interrogation authorizing Miranda.
[19] THE COURT: Well, let’s put it this way, I
think I would instruct them on whether or not a
Miranda warning was required, and if the jury finds
that it was required, then, the absence of such a
warning is a fact that the jury can take into
consideration.
MR. KIZZIE: Thank you. For the record, we
would object and disagree with such an instruction,
but it is understood.
THE COURT: Okay. Let me hear from the
plaintiff’s counsel.
MR. BURTON: Thank you, your Honor. Well,
first, I think it is settled. I think it is the Dickerson
case if I am not mistaken that, in fact, Miranda is a
constitutional rule not a prophylactic rule.
What the Martinez -THE COURT: Let me stop you. I don’t agree with
your characterization. In other words, I think the
Supreme Court in Chavez makes it clear that the
extent to which it is what it is.
MR. BURTON: Well, I was just going to address
Chavez, and I was cocounsel on that case. In that
case, there was a custodial interrogation which was

102a
not Mirandized of a gentleman who had just been
shot.
THE COURT: Let me stop you. We are all
familiar with the facts of Chavez.
[20] MR. BURTON: So the statement was never
used in a criminal case. So that is why there was no
Fifth Amendment violation. I mean, that was a very
fractured court, but everybody reads it to say that the
Fifth Amendment violation doesn’t occur when there
is a Miranda-less interrogation. It occurs when the
Miranda-less interrogation statement is used in a
subsequent criminal case.
Then the issue arose, does that mean in a trial
or in any post trial, criminal prosecution. And that
case was very much up in the air in California. In
fact, I had a case that turned on that issue in front of
Judge Cooper at that time and was up on an
interlocutory appeal when the Stoot case came down.
And what Stoot held was that the use element of a
Fifth Amendment violation is satisfied if it is used in
any proceeding. It doesn’t have to be a trial.
Now, in this case, since it was used at the trial,
that is really not an issue. But so the Fifth
Amendment violation occurs when a statement is
taken in violation of the Fifth Amendment which we
contend means when a Miranda warning should have
been given but wasn’t and, then, it is used in a
subsequent criminal proceeding.
That is when the violation occurred. So that
[21] is why it is not the Miranda-less questioning
itself that is a Fifth Amendment violation. It is the
use of the Miranda-less statement.
In terms of whether the Miranda warning had
to be given, the parties do not dispute that no

103a
Miranda admonition was given in this case. The
parties dispute whether Mr. Tekoh was, quote, in
custody, unquote, for the purpose of triggering the
obligation to give a Miranda warning.
We, the plaintiff say that the -THE COURT: Let me stop you. That stuff is going
to be allowed to be presented to the jury, in
otherwords, the factual situation that was in
existence at the time that the officer was questioning
Mr. Tekoh. And so all that stuff is going to be able to
come in. So I don’t think either side is arguing about
that issue.
And as I have indicated to both sides, I don’t
think that a failure to Mirandize when Miranda was
required is a separate 1983-- you can’t use it for
purposes of 1983, and that is the case that I cited in
my decision at docket No. 205 which stands for that
proposition.
But, conversely, however, I do agree that since
if we are going to, if the jury is going to consider the
issue of whether or not there was a coerced [22]
confession in violation of the Fifth Amendment,
obviously, whether or not he was in custody is an
issue, what he was told, whether or not -- because,
clearly, if he was advised of his constitutional rights,
that would have been a factor. And if he wasn’t
advised of it, that is another factor that the jury can
consider. Not that it establishes a violation of the
Fifth Amendment, but it is part and parcel of whether
or not there was a confession coerced from him. So I
agree with that.
MR. BURTON: Could I make two brief points,
your Honor. The first is that for the first trial, and I
think for this trial too, we tendered an instruction

104a
based on United States versus Kim which is we
believe the controlling Ninth Circuit authority on
whether a person is, quote, in custody or not for
Miranda purposes.
In that case, it was a woman. Their store was
being raided. She was sat down at a table I think for
45 minutes. Not allowed to leave. She was not
handcuffed. And they found, they went through the
Kim factors that have been cited repeatedly.
We think the jury should be instructed on what
the Kim factors are for whether or not there is, quote,
in custody for the purpose of triggering Miranda
because that is the law, clearly established law in the
Ninth Circuit.
[23] Second, and we had this problem several
times during the first trial, Deputy Vega, now
Sergeant Vega, took the stand and said, well, we
didn’t have to Mirandize him because we didn’t
handcuff him. I mean, that is not the law. And they
shouldn’t be testifying as to legal conclusions like that
to the jury. We think that is the court’s obligation.
THE COURT: Put it this way, I don’t think that
they testified to that, and if they testified to that, if
my memory serves me, I did instruct them on when
somebody was, you know, the types of encounters you
could have. You could have a voluntary discussion
with a law enforcement officer. An officer can briefly
detain like a Terry stop. My recollection is I advised
them on all that.
MR. BURTON: Yes. But I mean, you did not
instruct -- the jury was not instructed on, here, over
our objection, the instruction was not given that we
took directly from United States versus Kim.

105a
THE COURT: Let me put it this way. I do agree
with you. I will take another look at your proposed
instruction based on Kim. And I do agree that a lot of
the factors, if my memory serves me well, that are
factors, are factors in consideration as to whether or
not a confession is coerced, for example, whether or
not [24] the person was in a locked area or an open
area.
I mean there is a lot of factors that can be
considered in that regard. So I have no problem with
instructing the jury in that regard. The exact wording
of it is something that we have to decide at some point
in time but the concept, I don't have a problem.
MR. BURTON: Thank you, your Honor.
THE COURT: Okay. Why don’t you guys spend -MR. KIZZIE: Your Honor, before we take that
break, can I just briefly be heard on that point, please.
THE COURT: All right.
MR. KIZZIE: Well, I can just address the court
from here if that is okay. Your Honor, our issue
really, setting aside the Miranda constitutionality, is
that as the court is I believe of the same opinion, it is
inappropriate and should not be permitted to be
argued that an alleged violation of Miranda, whatever
the factors are, is de facto a Fifth Amendment coerced
violation as well. That is our position.
THE COURT: Let me stop you. I agree with that,
and I won’t allow the plaintiff to make the argument
that a violation of Miranda establishes a coerced
confession. In other words, I don’t think you need to
reference Miranda because you just need to reference
whether or not these factors -- in other words, was he
advised of his [25] constitutional rights, of his right to

106a
remain silent, and et cetera. And the answer to that
is either “yes” or “no”.
MR. KIZZIE: And, also, your Honor, regarding
some of the other issues that we are supposed to touch
base on today at some point, does the court want to
take them up now or after lunch?
THE COURT: First of all, I want you to spend 10
minutes to decide whether or not the trial is going to
be bifurcated between liability and damages.
MR. KIZZIE: The issue, your Honor, is that
causation is inherent to liability, not necessarily
damages. So, for example, the first question as in the
first trial could be did Sergeant Vega arrest him
without probable cause. If the jury decided yes, they
would still have to decide whether his arrest without
probable cause was a substantial factor.
THE COURT: But the problem is that those
aspects are problematic in the sense that a lot of the
difficulties we have with the proposed evidence arises
at that point in time. So we could decide whether or
not the elements of a coerced confession were present
because the answer to that question is either “yes” or
“no”, and, then, thereafter, you can decide the issue as
to whether or not the violation, if it occurred, caused
damages and, [26] if so, what damages they caused.
So I don’t see a problem with bifurcating at that point
in time, and it is often the case where liability is
bifurcated from causation, then we don’t do the
causation aspects in the first stage. We do it in the
second stage. But I will leave you guys to talk about
it for 10 minutes.
***

107a
John Burton, State Bar No. 86029
jb@johnburtonlaw.com
Matt Sahak, State Bar No. 310624
ms@johnburtonlaw.com
THE LAW OFFICES OF JOHN BURTON
128 North Fair Oaks Avenue
Pasadena, California 91103
Tel: (626) 449-8300
Attorneys for Plaintiff Terence B. Tekoh
RICKEY IVIE (S.B.N.: 76864)
rivie@imwlaw.com
ANTONIO K. KIZZIE (S.B.N.: 279719)
akizzie@imwlaw.com
IVIE, McNEILL & WYATT
444 S. Flower St., Suite 1800
Los Angeles, CA 90071
(213) 489-0028; (213) 489-0552
Attorneys for Defendant, SGT. CARLOS VEGA
UNITED STATES DISTRICT COURT
DISTRICT OF CALIFORNIA
TERENCE B. TEKOH, Case No.: 16-cv-7297
GW(SKx)
Plaintiff,
v.
SGT CARLOS VEGA
Defendant

[PROPOSED]
SUPPLEMENTAL
JURY INSTRUCTIONS
RE: FIFTH
AMENDMENT,
MIRANDA AND
DAMAGES
Pretrial Conference:
September 24, 2018
Trial:
September 25, 2018

108a
***
SUPPLEMENTAL JURY INSTRUCTION NO. 3
[Dkt. 257, No. 22]
In order to establish that the acts or failures to act
of the defendant police officer deprived the plaintiff of
his particular rights under the laws of the United
States or the United States Constitution as explained
in later instructions, the plaintiff must prove by a
preponderance of the evidence that the acts or failures
to act were so closely related to the deprivation of the
plaintiff’s rights as to be the moving force that caused
the ultimate injury.
Source:
Ninth Circuit Model Jury Instruction No. 9.2
SUPPLEMENTAL PROPOSED JURY
INSTRUCTION NO. 4
Plaintiff contends that Defendant Carlos Vega
violated his rights guaranteed by the Fifth
Amendment to the United States Constitution by
coercing/compelling2 an involuntary confession from

2

Defendant contends that the most accurate and
appropriate language should use the word “compel” versus
“coerce” because such is the actual language of the Constitution
of the United States Amendment V “No person shall be held to
answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in jeopardy
of life or limb; nor shall be compelled in any criminal case to be
a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property
be taken for public use, without just compensation”

109a
him that was later used against him in a criminal
trial.
Defendant
Vega
denies
that
he
coerced/compelled Plaintiff’s confession.
A confession is coerced/compelled if the police use
illegal3 physical or psychological coercion to
undermine a person’s ability to exercise his free will.
You must consider the objective totality of all the
surrounding circumstances. A coerced/compelled
confession depends on the details of the interrogation.
Factors to consider include, but are not limited to:
(1) The length of the questioning;
(2) The physical environment in which the
statement was given;
(3) The manner in which the person was
questioned;
(4) Whether the police advised the person
being questioned of his rights to remain
silent and to have a counsel present
during a custodial interrogation/If
Miranda warnings were legally required due
to the circumstances, whether the officer

3

As the Court indicated, the analysis is objective and
anyone could find merely being the presence of a police officer to
be coercive/compelling, but not in violation of the Fifth
Amendment. Further, the jury found Plaintiff was lawfully
arrested and it was not based on fabricated evidence. Docket
No. 177 and 193. Accordingly, “[T]he right to make an arrest
or investigatory stop necessarily carries with it the right to use
some degree of physical coercion or threat thereof to effect it.”
Graham v. Connor, 490 U.S. 386, 396 (1989). Thus, it must be
clear that illegal physical or psychological coercion is the
standard.

110a

(5)
(6)

advised Plaintiff of his Miranda rights and
Plaintiff unequivocally invoked those rights.4
The use of fear to break a suspect5
Threats or promises relating to one’s
children or family6

4

Defendant entirely objects to this and any language
discussing Miranda. Two separate judges already found no
Miranda violation and, thus, is an issue of res judicata or, at
least, another basis to grant qualified immunity or entirely
break the chain of causation as to Plaintiff’s claimed damages
stemming therefrom as to Defendant Vega. Dkt. 42-3 Decl. of
DDA Jane Creighton ¶ 7-8. Further, the failure of police to
administer Miranda warnings does not create a cause of action
for money damages under the 5th amendment here. A violation
of Miranda is not enough to sustain a claim under § 1983 because
there is no constitutional right to Miranda warnings themselves
and their purpose is to merely supply practical reinforcement for
the Fifth Amendment right against self-incrimination. New
York v. Quarles, 467 U.S. 649, 654 (1984); Oregon v. Elstad, 470
U.S. 298, 310 (1985); Veilleux v. Perschau, 101 F.3d 1, 1-3 (1st
Cir. 1996)(en banc); Jones v. Cannon, 174 F.3d 1271, 1291 (11th
Cir. 1999).
Inserting this Miranda issue is irrelevant,
misleading and confusing to the jury resulting in unfair
prejudice to Defendant. Defendant only supplies this language
if the Court overrules Defendant’s objection and insists that
Miranda should be considered.
5

Defendant contends that this factor is vague,
argumentative, and unnecessarily duplicative of factor No. 3,
“The manner in which the person was questioned.”
6 Defendant contends that this factor is vague,
argumentative, and unnecessarily duplicative of factor No. 3,
“The manner in which the person was questioned.”

111a
(7)

(8)
(9)

The tone of voice used and the promises
or representations made by the
questioner7
Tactics designed to generate a feeling of
helplessness8
Whether
the
officer’s
conduct
and
investigative techniques were objectively
coercive/compelling9.

PLAINTIFF’S PROPOSED INSTRUCTION RE:
MIRANDA NO. 4A
If Defendant Vega interrogated Plaintiff while in
custody without advising him of his rights to remain
silent and to consult an attorney, you may consider
that in determining whether the confession was
voluntary. These rights were established by Miranda
v. Arizona, and are referred to by that case name.
Defendant Vega denies that Plaintiff was in
custody for Miranda purposes, and therefore he was
not required to advise Plaintiff of his rights to remain
silent and to consult an attorney.
7

Defendant contends that this factor is vague,
argumentative, and unnecessarily duplicative of factor No. 3,
“The manner in which the person was questioned.”
8

Defendant contends that this factor is vague,
argumentative, and unnecessarily duplicative of factor No. 3,
“The manner in which the person was questioned.”
9

To coerce/compel a confession, the officer must logically
first engage in objectively compelling or coercive investigative
conduct. Cunningham v. City of Wenatchee, 345 F.3d 802, 811
(9th Cir. 2003) (“Further, Cunningham’s mental disorder cannot
invalidate his confession because he has not first shown that
Perez used coercive tactics”); Colorado v. Connelly, 479 U.S. 157,
167, 107 S.Ct. 515, 93 L.Ed.2d 473 (1986).

112a
If Plaintiff was “in custody” for Miranda purposes,
and Defendant Vega did not inform Plaintiff of his
rights, it would weigh in favor of a determination that
the confession was involuntary.
To determine whether Plaintiff was in custody,
and was therefore entitled to Miranda admonitions,
you should focus on the objective circumstances, not
the subjective views of the officer or the individual
being questioned. The ultimate question is whether
the officer created a setting from which a reasonable
person would believe that he or she was not free to
leave.
The following factors are among those likely to be
relevant to deciding that question:
(1) The language used to summon the individual;
(2) The extent to which the individual being
questioned is confronted with evidence of
guilt;
(3) The physical surroundings;
(4) The duration of the detention, and;
(5) The degree of pressure applied to detain the
individual.
Handcuffing is not required for a person to be “in
custody.”
United States v. Kim, 292 F.3d 969, 973-74 (9th Cir.
2002); Stoot v. City of Everett, 582 F.3d 910, 925 (9th
Cir. 2009), cert. denied sub nom. Jensen v. Stoot, 559
U.S. 1057 (2010).

113a
DEFENDANTS’ PROPOSED INSTRUCTION
RE: MIRANDA No. 4B10
Whether or not the circumstances legally required
Miranda rights and Plaintiff was informed of those
rights is only one factor among the objective totality
of the circumstances you may consider to determine
whether Plaintiff’s confession was illegally compelled.
However, whether or not Plaintiff was provided
Miranda rights is not solely determinative of whether
Plaintiff’s confession was illegally compelled in and of
itself, and you must consider and weigh all previously
mentioned factors in your decision.
Miranda rights are only required if Plaintiff
proves by a preponderance of the evidence that:
1) The Plaintiff was in legal custody by Deputy Vega;
and
2) The Plaintiff was interrogated by Deputy Vega
while in custody.
The custody determination is objective, and is not
based on the subjective views of the officers or the
individual being questioned. In determining whether
a suspect is in custody for purposes of Miranda, you
are to consider what objective circumstances
surrounded the interrogation. Second, you are to
decide whether a reasonable person in those
circumstances would have felt he or she was in
custody and not at liberty to terminate the
interrogation and leave.
Relevant factors to consider in determining
whether a suspect is in custody for purposes of
10 Defendant entirely objects to any language discussing
Miranda, and only submits this instruction should the Court
overrule Defendant’s objection. Please see fn. 5.

114a
Miranda are the location of the interrogation, the
length and manner of the questioning, indicia of
arrest, whether the suspect was handcuffed, whether
the officers let the suspect know they have focused the
investigation on him, and whether Plaintiff was
informed of his arrest prior to the questioning.
Handcuffs are normally among the main indicia of
custody.
Source:
United States v. Bassignani, 575 F.3d 879, 883 (9th
Cir. 2009); J.D.B. v. North Carolina, ––– U.S. ––––,
131 S.Ct. 2394, 2402, 180 L.Ed.2d 310 (2011);
Yarborough v. Alvarado, 541 U.S. 652, 662–63, 124
S.Ct. 2140, 158 L.Ed.2d 938 (2004); Thompson v.
Keohane, 516 U.S. 99, 112, 116 S.Ct. 457, 133 L.Ed.2d
383 (1995); Stansbury v. California, 511 U.S. 318,
322, 114 S.Ct. 1526, 128 L.Ed.2d 293 (1994); Winter v.
Scribner, No. CIV S-05-543 KJM EFB, 2012 WL
1189482, at *18 (E.D. Cal. Apr. 9, 2012), subsequently
aff’d, 577 F. App’x 651 (9th Cir. 2014); People v. Ochoa
(1998) 19 Cal.4th 353, 401–402, 79 Cal.Rptr.2d 408,
966 P.2d 442.); People v. Boyer (1989) 48 Cal.3d 247,
272, 256 Cal.Rptr. 96, 768 P.2d 610 [as clarified by
Stansbury].; Meridith v. Erath, 324 F.3d 1057, 1062
(9th Cir. 2003)
PLAINTIFF’S PROPOSED SUPPLEMENTAL
INSTRUCTION NO. 5
When a police officer questions a suspect, he
knows that any statement the suspect gives may be
used to prosecute that suspect. Moreover, he knows
that an obtained confession will almost certainly be
used to prosecute. Thus, while the officer may not

115a
actually introduce the statement into court, coercing
the confession sets in motion a series of acts by others
which the officer knows or reasonably should know
would cause the statement to be introduced.
Crowe v. Cty. of San Diego, 608 F.3d 406, 430 (9th Cir.
2010)
PLAINTIFF’S PROPOSED SUPPLEMENTAL
INSTRUCTION NO. 6
A confession is like no other evidence.
A
confession is among the most damaging evidence that
can be admitted against a person.
Arizona v. Fulminante, 499 U.S. 279, 296 (1991).
PLAINTIFF’S PROPOSED SUPPLEMENTAL
INSTRUCTION NO. 711
Plaintiff contends that Defendant Carlos Vega
deprived him of rights guaranteed by the Fifth
Amendment to the United States Constitution by
interrogating him while in custody without advising
him of his rights to remain silent and to consult an
attorney. These rights were established by Miranda
v. Arizona, and are referred to by that case name.
Defendant Vega denies that Plaintiff was in
custody for Miranda purposes.
To determine whether Plaintiff was in custody,
and was therefore entitled to Miranda admonitions,
11 Plaintiff proposed this instruction as an alternative to
Plaintiff’s Proposed Supplemental Instruction No. 4 & 4A to
preserve the record for appeal

116a
you should focus on the objective circumstances, not
the subjective views of the officer or the individual
being questioned. The ultimate question is whether
the officer created a setting from which a reasonable
person would believe that he or she was not free to
leave.
The following factors are among those likely to be
relevant to deciding that question:
(1) The language used to summon the individual;
(2) The extent to which the individual being
questioned is confronted with evidence of
guilt;
(3) The physical surroundings;
(4) The duration of the detention; and
(5) The degree of pressure applied to detain the
individual, although handcuffing is not
required for a person to be “in custody.”
In order to establish his Fifth-Amendment claim,
Plaintiff must prove by a preponderance of the
evidence that Defendant Carlos Vega obtained one or
more statements from him in violation of j\1iranda
that were subsequently used in the criminal case
against Plaintiff.
United States v. Kim, 292 F.3d 969, 973-74 (9th Cir.
2002); Stoot v. City of Everett, 582 F.3d 27 910, 925
(9th Cir. 2009), cert. denied sub nom. Jensen v. Stoot,
559 U.S. 1057 (2010).
***

117a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
TERENCE B. TEKOH,
Plaintiff
v.
DEPUTY CARLOS
VEGA,
Defendants

)
)
)
)
)
)
)
)
)
)

No.: CV 16-7297GW(SKx)
FINAL JURY
INSTRUCTIONS

FINAL JURY INSTRUCTIONS
***
II. Plaintiff's Claim: 42 U.S.C. § 1983 - Violation
of Constitutional Right
Plaintiff brings his claim under the federal
statute, 42 U.S.C. § 1983, which provides that any
person or persons who, under color of state law,
deprives another of any rights, privileges, or
immunities secured by the Constitution or laws of the
United States shall be liable to the injured party.
In order to prevail on his § 1983 claim against the
Defendant, Plaintiff must prove each of the following
elements by a preponderance of the evidence:
1. the Defendant acted under color of law; and

118a
2. the acts of that Defendant deprived the
Plaintiff of his particular rights under the United
States Constitution as explained in later instructions.
A person acts “under color of law” when the person
acts or purports to act in the performance of official
duties under any state, county, or municipal law,
ordinance, or regulation.
The parties have stipulated that Defendant Vega
was acting under color of law at the time of the
incident.
If you find Plaintiff has proved each of those
elements, and if you find that the Plaintiff has proved
all the elements he is required to prove under the
following instructions that deal with the particular
constitutional right, your verdict should be for the
Plaintiff. If, on the other hand, Plaintiff has failed to
prove any one or more of the elements in the following
instructions, your verdict should be for the
Defendant.
In order to establish that the acts or failures to act
of a defendant police officer deprived the Plaintiff of
his particular right under the United States
Constitution as explained in later instructions, the
Plaintiff must prove by a preponderance of the
evidence that the acts or failures to act of the
Defendant were so closely related to the deprivation
of the Plaintiff’s rights as to be the moving force that
caused the ultimate injury.
Plaintiff contends that Defendant Vega violated
his rights guaranteed by the Fifth Amendment to the
United States Constitution by improperly coercing or

119a
compelling an involuntary confession from him that
was later used against him in a criminal trial.
Defendant Vega denies that he improperly coerced
or compelled Plaintiff’s confession.
In order to prove that Defendant Vega violated his
Fifth Amendment right against self-incrimination,
Plaintiff must prove by a preponderance of the
evidence that:
(1) Defendant Vega obtained a confession or
incriminating statement from Plaintiff that was
used in a criminal trial or proceeding against him;
(2) that the confession or statement was
improperly coerced and not voluntary; and
(3) Defendant acted intentionally in obtaining
that coerced confession or statement.
A police officer acts “intentionally” when the
officer acts with a conscious objective to engage in
particular conduct. It is not enough to prove that the
officer negligently or accidentally engaged in the
improper action. But while the Plaintiff must prove
that the Defendant intended to act, the Plaintiff need
not prove that the Defendant intended to violate the
Plaintiff’s Fifth Amendment right against selfincrimination.
A confession is improperly coerced or compelled
under the Fifth Amendment if a police officer uses
physical or psychological force or threats not
permitted by law to undermine a person’s ability to
exercise his or her free will.
You must consider the objective totality of all the
surrounding circumstances. Whether a confession is

120a
improperly coerced or compelled depends on the
details of the interrogation.
Factors to consider include, but are not limited to:
(1) The location where the questioning took place
(for example at a police station or on a public
street), and whether the location was chosen by
the person or the officer;
(2) Was the person free to go or was the person
under arrest or physically restrained;
(3) Was the length of the questioning oppressive;
(4) What Plaintiff was told at the beginning of the
encounter and throughout its duration;
(5) The manner in which the person was
questioned – for example: was any actual force or
infliction of pain used on the person; was the
person (or anyone near or dear to him or her)
threatened either physically or psychologically;
was the officer’s gun drawn; did the officer
continually shout at the suspect for an extended
period; etc.
(6) If the warnings under the Miranda decision
(as described below) were required at the time,
whether the police advised the person being
questioned of his or her right to remain silent and
to have a counsel present during the custodial
interrogation; and
(7) Any other factors that a reasonable person
would find coercive under the circumstances.
Generally, in deciding whether a particular action
taken by a police officer in the situation was coercive,
you should consider whether a reasonable person
under those circumstances would have found that
action to be coercive or compelling. In other words,

121a
one looks objectively at the actions and language
utilized by the police officer to determine whether
that action and language would overcome a
reasonable person’s ability to exercise his or her free
will.
Normally, this will mean that a particular
suspect’s personal characteristics and subjective
reactions are not relevant, with the following
exception. Should the officer be aware that the
suspect has a personal sensitivity (such as the
suspect’s age or medical condition) which would
render him or her to be abnormally susceptible to
coercion through the application of physical or
psychological force in that area, you can consider
whether the officer knowingly and improperly used
that sensitivity to coerce a confession.
For example, the fact that an officer insists on
conducting the interrogation of a suspect in an open
field where the crime allegedly occurred would not be
coercive. However, if the officer is aware that the
suspect is agoraphobic (that is, he or she has an
abnormal fear of being in open places), the officer’s
continued insistence on keeping the suspect at that
location for an extended period of time could be
considered by the jury as a factor which demonstrates
that the officer was attempting to undermine the
suspect’s exercise of his or her free will.
Additionally, where certain of the officer’s actions
are permitted by law, those actions by themselves
cannot be considered coercive.
The following instruction is provided to assist you
in understanding the ways in which a police officer
can lawfully question a person.

122a
Voluntarily Answering Police Questions: There is
nothing in the Constitution which prevents or forbids
a policeman from addressing questions to anyone the
officer encounters at a public place. Absent special
circumstances, the person approached may not be
detained (that is, forced to remain at the location or
be frisked); and the person may refuse to cooperate
and go on his or her way.
Investigatory Stops: The Fourth Amendment of
the Constitution permits brief investigatory stops of
an individual by a law enforcement officer when the
officer has a “reasonable suspicion” of a crime, that is
a particularized and objective basis for suspecting
that the individual has been or is involved with
criminal activity. Although the individual can be
“seized” (that is detained against his or her will) by
the officer while pertinent questions are directed to
him or her, such an investigatory stop is not an arrest.
The person detained is not obliged to answer the
questions; answers may not be compelled; and a
refusal to answer furnishes no basis for an arrest –
although it may alert the officer to the need for
continued observation.
Arrests: Generally, an arrest occurs when, after
considering the entire situation, the conduct (that is
the words and actions) of the officer would cause an
innocent person to reasonably believe that he or she
will not be free (or permitted) to leave after a period
of questioning but that he or she is going to be held in
police custody for an indefinite period.
A law enforcement officer may lawfully arrest an
individual where the officer has “probable cause” to
believe that the individual has committed a crime.
Probable cause exists where the facts and
circumstances known by the officer at the time of the

123a
arrest are sufficient to warrant a reasonable person
to believe that there is a fair probability the
individual (to be arrested) has committed a particular
crime.
Probable cause does not require a
preponderance of the evidence.
Under the Supreme Court’s decision in Miranda v.
Arizona, 384 U.S. 436 (1966), in certain situations, a
suspect must be advised of his or her constitutional
rights (these are referred to as Miranda warnings and
they include the suspect’s right to remain silent and
the right to have counsel present at the interrogation)
before the police can lawfully engage in questioning
him or her. Miranda warnings are required only
where there has been such a restriction on a person’s
freedom as to render him or her to be held “in
custody.” The “ultimate inquiry” underlying the
question of custody is simply whether there was
either a formal arrest or a restraint on the person’s
freedom of movement to the degree associated with a
formal arrest. To determine whether the suspect is
“in custody,” one looks to the totality of the
circumstances that might affect how a reasonable
person in the suspect’s position would perceive his or
her freedom to leave. The custody determination is
objective and is not based upon the subjective views
of the interrogating officer or the individual being
questioned.
In determining whether the Plaintiff was “in
custody” and thus required the Miranda warnings to
be given, you are to consider all of the circumstances
surrounding the interrogation – including, but not
limited to:

124a
(1) the language used at the time of the initial
contact between the Defendant Vega and Plaintiff;
for example did Vega order Plaintiff to do
something or did Vega merely make a request;
(2) whether Plaintiff voluntarily approached or
accompanied the officer understanding that
questioning would ensue;
(3) who chose the location of the interrogation;
(4) the physical surroundings of the interrogation
– for example, was the questioning done at a police
station; how large was the room where the
interrogation was conducted; were the door(s)
opened or closed, etc.;
(5) was any form of force, threat of force, or
physical restraints used during the interrogation;
(6) the extent to which Plaintiff was confronted
with evidence of guilt (although mere accusations
or misrepresentations linking a suspect to a crime
or statements which inflate the extent of evidence
against a suspect do not necessarily render a
confession involuntary);
(7) was the duration of the detention while the
Plaintiff was being questioned excessive or
unjustified;
(8) whether Plaintiff was ever told that he was
not free to leave during the interrogation; or
whether he was told that he was under arrest prior
to his making any incriminating statement, and
(9) the degree of pressure (if any) applied by Vega
to detain the Plaintiff.
The circumstances surrounding an interrogation
can change over time, such that an initial encounter
which would not be found to be “custodial” in nature

125a
can develop into an arrest or an equivalent “in
custody” situation following certain actions or
statements by the officer.
Additionally, merely because a suspect confesses
during an interrogation does not necessarily mean
that he or she was in custody at the time he or she
confessed to a crime.
Under California Penal Code § 289(d), it is a felony
for a person to commit an act of sexual penetration on
a victim when the victim is, at the time, unconscious
of the nature of the act and this is known to the person
committing the act. “Unconscious of the nature of the
act” means incapable of resisting because the victim
was unconscious or asleep or was not aware, knowing,
perceiving, or cognizant that the act occurred.
Evidence was offered at trial that Plaintiff was
acquitted of the sexual assault charge in a criminal
trial. However, the validity of the arrest does not
depend on whether the suspect actually committed a
crime. Where probable cause exists at the time of an
arrest, the arrest does not violate the Constitution
even if charges are later dropped or the person
arrested is subsequently acquitted. The probable
cause standard requires far lesser evidence and facts
than “guilt beyond a reasonable doubt” standard
which is the criterion used in criminal trials.
Finally, the jury is reminded that the sole claim
before You is whether Defendant Vega unlawfully
coerced an involuntary confession from the Plaintiff
in violation of his Fifth Amendment right against selfincrimination. You are not to consider any other
possible claims. For example, it has been established

126a
that Defendant Vega did not violate Plaintiff’s rights
or cause Plaintiff’s injuries by arresting him without
probable cause. Additionally, it has been established
that Defendant Vega did not violate Plaintiff’s rights
or cause Plaintiff’s injuries by deliberately fabricating
evidence that was used to criminally charge or to
prosecute him.
Plaintiff was found not guilty in his criminal trial.
You are not here to re-try that criminal case or to
determine his guilt or innocence. If any witness
questioned the verdict in the criminal case, you must
disregard that particular portion of the testimony.
***

